APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit, No. 0999027
(May 13, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum of Decision and Order
and Judgment in the United States
District Court for the District of
Arizona, No. CV 07-2120-PHX-DGC
(October 19, 2009) . . . . . . . . . . . . App. 82
Appendix C Decision and Order in the Superior
Court, State of Arizona, in and for the
County of Yavapai, No. CR 94-0694
(May 10, 2006). . . . . . . . . . . . . . App. 186
Appendix D Opinion in the Supreme Court of
Arizona, No. CR-97-0280-AP
(June 29, 1999) . . . . . . . . . . . . . App. 191
Appendix E Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Ninth Circuit, No. 09-99027
(December 18, 2019) . . . . . . . . . App. 230

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 09-99027
D.C. No. 2:07-cv-02120-DGC
[Filed May 13, 2019]
_____________________________
GEORGE RUSSELL KAYER,
)
Petitioner-Appellant, )
)
v.
)
)
CHARLES L. RYAN, Warden,
)
Director of the Arizona
)
Department of Corrections,
)
Respondent-Appellee. )
_____________________________ )
OPINION
Appeal from the United States District Court
for the District of Arizona
David G. Campbell, District Judge, Presiding
Argued and Submitted March 8, 2018
Pasadena, California
Filed May 13, 2019

App. 2
Before: William A. Fletcher, John B. Owens,
and Michelle T. Friedland, Circuit Judges.
Opinion by Judge W. Fletcher;
Partial Concurrence and Partial Dissent
by Judge Owens
SUMMARY*
Habeas Corpus / Death Penalty
The panel reversed in part and affirmed in part the
district court’s judgment denying Arizona state
prisoner George Russell Kayer’s habeas corpus
petition, and remanded with directions to grant the
writ with respect to Kayer’s death sentence.
The panel held that the Arizona Supreme Court
erred in rejecting Kayer’s proffered mental-impairment
mitigation evidence on the ground that the alleged
impairment did not have a causal nexus to the
commission of the crime. The panel held that this
erroneous ruling, which was an alternative holding,
was harmless because the Arizona Supreme Court’s
principal holding – that Kayer presented so little
evidence of mental impairment that he failed to
establish even the existence of any such impairment –
was a reasonable determination of the facts.
The panel reversed the district court’s denial of
relief on Kayer’s claim that he was denied his Sixth
Amendment right to effective assistance of counsel due
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3
to his attorneys’ inadequate mitigation investigation in
preparation for his penalty phase hearing. The panel
held that in failing to begin penalty-phase investigation
promptly after they were appointed, Kayer’s attorneys’
representation fell below an objective standard of
reasonableness; and that the conclusion of the state
post-conviction-relief (PCR) court that Kayer’s
attorneys provided constitutionally adequate
performance was contrary to, or involved an
unreasonable application of, clearly established Federal
law, as determined by the Supreme Court. The panel
concluded that but for counsel’s deficient performance,
there is a reasonable probability Kayer’s sentence
would have been less than death, and that the state
PCR court was unreasonable in concluding otherwise.
The panel did not need to reach the question
whether the sentencing court acted properly in denying
a continuance, and agreed with the district court that
none of the procedurally-defaulted claims Kayer sought
to revive was substantial in the sense necessary to
support a finding of cause and prejudice under
Martinez v. Ryan, 566 U.S. 1 (2012). The panel declined
to certify two additional claims.
Concurring in part and dissenting in part, Judge
Owens disagreed that the death sentence must be
reversed because he could not say that the Arizona
PCR court acted unreasonably regarding prejudice in
light of the aggravating and mitigating circumstances
in this case.

App. 4
COUNSEL
Jennifer Y. Garcia (argued) and Emma L. Smith,
Assistant Federal Public Defenders; Jon M. Sands,
Federal Public Defender; Office of the Federal Public
Defender, Phoenix, Arizona; for Petitioner-Appellant.
John Pressley Todd (argued), Special Assistant
Attorney General; Jacinda A. Lanum, Assistant
Attorney General; Lacey Stover Gard, Chief Counsel;
Dominic Draye, Solicitor General; Mark Brnovich,
Attorney General; Office of the Attorney General,
Phoenix, Arizona; for Respondent-Appellee.
OPINION
W. FLETCHER, Circuit Judge:
George Russell Kayer was convicted of first degree
murder and sentenced to death in Arizona Superior
Court in 1997. During a brief penalty-phase hearing,
Kayer’s counsel argued as a mitigating circumstance
that Kayer suffered from mental illness and was a
substance abuser, but provided very little evidence to
support the argument. The judge held that Kayer had
not established any mental impairment due to mental
illness or substance abuse. He sentenced Kayer to
death.
On direct appeal, the Arizona Supreme Court
performed an independent review of Kayer’s death
sentence, as required under Arizona law. The Court
found two statutory aggravating circumstances—a
previous conviction of a “serious offense” in 1981, and
“pecuniary gain” as a motivation for the murder. State

App. 5
v. Kayer, 984 P.2d 31, 41–42 (Ariz. 1999). The Court
found one non-statutory litigating circumstance—
Kayer’s importance in the life of his son. Id. at 42. After
weighing the two aggravating circumstances against
the one mitigating circumstance, the Arizona Supreme
Court affirmed Kayer’s death sentence.
As he had in the trial court, Kayer argued in the
Arizona Supreme Court for a mitigating circumstance
based on mental impairment due to mental illness
and/or substance abuse. The Court refused to find a
mitigating circumstance based on mental impairment,
as either a statutory or non-statutory mitigator. First,
the Court refused to find that such impairment existed
at all. In the view of the Court, the existence of such
impairment was merely speculative. Second, in the
alternative, the Court held that even if there had been
non-speculative evidence of the existence of such
impairment, Kayer had failed to establish a “causal
nexus” between the alleged impairment and the
murder.
In a post-conviction relief (“PCR”) proceeding in
Arizona Superior Court, Kayer argued that his trial
counsel had provided ineffective assistance at the
penalty phase. Kayer presented evidence in the PCR
court that his trial counsel had performed little
investigation of mitigating circumstances. He also
presented extensive evidence of mental impairment
due to mental illness and substance abuse which, he
contended, competent counsel would have discovered
and presented to the sentencing court. The PCR court
denied relief, holding that Kayer’s counsel had not been
ineffective, and that, in any event, any deficiencies in

App. 6
his counsel’s performance did not prejudice Kayer. The
Arizona Supreme Court declined review without
comment.
Kayer then sought federal habeas corpus. The
district court denied relief. On appeal to us, Kayer
makes two claims with which we are centrally
concerned. First, Kayer claims that the Arizona
Supreme Court on direct appeal violated his Eighth
Amendment right to be free of cruel and unusual
punishment by applying its unconstitutional “causal
nexus” test to his proffered mitigating evidence of
mental illness and substance abuse. See Eddings v.
Oklahoma, 455 U.S. 104 (1982); McKinney v. Ryan, 813
F.3d 798 (9th Cir. 2015) (en banc). Second, Kayer
claims that the Arizona Superior Court on postconviction review erred in holding that his Sixth
Amendment right to counsel was not violated by his
counsel’s deficient performance at the penalty phase.
See Strickland v. Washington, 466 U.S. 668 (1984).
For the reasons that follow, we decline to grant
relief on Kayer’s Eddings causal-nexus claim but grant
relief on his Strickland ineffective-assistance-of-counsel
claim. We reverse the judgment of the district court
and remand with directions to grant the writ with
respect to Kayer’s sentence.
I. Factual and Procedural History
A. Factual History
Lisa Kester approached a security guard at a Las
Vegas hotel on December 12, 1994, to report that her
boyfriend, George Russell Kayer, had killed Delbert
Haas in Yavapai County, Arizona, ten days earlier.

App. 7
State v. Kayer, 984 P.2d 31, 35 (Ariz. 1999). Kester was
arrested and interrogated. The following account of the
events leading up to and culminating in Haas’s murder
is largely based on Kester’s narrative at trial, as
summarized by the Arizona Supreme Court on direct
appeal.
On November 30, 1994, Kayer, Kester, and Haas
traveled in Haas’s van from Arizona to Nevada on a
gambling trip. The three of them spent their first night
sharing a room at a hotel in Laughlin, Nevada. Kayer
told Haas that night that he had “won big” during the
day using a special gambling system. Kayer knew that
Haas had recently received money from an insurance
settlement. He convinced Haas to lend him about $100.
The next day, Kayer lost all the money Haas had
lent him. Kayer lied to Haas, telling him that he had
again “won big,” id. at 36, but that someone had stolen
his money. Kester asked Kayer what he planned to do
now that he was out of cash. Kester testified that
Kayer replied that he would rob Haas. Kester pointed
out that Haas would easily identify Kayer as the thief.
According to Kester, Kayer responded, “I guess I’ll just
have to kill him.” Id.
On December 2, Kayer, Kester, and Haas drove
back to Arizona. Kester recounted in a pretrial
interview that the three of them consumed a case of
beer during the several-hour drive. Haas argued with
Kayer about how Kayer would repay him. During a
stop to buy snacks and use the bathroom, Kayer pulled
a gun from beneath a seat in the van and put it in his
pants. He asked Kester if she was “going to be all right

App. 8
with this.” Id. Kester responded that she wanted Kayer
to warn her before he pulled the trigger.
Kayer, who was driving, left the main highway,
purporting to take a shortcut. He stopped the van by
the side of a back road. Haas got out of the van and
walked toward the back to urinate. Kester started to
get out of the van, but Kayer stopped her, motioning to
her with the gun. Through the back window of the van,
Kester saw Kayer walk up behind Haas and shoot him
in the head while he was urinating.
Kayer dragged Haas’s body into the bushes; took
Haas’s wallet, watch and jewelry; got back in the van;
and drove away with Kester. Kayer realized that he
had forgotten to get Haas’s house keys and drove back
to where they had left his body. Kayer got out of the
van to retrieve the keys, but returned and asked for the
gun, saying that Haas did not appear to be dead. Kayer
went back to Haas’s body, and Kester heard a second
shot.
Kayer and Kester drove to Haas’s home in Arizona
and stole several items to pawn and sell at flea
markets. They spent the next week pawning and
selling the stolen property and gambling with the
proceeds. Ten days after the murder, Kester
approached a security guard in Las Vegas and reported
that Kayer had killed Haas. She was taken into
custody. Kayer was taken into custody soon afterwards.
Kayer and Kester were indicted for first degree
murder on December 29, 1994. The State initially
announced that it would seek the death penalty against
both of them. In September 1995, Kester entered into

App. 9
a plea agreement under which the State agreed not to
seek the death penalty and, further, to limit
dramatically her potential sentence. Under the
agreement, Kester would receive, at worst, a six-and-ahalf-year prison sentence. At best, she would be
sentenced to probation. In exchange, Kester agreed to
testify truthfully at Kayer’s trial, consistent with her
previous statement to the police. Kester testified as
promised. After Kayer was convicted, Kester was
sentenced to three years probation.
B. Procedural History
1. Trial, Conviction, and Sentencing
The jury convicted Kayer of first degree murder on
March 26, 1997. Kayer’s “aggravation/migitation
hearing” took place on July 8, 1997. His attorneys put
on five witnesses. Their testimony was finished before
noon.
First, Jerry Stoller, a “detention officer” who worked
in the law library of the county jail, testified that Kayer
was always “very busy” when at the library, always
taking “the full three hours.” When asked if Kayer’s
“conduct has always been good,” Stoller responded, “In
my presence, yes.”
Second, Cherie Rottau, Kayer’s seventy-six-year-old
mother, testified that Kayer had been generally well
behaved during high school. She testified that Kayer’s
father had died when he was in kindergarten and that
she had not remarried until after Kayer had graduated
from high school. She recounted that when Kayer was
a teenager, he had shot two jackrabbits at her sister’s
house in the country. Afterwards, “He said, ‘You know,

App. 10
that’s not right to go out there and kill things.’ He said,
‘I’ll never kill another thing as long as I live.’ And to my
knowledge, he hasn’t.” She testified that she did not
have “any concerns about him until he was older,”
when he was nineteen and had already graduated from
high school. “I noticed a change in him. . . . [H]e would
work 24 hours and then when he’d get to sleep he’d
sleep a long time, . . . [W]hen he was happy he was real
happy.” “[W]hen he gets depressed, he just gets down
at the bottom of the well, and when he’s happy, . . .
there’s nothing he can’t do when he’s happy. And he
does accomplish a lot.” She testified that Kayer’s
fourteen-year-old son had been “dropped” in the
delivery room, and that he had “difficulties with school
and certain other developmental things.” She testified
that Kayer and his son were “real close” and that Kayer
had been “active in trying to get . . . educational
assistance” for his son.
Third, Kayer’s older half-sister, Jean Hopson,
testified that Kayer’s father (her stepfather) had
drinking and gambling problems, and that Kayer had
the same problems, beginning in his early twenties.
She testified, “[H]e was a happy kid as a school kid,
and I think his problems started when he was in the
service, and shortly afterwards, getting married.” She
testified, further, that Kayer had “[h]ighs and lows.”
“We did have a family discussion one time, and he . . .
was diagnosed, I guess, as a bipolar manic-depressive,
or something like that.” “I believe [he was diagnosed]
at the VA hospital. At one point, he checked himself
in.” “He is supposed to be on lithium now, but he read
up on the side effects of lithium, how it can affect your
liver and different body organs, and he will not take it.”

App. 11
“I don’t really totally understand the bipolar manicdepressive. I understand it enough to know that there
are ups and downs[.]”
Fourth, Mary Durand, who had just been hired as
a mitigation specialist for Kayer, testified:
In a normal mitigation case you would
spend probably 100 hours at a minimum
with the client, developing a rapport,
learning information, taking a social
history, gaining his confidence or her
confidence so that you can get them to
share with you things that are sometimes
extraordinarily painful, sometimes things
they don’t want to relive, sometimes
things they have buried and merely don’t
remember until other people start giving
anecdotal evidence.
Durand testified that she had been able to interview
Kayer only twice, for a total of six or seven hours.
Durand testified that although she had been able to
interview some of Kayer’s family members, the only
documentary evidence she had been able to obtain was
Kayer’s “criminal court records from his prior
involvements with the law.” She had not been able “to
get any of the psychiatric records from any of his stays
at psychiatric hospitals around the country.” She
“didn’t get any of his school records, medical records,
any of his military records.” Based on the information
she was able to obtain, Durand testified that there was
a “family history on both sides of alcoholism”; that
there was a “history of mental illness”; and that Kayer

App. 12
was slow to develop as a child. She testified that Kayer
“was allegedly diagnosed as a manic-depressive and
was having such a manic state and then such a
severely depressive state while he was in the military
that he was allowed to get out of his military
enlistment honorably, but under medical conditions[.]”
When asked whether she had sufficient information
“to give any sort of reliable opinions to the judge as far
as mitigating elements,” Durand responded:
I would certainly not be qualified to give
a medical opinion about a diagnosis of a
psychiatric condition, and I do not feel
comfortable giving an opinion about the
length, breadth and depth of any other
issue I have spoken to, because I have not
been able to do my investigation. I do
believe they exist. I do not know to what
degree, for what length, and what
duration, and how serious.
(Emphasis added.)
After Durand finished her testimony, the judge
noted that sentencing was scheduled for July 15, a
week later. He asked Kayer whether he wished more
time for further investigation:
Do you want more time? By asking you
the question, I’m basically saying if you
tell me right now that you’ve considered
it, and you want more time, I’m prepared
to give you more time. But I think you are
an intelligent individual. You know what
she’s just testified to. . . . You got the

App. 13
information, you got the intelligence,
you’ve talked to counsel, you’ve heard Ms.
Durand. Your call.
Kayer replied that he did not want more time.
Finally, Kayer’s son testified. His testimony took
only eleven lines of transcript.
At sentencing on July 15, the trial judge held that
the state had established two statutory aggravating
circumstances—that Kayer had been previously
convicted of a “serious offense” and that the murder
was committed for “pecuniary gain.” However, the
judge refused to find as an additional aggravating
circumstance that the murder was committed in “an
especially heinous, cruel or depraved manner.” He
explained:
The pathologist was not able to testify
anything . . . as to the suffering of [the]
victim in this case, so that would be the
necessary finding as far as cruelty. As to
heinous and depraved, that deals with
your thoughts and conduct surrounding
the murder and the events afterward. As
I read the case law and the description, I
do not find that the evidence presented
rises beyond a reasonable doubt as far as
proving heinous and depraved . . . .
The trial judge found that Kayer had established
only one mitigating circumstance—the non-statutory
mitigator that Kayer had “become an important figure
in the life of his son.” The judge held that he could not
find mental impairment as a mitigating circumstance.

App. 14
He stated, “I must find it by a preponderance of the
evidence. I simply cannot. It has not been presented in
any way, shape or form that would rise to that level.”
The judge concluded that Kayer’s relationship with his
son did not outweigh his prior conviction and his
pecuniary motive for killing Haas. He sentenced Kayer
to death.
2. Direct Appeal
Kayer appealed to the Arizona Supreme Court. See
Ariz. Rev. Stat. § 13-4031 (1997); State v. Kayer, 984
P.2d 31 (Ariz. 1999). That Court conducted an
independent review of Kayer’s death sentence, in
accordance with Arizona law.
On direct review, the Arizona Supreme Court found
the same two statutory aggravating circumstances that
the trial court had found—prior conviction of a serious
offense and commission of murder for pecuniary gain.
It also found the same non-statutory mitigating
circumstance as the trial court—Kayer’s “importance in
the life” of his son.
As he had to the trial court, Kayer argued to the
Arizona Supreme Court that he had a mental
impairment that qualified as either a statutory or a
non-statutory mitigating circumstance.
First, Kayer argued that his mental impairment
qualified as a statutory mitigation circumstance under
Arizona Revised Statutes § 3-703(G)(1) (as it was then
numbered), which required that the “defendant’s
capacity to appreciate the wrongfulness of his conduct
or to conform his conduct to the requirements of [the]
law [be] significantly impaired, but not so impaired as

App. 15
to constitute a defense to prosecution.” Kayer, 984 P.2d
at 45. Kayer argued that “his history of mental illness,
including a history of suicide ideation, a history of
alcoholism in his family, and his own polysubstance
abuse, establishes the existence of this mitigating
factor under the preponderance standard.” Id. The
Arizona Supreme Court disagreed. It held that Kayer
had presented insufficient evidence to establish the
existence of any mental impairment whatsoever. The
Court wrote that Kayer “did not establish as threshold
evidence the existence of any of these factors, let alone
their influence on preventing him from conforming his
conduct to the law or appreciating the wrongfulness of
his conduct.” Id. The Court also held, in the
alternative, that Kayer had failed to establish a “causal
nexus” between the alleged impairment and the
murder.
Second, Kayer argued that his mental impairment
qualified as a non-statutory mitigation circumstance.
The Court held, as it had with respect to statutory
mitigation, that Kayer had failed to present sufficient
evidence to establish the existence of any impairment.
The Court discounted Durand’s tentative conclusions,
writing that “Durand speculated that defendant
suffered from mental difficulties.” Id. at 46. The Court
concluded, “[T]he record shows that the existence of
impairment, from any source, is at best speculative.”
Id. In the alternative, the Court concluded that Kayer
had failed to establish a causal nexus:
Further, in addition to offering equivocal
evidence of mental impairment,
defendant offered no evidence to show the

App. 16
requisite causal nexus that mental
impairment affected his judgment or his
actions at the time of the murder.
Id.
After an independent weighing of the two
aggravating circumstances and the one mitigating
circumstance, the Arizona Supreme Court affirmed
Kayer’s death sentence.
3. Post-Conviction Proceedings
Kayer filed a post-conviction relief (“PCR”) petition
in Arizona Superior Court. See Ariz. R. Crim. P. 32.1.
In accordance with Arizona law, Kayer’s trial judge
presided over his PCR proceedings.
Kayer claimed that the “trial court and the Arizona
Supreme Court incorrectly applied United States
Supreme Court law when they required [that]
mitigating factors have a ‘causal nexus’ to the crime,”
in violation of Eddings v. Oklahoma, 455 U.S. 104
(1982). The state responded that Kayer had
procedurally defaulted his causal nexus Eddings claim
“by not raising it in his direct appeal, or in a motion for
reconsideration.” The PCR court agreed, concluding
that Kayer had procedurally defaulted this claim under
Arizona Rule of Criminal Procedure 32.2(a)(3).
Kayer also claimed that his Sixth Amendment right
to counsel was violated when his trial counsel failed to
conduct a constitutionally adequate mitigation
investigation. The PCR court conducted a nine-day
evidentiary hearing at the end of March 2006, during
which Kayer’s attorneys presented witnesses and

App. 17
documentary evidence showing the mitigation evidence
that Kayer’s trial attorneys could have uncovered had
they performed a constitutionally adequate
investigation. We describe this evidence in detail
below. See infra, Section IV.
The PCR court issued a very brief written decision
on May 8, 2006, rejecting Kayer’s Sixth Amendment
ineffective assistance claim. The court concluded that
Kayer had “voluntarily prohibited his attorneys from
further pursuing and presenting any possible
mitigating evidence.” It concluded, in the alternative,
that if deficient performance under Strickland v.
Washington, 466 U.S. 668 (1984), had been shown, “no
prejudice to the defendant can be found.”
The Arizona Supreme Court denied without
explanation Kayer’s Petition for Review of the Superior
Court’s denial of post-conviction relief.
4. Federal Habeas Petition
On December 3, 2007, Kayer filed a timely petition
in federal district court for a writ of habeas corpus
under 28 U.S.C. § 2254(d). The district court denied
relief, and Kayer appealed to this court. We remanded
to the district court to give Kayer an opportunity to
establish cause and prejudice pursuant to Martinez v.
Ryan, 566 U.S. 1 (2012), for his counsel’s procedural
default in state court. The district court again denied
relief. This appeal followed.

App. 18
II. Standard of Review
“We review the district court’s denial of [a] § 2254
habeas corpus petition de novo.” Deck v. Jenkins, 814
F.3d 954, 977 (9th Cir. 2014).
Kayer’s habeas petition is subject to the
Antiterrorism and Effective Death Penalty Act
(“AEDPA”). See Lindh v. Murphy, 521 U.S. 320, 322–23
(1997). Under AEDPA, “[w]e review the last reasoned
state court opinion.” Musladin v. Lamarque, 555 F.3d
830, 834 (9th Cir. 2009). In this case, that opinion is
the written order of the state PCR court.
AEDPA provides that where a state court has
adjudicated a claim on the merits, relief may be
granted only if the state court decision was “contrary
to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme
Court of the United States,” or if the state court
decision rests on “an unreasonable determination of the
facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d)(1), (2). “[A] statecourt decision is contrary to [Supreme Court] precedent
if the state court arrives at a conclusion opposite to
that reached by [the] Court on a question of law . . . [or]
if the state court confronts facts that are materially
indistinguishable from a relevant Supreme Court
precedent and arrives at [the opposite] result . . . .”
Williams v. Taylor, 529 U.S. 362, 405 (2000). A state
court unreasonably applies Supreme Court precedent
“if the state court identifies the correct governing legal
principle from the Supreme Court’s decisions but
unreasonably applies that principle to the facts of the
prisoner’s case.” Mann v. Ryan, 828 F.3d 1143, 1151

App. 19
(9th Cir. 2016) (en banc) (alteration omitted) (quoting
Williams, 529 U.S. at 413). “[W]e may only hold that a
state court’s decision was based on an unreasonable
determination of the facts if ‘we are convinced that an
appellate panel, applying the normal standards of
appellate review, could not reasonably conclude that
the finding is supported by the record.’” Murray v.
Schriro, 745 F.3d 984, 999 (9th Cir. 2014) (quoting
Taylor v. Maddox, 366 F.3d 992, 1000 (9th Cir. 2004)).
Neither of these standards “require[s] citation of
[Supreme Court] cases . . . [or] even require[s]
awareness of [Supreme Court] cases, so long as neither
the reasoning nor the result of the state-court decision
contradicts them.” Early v. Packer, 537 U.S. 3, 8 (2002)
(per curiam).
We review de novo an exhausted claim that a state
court has failed to decide on the merits. See Pirtle v.
Mogan, 313 F.3d 1160, 1167 (9th Cir. 2002). We may
not grant habeas relief if an error in state court was
harmless. See Brecht v. Abrahamson, 507 U.S. 619, 638
(1993).
III. Causal Nexus and Ineffective Assistance
of Counsel
There are four certified questions before us. The
first two are the most important. First, Kayer contends
that the trial court and the Arizona Supreme Court on
direct appeal violated Eddings v. Oklahoma, 455 U.S.
104 (1982), by applying an unconstitutional “causal
nexus” test under which a circumstance is not
mitigating unless causally connected to the commission
of the crime. Eddings held under the Eighth
Amendment that a sentencer may not “refuse to

App. 20
consider, as a matter of law, any relevant mitigating
evidence.” Id. at 113 (emphasis in original). Second,
Kayer contends that the Arizona PCR court erred in
holding that his right to counsel under the Sixth
Amendment under Strickland had not been violated.
We consider these two questions in turn.
A. Causal Nexus
Kayer contends that the trial court and the Arizona
Supreme Court violated Eddings. The State responds
that Kayer procedurally defaulted and failed to exhaust
his Eddings claim. In the alternative, the State
contends on the merits that the Arizona Supreme
Court did not violate Eddings.
1. Procedural Default and Exhaustion
If Kayer procedurally defaulted and did not properly
exhaust his causal nexus claim under Eddings, we may
not grant his habeas petition on this claim. 28 U.S.C.
§ 2254(b)(1)(A), (c); Wainwright v. Sykes, 433 U.S. 72,
86–87 (1977). A petitioner “must give the state courts
one full opportunity to resolve any constitutional issues
by invoking one complete round of the State’s
established appellate review process.” O’Sullivan v.
Boerckel, 526 U.S. 838, 845 (1999). It is a close question
whether Kayer has procedurally defaulted and failed to
exhaust his Eddings claim. Because we conclude that
if we reach Kayer’s Eddings claim we must deny it on
the merits, we will assume without deciding that there
was no procedural default and failure to exhaust.

App. 21
2. Merits
We held in McKinney v. Ryan, 813 F.3d 798, 802,
821 (9th Cir. 2015) (en banc), that the Arizona
Supreme Court’s “causal nexus” rule, which “forbade as
a matter of law giving weight to mitigating evidence
. . . unless the background or mental condition was
causally connected to the crime,” violated Eddings. Our
opinion in McKinney included a long string cite of cases
in which the Arizona Supreme Court had applied its
unconstitutional causal nexus test. The string cite
included the Court’s affirmance of Kayer’s death
sentence on direct appeal. See McKinney, 813 F.3d at
816 (citing Kayer, 984 P.2d at 46).
In explaining its conclusion that Kayer’s alleged
“mental impairment” was not a mitigating
circumstance, the Arizona Supreme Court on direct
appeal wrote that Kayer “offered no evidence to show
the requisite causal nexus that mental impairment
affected his judgment or his actions at the time of the
murder.” Kayer, 984 P.2d at 46 (emphasis added). The
emphasized language shows that the Arizona Supreme
Court viewed causal nexus as a prerequisite to the
existence of a mitigating circumstance—not merely, as
the state argues, as a factor bearing on the weight to be
accorded to a mitigating circumstance. The Court
therefore erred in rejecting Kayer’s proffered mental
impairment evidence on the ground that the alleged
impairment did not have a causal nexus to the
commission of the crime. See McKinney, 813 F.3d at
821.
However, we cannot grant habeas relief if a
constitutional error was harmless. See Brecht, 507 U.S.

App. 22
at 637. Here, the error was harmless. The Arizona
Supreme Court’s causal nexus ruling was an
alternative holding. The Court’s principal holding was
that Kayer had presented so little evidence of mental
impairment that he had failed to establish even the
existence of any such impairment. See Kayer, 984 P.2d
at 46. We recounted above the scant evidence of mental
impairment presented by Kayer’s counsel during the
penalty phase. Based on the evidence then before it,
the Arizona Supreme Court made a reasonable
determination of the facts in concluding that Kayer
suffered from no mental impairment. 28 U.S.C.
§ 2254(d)(2).
B. Ineffective Assistance of Counsel
Kayer also contends that he was denied his Sixth
Amendment right to effective assistance of counsel due
to his attorneys’ inadequate mitigation investigation in
preparation for his penalty phase hearing. See Wiggins
v. Smith, 539 U.S. 510, 521–22 (2003). Kayer argued to
the state PCR court, and continues to argue here, that
his defense attorneys should have taken steps to
investigate mitigation evidence beginning at the time
of their appointment. Kayer presented to the PCR court
evidence relating to both deficient performance and
prejudice.
1. Deficient Performance
a. Linda Williamson
Kayer was indicted on December 29, 1994. Linda
Williamson was appointed to represent him in January
1995. Williamson was then in her fourth year as a
lawyer. She testified in the state PCR court that after

App. 23
graduating from law school she had worked for the
Maricopa County Public Defender’s office for three
years. While there she had “participated in” “at least”
six criminal trials. In December 1993, she left that
office and moved to Prescott, Arizona, in Yavapai
County. After arriving in Prescott, she worked for eight
months for a criminal attorney and did one
“misdemeanor DUI.” She then began work as a
contract attorney for the county. When Williamson got
the contract to represent Kayer shortly thereafter, she
had never represented a client in a murder case, let
alone a capital case.
Williamson testified in the PCR court that Kayer
told her that he had not killed Haas. Williamson’s
paralegal’s billing records reflect that this interview
took place around February 1995, about a month after
Williamson was appointed. After interviewing Kester,
Williamson concluded that a jury was likely to credit
her account rather than Kayer’s, and that Kayer’s
chance of acquittal if Kester testified was “slim to
none.” She testified, “I did not see this case as fact-wise
being favorable to Mr. Kayer in any way, shape, or
form.”
Williamson testified that she concluded that the
best guilt-phase strategy was to delay and to hope that
Kester “would implode and not become the star witness
for the state.” Kester had previously suffered from drug
addiction and she was pregnant with Kayer’s child.
Williamson hoped that Kester might again succumb to
addiction, and that she might disappear or decide not
to testify because of her personal relationship with
Kayer.

App. 24
Williamson testified that she asked a more
experienced attorney, James Bond, to “second chair”
the case. Williamson testified that she engaged Bond to
help her with the trial rather than with pre-trial
preparation. Bond testified in the PCR court that he
billed no time on the case and knew almost nothing
about it. The record is unclear as to whether Bond even
entered an appearance on Kayer’s behalf.
The county compensated Williamson at a very low
rate. She testified that the county paid a lump sum of
less than $500.00 for the first 80 hours of work, and at
a rate of $40.00 per hour after that. Williamson billed
a total of 122 hours, including the first 80 hours.
Williamson had the assistance of a retired detective
who worked as an investigator, though he was billed as
a paralegal because he did not have an investigator’s
license. Williamson testified that the investigator “did
a lot of investigation to find out what the State’s case
[was].”
Williamson represented Kayer for seventeen and a
half months. She visited Kayer infrequently, once
allowing eight to ten months to elapse between visits.
She did no preparation for a penalty phase trial. She
testified, “I can absolutely tell you there was no focus
on mitigation as far as penalty phase.” Williamson
testified that she never consulted a mitigation expert.
When asked whether her decision not to investigate
mitigation was strategic, she testified, “I don’t know if
it was strategic.” “I can’t tell you specifically that I ever
thought about mitigation pretrial.” Her investigator
spent no time preparing for the penalty phase.

App. 25
On June 21, 1996, Williamson was allowed to
withdraw from representing Kayer on the ground that
the attorney-client relationship had broken down.
b. David Stoller and Marc Victor
David Stoller was appointed to replace Williamson
at the end of June 1996. Before becoming a defense
attorney, Stoller had worked for a number of years as
a prosecutor. He testified in the PCR court that as a
prosecutor he had tried “probably” forty to fifty felony
cases, including one death penalty case. He also had
done “some post-conviction relief matters that were
death penalty as a prosecutor,” and had done two postconviction matters as a defense counsel. He had never
defended a capital case as trial counsel.
Stoller worked on his own for three and a half
months. He had no paralegal and he did much of his
own secretarial work. Some secretarial work was hired
out on a piece-work basis. On September 17, 1996, at
the request of Kayer, Marc Victor was appointed as
second chair. Victor had graduated from law school two
years earlier, in the spring of 1994. Victor had formed
a relationship with Kayer while representing him in a
“prison contraband” case that arose while Kayer was
being held in county jail awaiting trial in his capital
case.
Stoller testified in the PCR court that no mitigation
investigation had been done before he was appointed to
represent Kayer. He found the guilt-phase work done
by Williamson’s investigator unhelpful. He testified, “I
was going to have to redo, re-plow the ground myself.”
Stoller testified that he nonetheless did not “initially”

App. 26
“seek the assistance of investigative services” when he
was appointed to represent Kayer. Without consulting
Stoller, Kayer’s family had hired an investigator with
their own money. Stoller spoke with that investigator
several times on the telephone. He testified that he also
found the work of that investigator unhelpful. Stoller
never asked the investigator to do any mitigation
investigation.
Victor testified in the PCR court that when he came
on the case in mid-September 1996 very little had been
done. When he first got the case file, it was “a disaster.”
“I was appalled. I felt that a lot of time had passed.
Very little was done and I frankly was embarrassed
that I now was an attorney on a case that was so
disorganized[.]” Victor filed a “blizzard of motions” in
January 1997. At that point, a little more than two
years after Kayer’s indictment for capital murder and
six months after Stoller had been appointed to
represent him, no mitigation investigation had been
done.
One of Victor’s motions, filed on January 15, sought
funds for two investigators—a “general purpose”
investigator, and a mitigation investigator. The motion
was granted on February 24 as to the general purpose
investigator, but was “deferred” as to the mitigation
investigator “unless and until there was a guilty
finding in the case.” Victor testified that the deferral
“put a halt to our mitigation efforts . . . . That would
have been less of a problem had I been involved in this
case from the very beginning, and then could have had
a more reasonable opportunity to maybe both do a
mitigation workup myself, as well as prepare motions

App. 27
and get ready for the guilt phase.” “[G]iven the
circumstances [that] the case had substantially
languished for an unreasonable length of time at the
time I got involved[,] . . . [the deferral] was devastating
to our ability to undertake mitigation.” Neither Stoller
nor Victor sought rehearing of the motion for funds for
a mitigation investigator. Nor did they appeal the
court’s deferral of the motion.
Victor testified in the PCR court that, in his view,
early investigation of mitigation evidence was less
important at that time than it later became, after the
Supreme Court decided Ring v. Arizona, 536 U.S. 584
(2002), requiring jury sentencing in capital cases.
Victor was asked, “Would you agree . . . that counsel
must begin mitigation investigation immediately upon
an appointment to a capital case?” Victor responded,
“[T]he answer today is a little different than the
answer at the time that I was representing Mr. Kayer,
where in Arizona, at least, the court made [the
sentencing decision]. The reason that’s important is
because there is at least availability of much more time
from the guilt phase to the sentencing phase, with the
judge sentencing.”
Trial began on March 5, two weeks after the
deferral of the motion for funds for mitigation
investigation. The jury returned a verdict of guilty on
March 26. The court scheduled Kayer’s sentencing
hearing for May 27. On April 8, funds were authorized
for a mitigation investigator. According to Stoller’s
records, his first substantive conversation with the
investigator, Mary Durand, was on May 14, more than
a month later, though Stoller testified that he may

App. 28
have talked to her earlier: “Well, I had notes between
April 9th and May 14th—whether they were lost—I
can’t believe I did nothing during this period, but I
know that I spoke to her at length on the evening of
May 14th and I think I may have had other contacts.”
Durand first met with Kayer on May 21, a week after
the conversation with Stoller and six days before the
original date for the sentencing hearing.
c. Mary Durand
When Mary Durand testified at Kayer’s sentencing
hearing, she had already worked as a mitigation
specialist on almost one hundred capital cases. When
she testified in the PCR court, she had worked on one
hundred and fifty. She testified in the PCR court that
to her knowledge no mitigation specialist in Arizona
had worked on more capital cases.
Durand testified in the PCR court that spending a
substantial amount of time with a capital defendant,
beginning very early in the case, is essential in order to
build trust. Most capital defendants “believe, at least
initially, that the pursuit of a mitigation case is
necessarily a concession of guilt.” Durand testified that
the “time required to develop rapport and trust with a
capital client typically takes a hundred hours.” She
testified, “When you spend time talking to them, if you
have the proper amount of time, every occasion but
one, in capital cases that I have done, I have gotten the
client’s permission to do what I need to do.” Durand
wrote in an affidavit filed in the PCR court, “[T]o
investigate and develop the mitigating factors in a
capital case may well require up to 1500 hours,”
including “200 plus hours (40 hours a month for five

App. 29
months) to interview, review and consult with the
client.”
Durand testified that it is important to begin
mitigation investigation early: “You work with them to
help them understand what mitigation is, why it’s
important[.]” She testified further:
One of the most important things that
you do in mitigation is get all the records
that you possibly can, documents that you
can have in your hand. And part of that is
because many clients who have head
injuries, high fevers, brain damage of any
kind, accidents and mental illness, don’t
remember incidents that occurred, or
remember them incorrectly.
So I try not to talk to clients about
important issues in their life until I have
the records.
Durand testified in the PCR court that her first
substantive conversation with Stoller was on May 14.
She was emphatic that she had had no substantive
conversation with Stoller before that date. When
Stoller talked to Durand on May 14, the penalty phase
hearing may already have been rescheduled from May
27 to June 24 or 25. (The hearing was ultimately held
on July 8.) Durand testified that Stoller did not tell her
during their conversation that the penalty phase
hearing was imminent and that time was of the
essence.
Durand testified that she met with Kayer twice for
a total of seven hours, on May 21 and June 5. Durand

App. 30
learned from Kayer when they met on May 21 that the
hearing was imminent.
Durand’s first meeting with Kayer was a “cold call.”
She testified, “I had no documents. I had nothing.” At
that meeting on May 21, Kayer “show[ed] an initial
reluctance to allow [her] to pursue mitigation.”
However, he was willing to provide the names of his
mother and sister, along with addresses and phone
numbers. He also told Durand that he believed his
mother would have some records, though, as it turned
out, his mother was unable to locate any records when
Durand went to see her. At the first meeting on May
21, Durand persuaded Kayer to sign releases, enabling
her to request documents relevant to mitigation.
Durand promptly sent requests, accompanied by the
releases, to the institutions holding the documents,
even though it was likely that few (perhaps none) of the
requested documents would be provided in time for the
penalty phase hearing. She testified, “I sent [the
releases] to all the places that I believed there might be
records.” None of the school, mental health, and
military records sought by Durand were provided by
the date of the hearing on July 8.
When Kayer met Durand on May 21, he had never
head the term “mitigation.” Durand testified that
Kayer “was extremely unhappy when he realized that
[a mitigation investigation] should have been started
the day he was arrested or indicted, and that the two
and a half years he’d already been in the jail could have
been used to do the mitigation.” She testified:
I explained what I did in broad terms. He
said that he had never heard the term

App. 31
[mitigation] before. Had no idea what it
meant. . . .
We talked at great length about
mitigation. He had lots of questions. But
everything came back to time; “How much
time will that take?”
And I said, “Well, might take six or
eight months just to get the military
records.”
His response was, “You don’t have six
to eight months because I don’t have six
to eight months.” And I could not get him
past that.
Kayer allowed Durand to involve his mother and
sister and was willing to sign releases. However, Kayer
was adamant that he did not want to pursue mitigation
research that would involve substantial delay. Kayer
did not have “six to eight months” because, Durand
testified, he “wanted desperately to get out of the
Yavapai County Jail.” She testified, “He hadn’t been
getting his medications [for his heart condition].”
Further, and more important, “[H]e was terrified that
he was going to be killed, that he would lose his life in
that facility.” There had already been a murder in the
jail, and Kayer “had been assaulted and hospitalized in
the jail infirmary for his injuries.” Durand’s
contemporaneous notes of her interviews with Kayer
recorded, “Afraid he’ll lose his life here.”
On June 6, the day after Durand’s second meeting
with Kayer, the trial court held a case management
meeting. Durand was traveling and was unable to

App. 32
attend. Kayer and Victor were present; Stoller
appeared by telephone. Stoller informed the court that
Kayer “simply did not want to be in the County jail
system any longer” and that he opposed any
continuance. Kayer told the court that he did not
believe that Durand would be able to discover any
useful mitigation information. Kayer stated:
[F]rom what I understand in my
conversation with Mary Durand, she is
talking about a fetal alcohol syndrome
that possibly existed. She hasn’t had the
opportunity to investigate it, and some
minor areas and details in my life that I
personally can’t see how they would relate
to mitigation in this case. . . . I’m saying I
don’t see anything here of substantial
value. . . . I don’t feel the lack of Mary
Durand’s mitigation is going to be a major
factor in the decision [whether I am
sentenced to death].
The court indicated that it might be willing to continue
the date of the penalty phase hearing for perhaps
thirty days and asked Kayer if he wanted a
continuance:
[I]f I do move it, I’m not about to move it
anywhere near 180 days off. I’m probably
not even thinking seriously about 90 days
off. I’m thinking maybe I could be talked
into an additional 30 days, something like
that, if there was some specific purpose.

App. 33
Based on his belief that Durand would not be able to
discover useful information, Kayer opposed any
continuance:
Believe me, if I thought that—that Miss
Durand had valid evidence that should be
presented in front of this Court, I’d be
scratching and clawing and asking for 180
days as well. I’m not in favor of any more
continuances. Does that answer your
question?
d. Keith Rohman
Keith Rohman testified as a mitigation specialist in
the PCR court. Rohman had done mitigation work in
capital cases for many years. He was a licensed private
investigator and Adjunct Professor at Loyola Law
School in Los Angeles. He testified in the PCR court:
“[O]ne of the very first steps in any capital mitigation
representation is to meet the client, start to establish
a relationship with the client and attempt the process
of collecting a life history, information that might be
relevant. . . . [T]hat first meeting is really critical
because it is [the] spot where you start the process of
educating the client.” Rohman testified that a
“significant number,” of capital defendants initially
resist mitigation investigations, “[a]nd so it takes some
time to work through[.]” Rohman testified that an
additional reason to start mitigation investigation
“from day 1” is that information learned in the
investigation can sometimes help at the guilt phase of
the case. Rohman testified that this “protocol and
practice” in the “field of mitigation” had been well
established by 1995, when Kayer was indicted.

App. 34
e. Larry Hammond
Larry Hammond testified in the PCR court on
behalf of Kayer. At the time of his testimony,
Hammond had practiced law for thirty-six years. After
graduation from law school, he had been a law clerk to
Justices Hugo Black and Lewis Powell. He had been a
founding board member of the Arizona Capital
Representation Project in 1989, and had continued as
a board member since then. He had been Chair of the
State Bar Indigent Defense Task Force, paying
particular attention to representation in capital cases,
since the mid-1990s. He had been appointed in the late
1990s by the Arizona Supreme Court to serve on the
Post-Conviction Relief Appointment Committee, whose
function was to “screen applicants for appointment to
undertake work as post-conviction relief counsel in
capital cases.” Hammond’s Phoenix law firm had had
at least one active capital case in the office at all times
since 1981, and he had been the “lawyer primarily
responsible for all of them.” He had been lead counsel
in ten capital cases. In three of those cases, he had
been lead counsel from start to finish—two cases in
Arizona state court in 1991 and 1994, and one case in
federal court in Arizona in 2005.
Hammond’s testimony focused on the standard for
effective assistance of counsel in capital cases that had
been established by 1995, when Kayer was indicted.
Specifically, Hammond testified that the standard of
practice he described was based on ABA guidelines
from 1989 and other sources from that period. “[T]he
information that I provided [in my testimony today]

App. 35
was well known in Arizona and elsewhere from as far
back as the 1980s.”
Hammond testified that in a capital case “it is of
critical importance to develop both the guilt-innocence
side of the case and the sentencing side of the case from
the beginning.” Hammond testified, consistently with
Durand, that capital defendants initially resist doing
mitigation research at the beginning of a case. In part,
defendants “instinctively” believe that mitigation will
become relevant only after conviction, and they want
their attorneys to focus on the guilt-innocence side of
the case. Further, defendants are “embarrassed” and do
not want to involve people such as “family members
and their high school basketball coaches and people
who they have known growing up.” Still further,
conditions in county jails are not conducive to effective
communication: A client is “there for 19 months or 20
months or two years waiting for trial. So dealing with
a client and explaining to a client why mitigation is
important in that environment can be doubly difficult.”
Finally, “most people charged with capital crimes have
some form of what I would call a mental health issue or
problem.”
Hammond testified that a capital defendant’s initial
resistance is almost always overcome when a client is
properly advised at the beginning of the case:
[I]n case after case after case the opening
experience—not just with me and my
clients—but with the other defendants
facing death . . . was what I described
earlier. This resistance. But eventually
for virtually every one, virtually every one

App. 36
of those defendants, they began to see
that the mitigation part of the case was
important.
Hammond specifically addressed the need to
educate judges, as well as clients, about the importance
of getting an early start on mitigation work. He
testified, “[A] mere denial of either the client to
wanting to do mitigation or the court to providing the
resources cannot be the end of the conversation.”
“[T]here is an inherent logic and simplicity in getting
the resources necessary for capital defense. And in
cases all across the country once the case is laid out,
once the explanation is given to good judges about what
is necessary and why it’s necessary, the experience is
that good judges say: ‘I understand that and now we
will work together to make it happen.’ ”
Hammond also specifically addressed Victor’s view
that getting an early start on mitigation work was less
important during the pre-Ring period when judges
rather than juries determined sentences in capital
cases in Arizona. Hammond was unequivocal that
Victor was incorrect:
The need for the development of a
mitigation case is no different in Arizona
prior to Ring than it is after Ring. . . .
[T]he concept that a lawyer can simply
wait until after the guilt phase to begin
doing mitigation is simply wrong. . . . If
you knew nothing else other than that a
capital defense lawyer said “I can defer
all mitigation until after the trial”, that
lawyer is acting at a level far below what

App. 37
is deemed acceptable under any kind of a
Strickland analysis for lawyers in Arizona
or in any of the other six or seven states
that prior to Ring had judge sentencing.
2. Prejudice
Kayer’s post-conviction counsel presented extensive
mitigation evidence in the PCR court. His postconviction counsel contended that his trial attorneys
could have uncovered and presented this evidence at
his sentencing hearing if they had performed a proper
mitigation investigation.
a. Personal and Family History
Kayer was born in Long Beach, California, in
August 1954. In the first of many moves, the family
moved to Denver when he was two. Kayer’s father left
the family shortly after arriving in Denver. He never
returned to the family. He died of a heart attack at age
thirty-nine. After his father left the family, Kayer, his
older stepsister, and his mother moved to Bloomington,
California.
According to his mother and his uncle, Kayer was
slow to walk. He had poor balance and fell frequently.
His mother recounted that “he always had bruises . . .
on his head and body.” His uncle recounted that his
mother was afraid to take him shopping because he
was “covered with bruises.” According to his uncle, he
was slow at all his developmental stages. His mother
recounted that Kayer had great trouble falling asleep.
Kayer was dyslexic. In an interview with Mark Goff,
an investigator for Keith Rohman, Kayer stated that he

App. 38
was good with numbers, but that “[t]o this day he has
to write things three or four times to get the spelling
right.” Kayer recounted in the interview that “[i]n
school he flunked English, but got A’s in everything
else.” (As will be seen in a moment, Kayer’s recounting
of his school grades was inaccurate to the point of being
delusional.) Kayer told Goff that at age seven he came
to believe (and then continued to believe) that he had
come to earth from another planet.
Kayer and his mother moved to Arkansas after
ninth grade. Kayer began using drugs when he was
sixteen. He told Goff that he would “smoke weed
almost every day,” and would usually use speed on the
weekends. He recounted “Speed works good for a night
owl.” Kayer would sometimes use LSD.
Some of Kayer’s high school grades are in the
record. In the fall of the ninth grade in Fontana,
California, he got one B (in Drafting), five Cs, and one
D (in English). In the spring, he got two Bs (in Typing
and PE), one C, two Ds, and two Fs (in History and
English). In fall of the tenth grade in Morrilton,
Arkansas, he got one C (in English), four Ds, and one
F (in Algebra). In the spring, he got one B (in Speech),
two Ds, and two Fs (in English and PE). Kayer left high
school, in Seligman, Arizona, without graduating,
leaving either at the end of his junior year or part way
through his senior year.
After leaving high school, Kayer enlisted in the
Navy. He was seventeen years old. Within eight
months, he had two “unauthorized absences” (“UAs”).
He was arrested and jailed in Texas at the end of his
first UA. He returned voluntarily from his second UA

App. 39
“in order to see a psychiatrist.” In May 1973, after his
second UA, Kayer was referred to Bethesda Naval
Hospital with a diagnosis of “schizoid personality.” He
was held there for a little more than three weeks.
Kayer was discharged from Bethesda with a diagnosis
of “passive-aggressive personality.” In a written
evaluation at discharge, Lieutenant Commander M. D.
Fitz, head of the “Enlisted Psychiatric Service,”
characterized Kayer’s “impairment” as “severe.” Fitz
wrote, “In view of the severity of his personality
disorder it is recommended that he be administratively
separated from the service.”
After his release from the Navy, Kayer returned to
Arizona. At various times, he attended Yuma
Community College, Arizona State University, and
Arizona Western College, but received no degrees. In
his interview with Goff, Kayer stated that he never got
a degree because he believed he could make more
money buying and selling jewelry than with a degree.
Kayer had two unsuccessful marriages in his early
twenties. Kayer’s second marriage was to an Afghan
woman. Kayer maintained in his interview with Goff
that her uncle was “the deposed king of Afghanistan.”
When Kayer was twenty-five or twenty-six, he met
Cindy Seitzberg. Kayer and Seitzberg never married,
but they lived together for several years. They had a
son, Tao, who was dropped in the delivery room and
suffered permanent brain damage. About six months
after Tao’s birth, Seitzberg began work as a stripper
while Kayer stayed home to take care of Tao. When Tao
was about one, Seitzberg left Kayer. Kayer’s half-sister
Jean Hopson testified in the PCR court, “[Cindy] had

App. 40
brought [Tao] to my mother’s and asked if she would
like to keep him for the weekend, and my mother said
‘yes.’ And we never saw her again.” Hopson and Kayer’s
mother became co-guardians of Tao.
Beginning in his mid-twenties, Kayer began
committing property crimes. He first committed a
series of burglaries with a friend, Peter Decell. They
were caught, and Kayer served a short time in jail in
Arizona. Shortly after his release from jail, Kayer was
arrested for burglary in Arkansas. Later, when she was
pregnant with Tao, Seitzberg served as a lookout for
Kayer while he committed burglaries. Kayer continued
committing burglaries well into his thirties.
Interspersed with his burglaries, Kayer worked as
a photographer, a salesperson for a satellite
communications company, a hazardous waste remover,
and a buyer, maker and seller of jewelry. He never held
a job for a sustained period. His cousin, Barbara
Rogers, testified at the PCR hearing, “[H]e had trouble
with holding . . . a job. . . . He had trouble working for
others. . . . [H]e had a lot of emotional problems,
depression.”
Kayer began drinking alcohol regularly when he
was about twenty-one, and soon became a very heavy
drinker. Peter Decell recounted that during their time
together Kayer would drink beer “for breakfast, lunch
and dinner.” Kayer reported that when he was twentyfive he was drinking half a quart of bourbon a day.
When Kayer checked himself into a Veterans
Administration hospital at age thirty-five, Dr. A.
Rodriguez reported that Kayer was “acutely
intoxicated.” “He presented himself with a very strong

App. 41
odor of alcohol, and it was very difficult for him to get
his thoughts together because of alcohol intoxication.
The patient had been drinking continuously and
heavily for the past seven years[.]”
Sometime in his twenties, Kayer became a
compulsive gambler. His half-sister Jean Hopson
testified that he had a “gambling addiction.” Kayer told
Hopson that he had a gambling “system.” Kayer’s
cousin, Barbara Rogers, testified that her close
girlfriend dated Kayer for a time, and that when the
girlfriend and Kayer went to Las Vegas, “she could not
get him away from the . . . gambling table. He would
not leave.” In his mid-thirties, while in prison in
Arizona on a burglary conviction, Kayer engaged in
illegal bookmaking. After release and while on “house
arrest,” Kayer took off his ankle bracelet and flew to
Las Vegas to gamble. Kayer turned himself in after he
had lost all his money. He was sentenced to an
additional nineteen months for violation of parole.
Beginning shortly after his release from the Navy at
age eighteen, Kayer experienced severe mood swings.
His mother and sister both described his mood swings
in their testimony at his sentencing hearing. See supra
at 9–10. Barbara Rogers testified in the PCR court
about Kayer’s “manic behavior.” As an example, she
described a trip Kayer decided to take, “out-of-the-blue
when it wasn’t prepared, it wasn’t a good time.” “I kept
telling him no. And he was just real excited about it,
wouldn’t stop talking about it.” In her interview with
Goff, Seitzberg recounted, “I would stay up with him at
night and . . . would see mood swings. . . . [He] would
either work [at something] all out, or do nothing.”

App. 42
In 1983, shortly after the birth of his son Tao, Kayer
went voluntarily to a VA hospital. Kayer was twentynine. He was observed to be “agitated” and “tearful.”
Kayer is quoted on the VA form as saying, “I just want
to know what’s wrong.” The form records: “P: to see
MD.” Immediately below, a doctor with an illegible
signature wrote, “Pt is depressed with some suicidal
ideation” and “diagnosis: adjustment disorder with
depressed mood.”
Six years later, in 1989, Kayer checked himself into
a VA hospital, where he was kept for eighteen days. Dr.
A. Rodriguez wrote on the VA form that Kayer had
been “admitted . . . with depression and suicidal
ideation.” “He admitted to suicidal and homicidal
ideations towards his girlfriend [who had just left him]
and her boyfriend, but didn’t plan to do anything to
them while he is in the hospital, and wanted some
help.” Dr. Rodriquez wrote that Kayer “showed bipolar
traits.” At the time of discharge, Kayer was “not
considered to be a danger to himself or others.” At
discharge, he was prescribed one month’s supply of
lithium, a standard medication for bipolar disorder.
In 1990, Kayer was referred to a VA “Day
Treatment Center” for therapy, with a “provisional
diagnosis” of “Personality Disorder/Bipolar.” Kayer told
a probation officer in 1990 that until he was diagnosed
during his stay at the VA hospital in 1989 “he had no
idea what was wrong with him.”
Kayer had a history on both sides of the family of
alcoholism, compulsive gambling, and mental illness.

App. 43
Kayer’s father, who left the family when Kayer was
two and died at age thirty-nine of a heart attack, was
an alcoholic and compulsive gambler. One witness
testified at the PCR hearing that Kayer’s father “wasn’t
happy unless he was gambling.”
On his mother’s side, Kayer’s Aunt Opal Irene
Marchman (one of his mother’s three sisters) testified
about herself in the PCR court, “I have [heard voices]
all my life. My grandpa heard voices. It runs in the
family.” She testified that Kayer heard voices, too: “I
was just telling him about my life and he said ‘I
thought it was normal[.] I hear voices, too.’” She
testified, further, that alcoholism and depression “run[]
in the family.”
Kayer’s Aunt Ona Mae Tanner (another of his
mother’s sisters) was an alcoholic with severe mood
swings. Ona Mae’s daughter, Jean Reilly, was an
alcoholic and compulsive gambler who was first
diagnosed as schizophrenic and then as bipolar (manic
depressive). Jean Reilly’s niece, Barbara Rogers,
testified in the PCR court that Jean had “electric shock
therapy” after a “nervous breakdown.” Jean’s daughter,
Constance Stabile, testified, “[A]bout every year [Jean]
would get manic, very manic and hyper and she
couldn’t sleep and [would] lose weight[.]” Stabile
testified that Jean married her last husband on a
manic high a week after meeting him at an Alcoholics
Anonymous meeting, and that she once went to Las
Vegas on a manic high and “blew” her “entire
retirement” in a single weekend.
Kayer’s Aunt Olita “Aunt Tomi” Sandstrom (the
third of his mother’s sisters) was an alcoholic. Aunt

App. 44
Opal Irene testified in the PCR court that her “baby
sister” Olita drank “excessively.” She testified that
Olita was also severely depressed: “She would just sit
and stare into space like—it was bad.”
Kayer’s Uncle John Williams (his mother’s one
brother) also had mental problems. Aunt Opal Irene
testified, “He fell and hit his head in a creek in
Oklahoma and he just never did do too good after that.”
John Williams’ niece, Barbara Rogers, testified, “My
Uncle John was a thief, a robber, he held his own
family members at gunpoint and knifepoint a few
times. And he just was not a good person to have
around.”
On October 21, 1994, Kayer was admitted to a VA
hospital after suffering a severe heart attack. He had
just turned forty. His father had died of a heart attack
at age thirty-nine. The VA hospital form recorded, “The
patient . . . presented . . . with a history of anterior
precordial chest pain starting at about 1 o’clock in the
afternoon, no relief after three beers.” Doctors wanted
to keep Kayer in the hospital, but after three days he
checked himself out “against medical advice.”
Kayer killed Haas six weeks later.
b. Professional Assessments
(1) Dr. Anne Herring
Dr. Anne Herring, an Associate Professor of Clinical
Psychiatry and Neurology at the University of Arizona,
examined Kayer in prison on March 16, 2005, and
administered an extensive battery of tests. She
testified in the PCR court that Kayer received average

App. 45
scores on all tests except one. Dr. Herring wrote in her
report that “on one of the more cognitively challenging
tests” Kayer “demonstrated significant difficulty when
required to execute complex problem solving and
persisted in applying incorrect concepts despite
receiving feedback.” She wrote, “[S]imilar deficits have
been associated with chronic heavy substance abuse,
traumatic brain injury, and with bipolar disorder.”
(2) Dr. Michael Sucher
Dr. Michael Sucher, a specialist in “alcohol and drug
addiction medicine” and Acting Director for the Arizona
Division of Behavioral Health in the Department of
Health Services, examined Kayer in prison on April 5,
2005, for approximately two hours. Dr. Sucher
reviewed Kayer’s medical and psychological records in
connection with his examination.
In his report, Dr. Sucher reviewed Kayer’s history
of “chronic alcohol dependence,” and extensive history
of compulsive gambling. Dr. Sucher wrote that Kayer
had spent “probably one-quarter to one-third” of his
interview discussing gambling and the “systems for
winning” he had developed. Dr. Sucher wrote, “He
really is in effect, completely obsessed with gambling.”
Dr. Sucher testified in the PCR court that at the
time of the crime Kayer was impaired by the
combination of alcoholism and obsessive gambling:
[H]e had untreated alcoholism and
untreated pathological gambling; that
both of those disorders impair one’s
judgment. And . . . the pursuit of
continued gambling and the pursuit of

App. 46
continued drinking often make
individuals who are so impaired do things
that they would not normally do, some of
which may involve the commission of a
crime or crimes.
(3) Dr. Barry Morenz
Dr. Barry Morenz, an Associate Professor of Clinical
Psychiatry at the University of Arizona, board certified
in General Psychiatry and in Forensic Psychiatry,
interviewed Kayer in prison on March 24 and April 19,
2005, for a total of five and a half hours. Like Dr.
Sucher, Dr. Morenz reviewed Kayer’s medical and
psychological records in connection with his interviews.
Dr. Morenz wrote an extensive report and testified
at length in the PCR court. Dr. Morenz wrote that
Kayer spent much of the interview talking about
gambling, explaining, among other things, how he had
developed a system for predicting winning lottery
numbers. Kayer told Dr. Morenz that “the numbers for
tomorrow’s lottery are already known in the collective
unconscious,” and that “using his spirit guides and his
mathematical algorithm,” he could predict these
numbers and “when he is released make 20 million
dollars.” Kayer also explained his belief in
reincarnation (which he called “recycling”), and his
belief that there is “residue in him from when Mars
was populated and perhaps populations from other
worlds as well.” (As noted above, supra p. 35, Kayer
began at age seven to believe that he had come from
another world.) Dr. Morenz characterized Kayer’s
beliefs as “really delusional.”

App. 47
Dr. Morenz provided a diagnosis of Kayer at the
time of the interviews: “Bipolar type I disorder,
hypomaniac; Alcohol dependence in a controlled
environment; Polysubstance abuse in a controlled
environment; Pathological gambling; Cognitive
disorder not otherwise specified.” More important for
our purposes, Dr. Morenz provided a diagnosis as of
1994:
There are a number of factors that
have increased the risk of Mr. Kayer
developing a number of psychiatric
problems. First, there is considerable
comorbidity among psychiatric
diagnoses. . . . In Mr. Kayer this is
relevant because people with bipolar
disorders and personality disorders are at
an increased risk of developing substance
abuse disorders. Also, people with
personality disorders have an increased
risk of mood disorders. Secondly, Mr.
Kayer had a family history of problems
with alcohol, gambling and bipolar
disorder that increased his risk of
developing one or more of these disorders.
Thirdly, as a child Mr. Kayer grew up
with significant instability including
frequent moves and his father’s sudden
death when Mr. Kayer was still very
young which probably contributed to his
later psychiatric difficulties. There is
evidence that even as a child Mr. Kayer
was showing signs of emotional problems
as his performance in school was not

App. 48
good. This poor school performance was
probably an early sign of a bipolar
disorder or a personality disorder or a
combination of the two. By the time Mr.
Kayer washed out of the military Mr.
Kayer likely had moderately severe
psychiatric problems that went
untreated. . . . [I]t seems clear that he has
suffered from serious psychiatric
problems during most of his adult life and
he continues to show signs of those
problems today. . . .
At the time of the murder in 1994 Mr.
Kayer was probably having serious
psychiatric problems. He was having
problems with bipolar disorder symptoms
and may have been manic or hypomanic,
he was having difficulties with out of
control pathological gambling and he had
difficulty with extensive alcohol abuse.
These difficulties were likely
superimposed on his personality disorder
problems and his cognitive disorder not
otherwise specified. Mr. Kayer’s belief
that he would not live long as a result of
the heart attack he had suffered a few
weeks before the murder was another
important source of emotional distress
that was likely exacerbating all his other
problems during this period.

App. 49
3. Discussion
The Sixth Amendment guarantees effective
assistance of counsel. Strickland v. Washington, 466
U.S. 668, 686 (1984). A defendant is denied his or her
right to effective assistance when “counsel’s
representation f[alls] below an objective standard of
reasonableness” and “there is a reasonable probability
that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” Id. at
688, 694. “A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Id.
at 694.
The right to effective assistance of counsel extends
to the sentencing phase of a capital trial. Id. at 686–87.
All criminal defense attorneys have a “duty to make
reasonable investigations or to make a reasonable
decision that makes particular investigations
unnecessary.” Id. at 691. For capital defense attorneys,
this duty to investigate includes an “obligation to
conduct a thorough investigation of the defendant’s
background.” Williams v. Taylor, 529 U.S. 362, 396
(2000).
In a brief written order, the state PCR court held
that Kayer had not established a Sixth Amendment
violation under Strickland. The court wrote as to his
attorneys’ performance:
The court concludes that at the time of
sentencing, the defendant voluntarily
prohibited his attorneys from further
pursuing and presenting any possible
mitigating evidence.

App. 50
In the alternative, the court wrote as to prejudice:
This court further concludes that if there
had been a finding that the performance
prong of the Strickland standard had
been met, that no prejudice to the
defendant can be found.
(Emphasis in the original.)
The order of the PCR court was the last reasoned
decision of the state court. Wilson v. Sellers, 138 S. Ct.
1188, 1194 (2018). We must determine whether the
PCR court’s decision was “contrary to, or involved an
unreasonable application of, clearly established Federal
law, as determined by the Supreme Court” as of May 8,
2006, when the state PCR court issued its decision, or
was an “unreasonable determination of the facts in
light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d)(1), (2).
a. Performance
With respect to the “performance prong,” the state
PCR court concluded that Kayer’s attorneys had
provided effective assistance. Its only finding in
support of that conclusion was that “at the time of
sentencing” Kayer had voluntarily prohibited his
attorneys from pursuing and presenting any additional
mitigating evidence. We need not disturb the PCR
court’s conclusion that Kayer acted voluntarily at the
time of sentencing in prohibiting his counsel from
pursuing mitigation, for the state PCR court asked, and
answered, the wrong question. The question is not
whether Kayer voluntarily prevented his counsel from
pursuing mitigation in mid-1997. The question is

App. 51
whether Kayer’s counsel should have begun mitigation
efforts when first appointed to represent him in
January 1995. Kayer presented precisely this question
to the PCR court.
“The failure to timely prepare a penalty-phase
mitigation case is . . . error.” Allen v. Woodford, 395
F.3d 979, 1001 (9th Cir. 2005). Mary Durand, Larry
Hammond, and Keith Rohman all testified in the PCR
court that in 1995 professionally competent
representation required that mitigation efforts be
started at the very beginning of a capital case. Durand
testified that it is essential to spend substantial time
with a capital defendant, beginning very early in the
case, in order to build trust and understanding.
Hammond testified that “it is of critical importance to
develop both the guilt-innocence side of the case and
sentencing side of the case from the beginning.”
(Emphasis added.) Rohman testified that “one of the
very first steps in any capital mitigation representation
is to meet the client, start to establish a relationship
with the client and attempt the process of collecting a
life history[.]” Hammond and Rohman both testified
that by 1995 it had become standard practice in capital
cases to begin mitigation efforts at the outset of a case.
Hammond cited the 1989 American Bar Association
guidance for capital representation, and testified that
“the information I provided [in my testimony today]
was well known in Arizona and elsewhere from as far
back as the 1980s.” Rohman testified that the “protocol
and practice” he described had been well established by
1995.

App. 52
In Rompilla v. Beard, 545 U.S. 374 (2005), decided
a year before the decision of the PCR court, the
Supreme Court held that defense counsel had rendered
deficient performance by failing to investigate properly
in preparation for the penalty phase hearing. In
reaching its conclusion, the Court relied on
performance standards established by the American
Bar Association. The Court wrote, “[T]he American Bar
Association Standards for Criminal Justice in
circulation at the time of Rompilla’s trial describes the
obligation in terms no one could misunderstand[.]”
Rompilla, 545 U.S. at 387. After quoting the relevant
1982 ABA Standards, the Court wrote, “‘[W]e long have
referred [to these ABA Standards] as ‘guides to
determining what is reasonable.”’ Id. (alteration in
original) (quoting Wiggins v. Smith, 539 U.S. at 510,
524 (2003). In a footnote, the Court referred to the 1989
ABA Guidelines for the Appointment and Performance
of Counsel in Death Penalty Cases (“1989 ABA
Guidelines”), promulgated shortly after Rompilla’s
trial, noting that they were “specifically devoted to
setting forth the obligations of defense counsel in death
penalty cases.” Id. at 387 n.7. See also Wiggins, 539
U.S. at 524 (relying on the “well-defined norms” of the
1989 ABA Guidelines, describing them as “standards to
which we long have referred as ‘guides to determining
what is reasonable’”).
The 1989 ABA Guidelines state unambiguously that
defense counsel in capital cases should begin
investigation for the penalty phase as soon as they are
appointed. Guideline 11.4.1(A) provides, “Both
[guilt/innocence phase and penalty phase]
investigations should begin immediately upon counsel’s

App. 53
entry into the case and should be pursued
expeditiously.” Guidelines 11.8.3(A) provides,
“[P]reparation for the sentencing phase, in the form of
investigation, should begin immediately upon counsel’s
entry into the case.”
Linda Williamson was appointed to represent Kayer
at the beginning of January 1995, six years after the
issuance of the 1989 ABA Guidelines. Williamson
represented Kayer for a year and a half. During that
time, she did no mitigation investigation. David Stoller
was appointed to replace Williamson at the end of June
1996. For six months, he did no mitigation
investigation. Marc Victor, who was appointed to assist
Stoller, moved on January 15, 1997, for funds to hire a
mitigation investigator. On February 24, the judge
deferred ruling on the motion until after conviction.
Neither Stoller nor Victor appealed or sought
reconsideration of the order. Funds for a mitigation
investigator were finally authorized on April 8. Stoller
had his first substantive conversation with the
mitigation specialist, Mary Durand, on May 14.
Durand first met with Kayer on May 21, almost eleven
months after Stoller was appointed and almost two and
half years after Williamson was appointed. When
Durand met with Kayer on May 21, Kayer had never
heard the term “mitigation.” The penalty phase
hearing, which had originally been set for May 27, was
held on July 8.
We hold that in failing to begin penalty phase
investigation promptly after they were appointed,
Kayer’s attorneys’ “representation fell below an
objective standard of reasonableness.” Strickland, 466

App. 54
U.S. at 688. The conclusion of the state PCR court that
Kayer’s attorneys provided constitutionally adequate
performance was “contrary to, or involved an
unreasonable application of, clearly established Federal
law, as determined by the Supreme Court.” 28 U.S.C.
§ 2254(d)(1); see Rompilla, 545 U.S. at 387.
b. Prejudice
A habeas petitioner must establish not only
deficient performance, but also “a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.”
Strickland, 466 U.S. at 694. There are two questions to
be answered in determining whether Kayer was
prejudiced by his attorneys’ deficient performance.
First, if his counsel had begun mitigation efforts at the
outset of the case, would Kayer have cooperated?
(Because, as will be seen in a moment, the answer to
this question is “yes,” we need not ask what his counsel
would have been able to discover in the absence of
Kayer’s cooperation.) Second, was the mitigation
evidence that was presented to the PCR court sufficient
to establish a “reasonable probability,” “sufficient to
undermine confidence in the outcome,” that the result
of the sentencing hearing would have been different?
We address each question in turn.
(1) Would Kayer Have Cooperated?
Mary Durand testified in the PCR court that it is
common for capital defendants to resist mitigation
efforts at the beginning, but that they virtually always
come around and cooperate with such efforts. When
Durand testified in the PCR court, she had worked on

App. 55
one hundred and fifty capital cases. She testified,
“When you spend time talking to them, if you have the
proper amount of time, every occasion but one, in
capital cases I have done, I have gotten the client’s
permission to do what I need to do.” Larry Hammond
testified to the same effect in the PCR court:
“[E]ventually for virtually every one . . . of those
defendants, they began to see that the mitigation part
of the case was important.”
Kayer’s objection “at the time of sentencing” to
further mitigation research was not based on a
categorical objection to involving family members or to
sharing personal information. Indeed, he willingly
provided contact information for his mother, suggested
that his mother might have relevant documents, and
signed waivers that allowed Durand to seek school,
military, medical and psychological records. Rather, his
objection was based on two factors. First, he wanted to
be transferred out of the Yavapai County Jail. There
had been a murder in the jail, and Kayer had been
attacked in the jail. Durand testified in the PCR court
that Kayer “was terrified that he was going to be killed,
that he would lose his life in that facility.” When
Durand told Kayer on May 21 that she needed six to
eight months, he responded, “I don’t have six to eight
months.” Second, as Kayer told the trial court on June
6, he believed (mistakenly) that nothing valuable would
be discovered if a continuance were granted. If he had
believed that a continuance would produce valuable
information, he would have strongly supported a
continuance. As he expressed it, “Believe me, if I
thought that—that Miss Durand had valid evidence
that should be presented in front of this Court, I’d be

App. 56
scratching and clawing and asking for 180 days as
well.”
The state PCR court made no factual finding with
respect to whether, if mitigation efforts had been begun
at the outset of the case, Kayer would have cooperated
in those efforts. So there is no factual finding to which
we can defer. However, even if we were to assume that
the PCR court had made such a finding, it would be
have been “an unreasonable determination of the facts
in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d)(2). The uncontradicted
testimony of Durand and Hammond established that it
was a virtual certainty that Kayer would have
cooperated in a mitigation investigation if it had begun
in January 1995, at the beginning of the case, rather
than in late May 1997.
(2) Reasonable Probability of a Different Outcome?
(i) Waiver of Argument
Kayer presented to the PCR court extensive and
uncontroverted evidence of mental impairment. The
State could have argued to us that even if Kayer’s
counsel had sought to begin mitigation efforts at the
outset of the case, funds for mitigation investigation
would not have been authorized until after Kayer’s
conviction. If this were so, the State could have argued,
much of the evidence presented to the PCR court would
not have been discovered and developed even by
competent counsel.
However, the State has not made this argument,
perhaps because it does not want to implicate itself as
contributing to the ineffectiveness of Kayer’s

App. 57
representation. We therefore consider the argument
waived. However, even if the State had made the
argument, we would reject it for essentially two
reasons.
First, Larry Hammond testified that a competent
capital defense attorney should work to persuade a
judge of the necessity of early authorization of funds for
mitigation investigation, and that a good judge will
understand the necessity and will authorize the funds.
As described above, Hammond testified, “[O]nce the
explanation is given to good judges about what is
necessary and why it’s necessary, the experience is that
good judges say: ‘I understand that and now we will
work together to make that happen.’”
Second, even if the State would not have provided
mitigation investigation funds at the outset of the case,
a competent attorney could have done a great deal in
their absence. One of the keys to a competent
investigation, as explained by Durand, is early
gathering of medical, psychological, school, and other
documents. It would have been a simple and
inexpensive task to obtain waivers from Kayer and to
send for such documents. Durand obtained waivers
from Kayer at her first meeting with him and sent for
the documents immediately thereafter. It would also
have been a relatively simple task to interview known
and easily accessible friends and relatives. Williamson
had an investigator, but she never asked him to do
such work. When Stoller took over the case, he learned
that Kayer’s family had hired an investigator at their
own expense. Stoller could have asked that investigator
to do such work, but he did not do so. It would likely

App. 58
have been necessary to wait for state funding to hire
expert witnesses such as Drs. Henning, Sucher and
Morenz, but experts could have done their work fairly
quickly, even after conviction, if the relevant
documents had already been obtained and interviews
had already been done.
(ii) Effect of New Evidence
Under Arizona law in 1997 when Kayer was
sentenced to death, mental impairment could be either
a statutory or nonstatutory mitigating circumstance,
depending on the degree of impairment. There were
five listed “statutory” mitigating circumstances under
Arizona law. The first of these was mental impairment:
“The defendant’s capacity to appreciate the
wrongfulness of his conduct or to conform his conduct
to the requirements of law was significantly impaired,
but not so impaired as to constitute a defense to
prosecution.” Ariz. Rev. Stat. § 13-703(G)(1) (1977). (All
references are to the 1997 version of Arizona Revised
Statutes unless otherwise indicated.) If evidence of a
“mental condition” did not establish a mental
impairment within the meaning of the statutory
mitigator and instead “merely establishe[d] a character
or personality disorder,” the mental condition was
considered as a non-statutory mitigator. State v. Fierro,
804 P.2d 72, 86 (Ariz. 1991) (internal quotation marks
omitted). In Kayer’s case on direct appeal, the Supreme
Court of Arizona held that he had presented
insufficient evidence to establish the existence of any
mental impairment, whether as a statutory or a nonstatutory mitigator.

App. 59
A comparison of Kayer’s case with other Arizona
cases demonstrates that the evidence he presented to
the PCR court was sufficient to establish a statutory
mitigating circumstance under Ariz. Rev. Stat. § 13703(G)(1). See, e.g., State v. Stevens, 764 P.2d 724,
727–29 (Ariz. 1988) (“capacity to appreciate the
wrongfulness of his conduct had been impaired by his
longterm use of drugs and alcohol” and constituted a
mitigating circumstance under § 13-703(G)(1)); State v.
Gretzler, 659 P.2d 1, 16–17 (Ariz. 1983) (drug use
beginning at age thirteen and continuing for over nine
years “likely impaired defendant’s volitional
capabilities” and constituted a mitigating circumstance
under § 13-703(G)(1)).
In many ineffective assistance of counsel cases,
enough evidence has already been presented at the
time of sentencing to establish a mitigating
circumstance. In such cases, when additional evidence
relevant to that circumstance is later presented to the
state habeas court, the additional evidence is
cumulative and typically does not establish prejudice.
See, e.g., Smith v. Ryan, 823 F.3d 1270, 1296 (9th Cir.
2016) (“brain scans . . . were largely cumulative of the
mitigating evidence presented by Dr. Parrish”);
Cunningham v. Wong, 704 F.3d 1143, 1163 (9th Cir.
2013) (“Dr. Coburn’s testimony about Cunningham’s
mental state . . . would [ ] have been cumulative”);
Lopez v. Ryan, 678 F.3d 1131, 1138 (9th Cir. 2012)
(“[T]he claim was a very narrow one and related only to
supplemental evidence”); Moormann v. Ryan, 628 F.3d
1102, 1113 (9th Cir. 2010) (finding no prejudice because
of the “cumulative nature of the new evidence”).

App. 60
Kayer’s case is fundamentally different. The
minimal evidence of mental impairment presented at
Kayer’s penalty phase hearing was so speculative that
the sentencing judge and the Arizona Supreme Court
on direct appeal found no mental impairment
whatsoever. Not only was the evidence insufficient to
establish a statutory mitigating circumstance under
Ariz. Rev. Stat. § 13-703(G)(1); it was insufficient even
to establish a non-statutory mitigating circumstance.
Instead of being cumulative, the evidence presented to
the PCR court of Kayer’s mental impairment
established for the first time its very existence.
The sentencing court and the Arizona Supreme
Court on de novo direct review weighed two statutory
aggravating circumstances against one non-statutory
mitigating circumstance. If the evidence of Kayer’s
mental impairment presented to the PCR court had
been presented to the sentencing court, that court and
the Arizona Supreme Court would have added to the
balance the statutory mitigating circumstance of
Kayer’s mental impairment.
The two aggravating circumstances were
commission of the crime for “pecuniary value” under
Ariz. Rev. Stat. § 13-703(F)(5), and a prior conviction of
a “serious offense” under Ariz. Rev. Stat. § 13703(F)(2). The second aggravating circumstance was
relatively weak. “Serious offense” was broadly defined
under the statute, and Kayer’s offense was at the less
serious end of the spectrum. Among the specified
“serious offenses” were first degree murder, second
degree murder, manslaughter, aggravated assault
resulting in serious physical injury, sexual assault, and

App. 61
any dangerous crime against children. Ariz. Rev. Stat.
§ 13-703(H)(1)–(6). Kayer’s prior conviction was for
first degree burglary.
The one mitigating circumstance at sentencing was
the relatively weak non-statutory mitigator of Kayer’s
importance in the life of his son. If the evidence
presented to the PCR court had been presented to the
sentencing court, it would have established an
additional mitigating circumstance—the statutory
mitigator of mental impairment under Ariz. Rev. Stat.
§ 13-703(G)(1).
The evidence supporting a finding of mental
impairment was extensive and uncontroverted. Kayer
was slow to walk and develop. Starting at age seven
and continuing into adulthood, Kayer believed that he
was a reincarnated being from another planet. He was
dyslexic, was moved from school to school, and got poor
grades. He began using drugs, including marijuana and
speed, beginning in his teens. Kayer left high school
without graduating and joined the Navy. He was
discharged from the Navy a year later due to “severe”
mental “impairment.” He began drinking heavily when
he was about twenty-one and became severely addicted
to alcohol. He became a compulsive gambler sometime
in his twenties. His gambling addiction persisted
unabated thereafter.
Kayer suffered the emotional highs and lows typical
of bipolar disease. He voluntarily checked himself into
VA hospitals in 1983 and 1989. At the VA hospital in
1989, he was given a prescription for lithium, a
standard medication for bipolar disease. In 1990 as an
outpatient, he was given a provisional diagnosis of

App. 62
“Personality Disorder/Bipolar.” In 1990, Kayer stated
that until he was diagnosed and given lithium at the
VA hospital in 1989, he had “no idea what was wrong
with him.”
Kayer had an extensive family history of mental
disease. His father was an alcoholic and a compulsive
gambler. One of his mother’s three sisters “heard
voices.” That sister testified that Kayer had told her
that he heard voices, too. The other two sisters were
alcoholics and bipolar. His mother’s one brother had
mental problems. One of his cousins was bipolar and
underwent electroshock therapy.
The evidence presented to the PCR court
established the statutory mitigating circumstance of
mental impairment under Ariz. Rev. Stat. § 13703(G)(1). The evidence also established a causal
connection between Kayer’s mental impairment and
the crime. Dr. Sucher testified that at the time of the
crime Kayer “had untreated alcoholism and untreated
pathological gambling.” Dr. Morenz testified that at the
time of the crime, Kayer “was having problems with
bipolar disorder symptoms . . . , he was having
difficulties with out of control pathological gambling
and he had difficulty with extensive alcohol abuse.”
Kayer’s near-fatal heart attack, at essentially the same
age as his father’s fatal heart attack, six weeks before
the murder was “another important source of emotional
distress that was likely exacerbating all of his other
problems.”
We must decide whether “it was objectively
unreasonable [for the state PCR court] to conclude
there was no reasonable probability the sentence would

App. 63
have been different if the sentencing judge . . . had
heard the significant mitigation evidence that [Kayer’s]
counsel neither uncovered nor presented.” Porter v.
McCollum, 558 U.S. 30, 31 (2009) (per curiam) (stating
prejudice standard for ineffective assistance of counsel
in an AEDPA case). “We do not require a defendant to
show ‘that counsel’s deficient conduct more likely than
not altered the outcome’ of his penalty proceeding, but
rather that he establish ‘a probability sufficient to
undermine confidence in [that] outcome.’” Id. at 44
(alteration in original) (quoting Strickland, 466 U.S. at
693–94).
The State argues that we must accord special
deference to the PCR court’s holding that Kayer
suffered no prejudice because the judge who presided
over the PCR proceedings was also the original
sentencing judge. The State is incorrect. We assess
prejudice independent of the particular judge or judges,
as made clear by the Supreme Court in Strickland:
The assessment of prejudice should
proceed on the assumption that the
decisionmaker is reasonably,
conscientiously, and impartially applying
the standards that govern the decision. It
should not depend on the idiosyncracies of
the particular decisionmaker, such as
unusual propensities toward harshness or
leniency.
466 U.S. at 695. A post-conviction court must assess
whether there is a reasonable possibility that

App. 64
the sentencer—including an appellate
court, to the extent it independently
reweighs the evidence—would have
concluded that the balance of the
aggravating and mitigating factors did
not warrant death.
Id.
“[T]he test for prejudice is an objective one.” White
v. Ryan, 895 F.3d 641, 670 (9th Cir. 2018). In White, we
faulted the prejudice determination by the PCR court
because that “court determined whether it would have
imposed a death penalty if it had considered the
mitigation evidence that [defendant] failed to present
[at the penalty phase].” Id. (emphasis in original). We
further faulted it for failing to take into account the
fact that the Arizona Supreme Court was required to
independently weigh the aggravating and mitigating
circumstances: “The PCR court erred by . . . fail[ing] to
consider the probability of a different outcome in the
Arizona Supreme Court.” Id. at 671. See also Mann v.
Ryan, 828 F.3d 1143, 1167 (9th Cir. 2016) (en banc)
(Thomas, C.J., concurring and dissenting) (“[T]he postconviction court was not excused from its obligation to
apply Strickland because the same judge presided over
both [the defendant’s] trial and post-conviction
proceeding, and that judge concluded that the newly
introduced evidence would not have changed his mind.”
(emphasis in original)).
For a number of reasons, we conclude that the
addition of the statutory mitigating circumstance of
mental impairment could have changed the outcome of
the sentencing proceeding. In the words of the Supreme

App. 65
Court, the addition of this mitigating circumstance
created a “reasonable probability the sentence would
have been different,” Porter, 558 U.S. at 31, “sufficient
to undermine confidence in the outcome,” id. at 44
(quoting Strickland, 466 U.S. at 693–94), and it was
unreasonable for the state court to conclude otherwise.
First, there was a substantial difference between
the evidence submitted at sentencing and the evidence
later submitted to the PCR court. In the sentencing
court, there was evidence supporting two statutory
aggravating circumstances and one weak non-statutory
mitigating circumstance. In the PCR court, there were
the same two statutory aggravators. But now there was
an additional mitigator—for the first time, the
statutory mitigator of mental impairment—where
previously there had only been one weak non-statutory
mitigator.
Second, Kayer’s mental impairment had a direct
causal relationship to the crime, and would have been
given substantial weight at sentencing. In McKinney v.
Ryan, 813 F.3d 798 (9th Cir. 2015) (en banc), we held
that the Arizona Supreme Court had for many years
violated Eddings v. Oklahoma, 455 U.S. 104 (1982), by
refusing, as a matter of law, to give any weight to
would-be mitigating circumstances such as mental
impairment unless they had a “causal nexus” to the
crime of conviction. In State v. Anderson, 111 P.3d 369
(Ariz. 2005), the Arizona Supreme Court finally
abandoned the causal nexus test.
In post-Anderson cases, Arizona courts have
considered a broad range of mitigating circumstances.
Mitigating circumstances that are causally connected

App. 66
to the crime have been given greater weight than
circumstances with no causal nexus. The Arizona
Supreme Court wrote in 2006, “We do not require that
a nexus between the mitigating factors and the crime
be established before we consider the mitigation
evidence [but] the failure to establish such causal
connection may be considered in assessing the quality
and strength of the mitigation evidence.” State v.
Newell, 132 P.3d 833, 849 (Ariz. 2006); see also, e.g.,
State v. Velazquez, 166 P.3d 91, 106 (Ariz. 2007) (“This
mitigating circumstance [of drug and alcohol abuse]
was proven by a preponderance of the evidence, but
Velazquez did not establish that he was under the
influence of drugs or alcohol at the time of the
murder.”); State v. Pandeli, 161 P.3d 557, 575 (Ariz.
2007) (“Pandeli’s difficult childhood and extensive
sexual abuse, while compelling, are not causally
connected to the crime. . . . We do not give this
mitigating evidence significant weight.”).
Kayer’s mental impairment under Ariz. Rev. Stat.
§ 13-703(G)(1) was causally connected to the crime and
would therefore have been given substantial weight.
The testimony of Drs. Sucher and Morenz made
abundantly clear the causal connection between
Kayer’s mental problems and the crime. Dr. Sucher
specifically referred to Kayer’s “untreated alcoholism
and untreated pathological gambling” at the time of the
crime. Indeed, Kayer had been drinking heavily on the
day of the killing, and Kayer killed the victim in order
to obtain funds to continue gambling. Dr. Morenz
specifically connected the crime to Kayer’s “problems
with bipolar disorder symptoms,” his difficulties with
“out of control pathological gambling” and “extensive

App. 67
alcohol abuse,” and his “heart attack . . . suffered a few
weeks before the murder.” Keith Rohman, the
mitigation expert who testified in the PCR court,
connected these factors to the crime, characterizing
them as a “perfect storm.”
Third, the aggravating circumstances supporting
imposition of the death sentence were not
overwhelming. The sentencing judge had specifically
rejected the prosecution’s argument for the aggravating
circumstance that Haas had not been killed in “an
especially heinous, cruel or depraved manner” under
Ariz. Rev. Stat. § 13-703(F)(6). Further, one of the two
aggravating circumstances found by the Arizona
Supreme Court was relatively weak. The “serious
crime” of which Kayer had previously been convicted
was first degree burglary, one of the less serious crimes
specified in Ariz. Rev. Stat. § 13-703(H). Indeed, all of
the prior crimes of which Kayer had been convicted
were property crimes. He had never been charged with,
let alone convicted of, a crime in which he had
physically harmed anyone. See State v. Hyde, 921 P.2d
655, 687 (Ariz. 1996) (“We . . . find that defendant’s
non-violent past is a non-statutory mitigating
circumstance.”).
Fourth, a comparison to other Arizona cases shows
that there is a reasonable probability that Kayer would
not have been sentenced to death if the mitigating
evidence presented to the PCR court had been
presented to the sentencing court. Cases in which the
Arizona Supreme Court has imposed the death penalty
typically involve extreme behavior by the defendant.
Kayer’s case is unlike these cases. For example, in

App. 68
State v. Cruz, 672 P.2d 470 (Ariz. 1983), defendant and
two accomplices robbed a married couple and the wife’s
mother. They bound the victims together on a bed,
gagged them, and shot all three in the head. They cut
the throat of one of the three victims. In State v.
Chaney, 686 P.2d 1265 (Ariz. 1984), the defendant fired
at least thirty shots with a high-powered automatic
rifle at a deputy sheriff while he sat in a vehicle. One
shot almost severed the deputy’s arm. Another shot
was fired at such close range that it left powder burns
on his body. In State v. Fisher, 686 P.2d 750 (Ariz.
1984), the defendant, in order to keep $500 in rent
money he had collected for the seventy-three-year-old
victim, shattered her skull with three blows with a
claw hammer. In State v. Roscoe, 700 P.2d 1312 (Ariz.
1984), the defendant kidnapped the victim, raped her
vaginally and orally, strangled her, and left her body in
the desert.
Several cases in which the Arizona Supreme Court
has reversed a death penalty imposed by the trial court
are similar to Kayer’s case. For example, in State v.
Stevens, 764 P.2d 724 (Ariz. 1988), the defendant
robbed two people, shooting and killing one of them. An
aggravating circumstance was killing for pecuniary
gain. A mitigating circumstance was mental
impairment resulting from drug use. On de novo
review, the Arizona Supreme Court imposed a life
sentence. In State v. Rockwell, 775 P.2d 1069 (Ariz.
1989), defendant stole money from the cash register at
a truck stop and killed an employee by shooting him in
the back of the head. An aggravating circumstance was
killing for pecuniary gain. A mitigating circumstance
was a motorcycle accident when the defendant was

App. 69
seventeen-years-old, causing “violent and unpredictable
behavior.” Id. at 1079. On de novo review, the Arizona
Supreme Court imposed a life sentence.
The Arizona Supreme Court case most closely on
point is State v. Brookover, 601 P.2d 1322 (Ariz. 1979).
Defendant Brookover had agreed to buy 750 pounds of
marijuana from the victim. When the marijuana was
delivered, Brookover shot the victim in order to avoid
paying for it. “The victim fell to the floor moaning and
asked the defendant what he had done. The defendant
said ‘Don’t worry . . . it will be over soon’ and shot him
once more in the back,” killing him. Id. at 1323. As in
Kayer’s case, the prosecutor had argued for the
statutory aggravator that the murder had been
committed in “an especially heinous, cruel or depraved
manner,” but the Court rejected the argument. Id. at
1325. An aggravating circumstance was that Brookover
had previously been convicted of an offense “for which
. . . a sentence of life imprisonment or death was
imposable.” Id. at 1323. The one mitigating
circumstance was mental impairment. The Arizona
Supreme Court set aside the death penalty that had
been imposed by the trial court:
We believe that the defendant’s mental condition
was not only a mitigating factor, but a major and
contributing cause of his conduct which was
“sufficiently substantial” to outweigh the
aggravating factor of defendant’s prior
conviction. Under the circumstances, leniency is
mandated.
Id. at 1326 (emphasis added).

App. 70
The parallels between Brookover and Kayer’s case
are striking. In neither case was the killing committed
in “an especially heinous, cruel or depraved manner.”
In both cases, the one mitigating circumstance was the
statutory mitigator of mental impairment. In both
cases, the killings were for pecuniary gain. In 1979,
pecuniary gain had not yet been applied as a statutory
mitigator beyond killings for hire, but a year later the
Arizona Supreme Court recognized that the mitigator
covered any killing for pecuniary gain. See State v.
Clark, 616 P.2d 888, 896 (Ariz. 1980); State v. Schad,
788 P.2d 1162, 1170–71 (Ariz. 1989) (applying Clark to
a murder that took place in 1978, a year before
Brookover: “Clark . . . merely recognized the preexisting scope of present law.”). Finally, in both cases,
there was a statutory aggravator for prior conviction of
a serious offense. However, when Brookover was
sentenced, the statutory aggravator required that the
conviction have been for a crime for which the death
penalty or life imprisonment could be imposed. In
Kayer’s case, the statutory aggravator required less. It
required only a conviction for a “serious crime,” which
in Kayer’s case was first degree burglary. On de novo
review of the evidence and sentence, the Arizona
Supreme Court sentenced Brookover to life
imprisonment rather than death. The Court held that
leniency was “mandated.” Brookover, 601 P.2d at 1326.
In determining prejudice, we need not go so far as
Brookover. We need not decide that leniency was
“mandated” and that the state PCR court was
unreasonable in concluding otherwise. We need only
decide whether “it was objectively unreasonable” for
the state court to conclude that there was “no

App. 71
reasonable probability” that Kayer’s sentence would
have been different if Kayer’s attorneys had presented
to the sentencing court the mitigating evidence later
presented to the PCR court. Porter, 558 U.S. at 31. In
light of the foregoing, and particularly in light of the
Arizona Supreme Court’s decision in Brookover, we
hold that there is a reasonable probability Kayer’s
sentence would have been less than death, and that the
state PCR court was unreasonable in concluding
otherwise.
(iii) Disagreement with the Dissent
Our dissenting colleague concludes that we have not
given sufficient deference to the decisions of the
Arizona state court in this case. We recognize, as does
our dissenting colleague, that the standard under
AEDPA is “highly deferential” and “difficult to meet.”
Harrington v. Richter, 562 U.S. 86, 102, 105 (2011)
(citations omitted). The standard is indeed high. As
stated by the Supreme Court, the precise standard in
an ineffective assistance of counsel case is that in order
to set aside a state-court death sentence based on new
evidence, we must hold that the new evidence created
a “reasonable probability the sentence would have been
different,” and that the state court unreasonably
determined otherwise. Porter, 558 U.S. at 31.
Our colleague makes two related points. We
respectfully disagree with both of them.
First, our colleague contends that the Supreme
Court’s decision in Woodford v. Visciotti, 537 U.S. 19
(2002) (per curiam), effectively determines the outcome

App. 72
in this case. Visciotti cannot bear the weight our
colleague places on it.
In Visciotti, defense counsel failed to perform an
adequate penalty-phase investigation. On state habeas,
extensive new mitigation evidence that defense counsel
had not identified was presented to a referee appointed
by the California Supreme Court. That Court engaged
in a detailed analysis of the new evidence and
concluded that the failure to present that evidence at
sentencing did not prejudice Visciotti. In re Visciotti,
926 P.2d 987 (Cal. 1996). Our court held that the
California Supreme Court had unreasonably concluded
that the new evidence did not establish a “reasonable
probability” of a different result at sentencing. Visciotti
v. Woodford, 288 F.3d 1097, 1117–19 (9th Cir. 2002).
The Supreme Court reversed, emphasizing the care
with which the California Supreme Court had analyzed
the new evidence and holding that the Court was not
“objectively unreasonable” in finding no prejudice.
The facts in the two cases are similar, though, as
our colleague recognizes, they were somewhat less
favorable to Visciotti than they are to Kayer. But the
cases arise in very different contexts. First, and most
obviously, in our case we ask what an Arizona rather
than a California sentencing court would have done.
This is important because the statutes, procedures, and
case law in the two jurisdictions are different. Second,
in Visciotti there was a reasoned decision by the
California Supreme Court, but in our case there was no
reasoned decision by the Arizona Supreme Court. This
is critically important, given the Arizona capital
sentencing scheme at the time. Under Arizona law, the

App. 73
Arizona Supreme Court was the ultimate sentencing
court. On mandatory direct appeal from a sentencing
court, the Arizona Supreme Court reviewed the
evidence de novo and decided independently whether to
impose the death penalty. See, e.g., Kayer, 984 P.2d at
40–41.
In determining prejudice, therefore, we look to how
the Arizona Supreme Court would have assessed the
new evidence presented to the PCR court if that
evidence had been presented on direct appeal. We do
not know how the Arizona Supreme Court in Kayer’s
case would have assessed on direct appeal the evidence
presented to the PCR court because that evidence was
not then in the record. Nor do we know how the
Arizona Supreme Court would have assessed that
evidence on collateral review because the Court denied
without explanation Kayer’s petition for review. The
best we can do is look at de novo sentencing decisions
by the Arizona Supreme Court in comparable cases.
Those cases are the best evidence of what the Court
would have done if the new mitigating evidence had
been presented in Kayer’s direct appeal.
Second, our colleague contends that we have not
given appropriate deference to the decision of the state
PCR judge. The PCR judge was also the sentencing
judge. However, “[t]he assessment of prejudice . . .
should not depend on the idiosyncracies of the
particular decisionmaker[.]” Strickland, 466 U.S. at
695. “[T]he test for prejudice is an objective one.” White
v. Ryan, 895 F.3d 641, 670 (9th Cir. 2018). The
question is thus not what the PCR judge would have
done in light of the new evidence. The question, rather,

App. 74
is what the ultimate sentencing authority, the Arizona
Supreme Court, would have done. We therefore must
ask whether the PCR judge was unreasonable in
concluding that there was no “reasonable probability”
of a different result in the Arizona Supreme Court if
that Court had had before it the evidence presented to
the PCR court.
Unless we are to engage in sheer guesswork, the
only way to determine what the Arizona Supreme
Court would have done in light of Kayer’s new evidence
is to look at what that Court has done in comparable
cases. We describe, above, several decisions of that
Court. One of them, Brookover, is on all fours with
Kayer’s case. The only difference is that one of the
statutory aggravators was stronger in Brookover. The
Arizona Supreme Court held in Brookover that leniency
was “mandated.”
Our colleague refuses to acknowledge the striking
parallels between Brookover and Kayer’s case, writing
only: “The majority’s reliance on State v. Brookover, 601
P.2d 1322 (Ariz. 1979), a forty-year-old case, ignores
what the state court did in this case.” Diss. Op. at 75
(emphasis added). Our colleague maintains that we can
safely ignore Brookover because of its age (“a fortyyear-old case”).
Our colleague misses the fact that when the Arizona
Supreme Court reviewed Kayer’s sentence de novo on
direct appeal, Brookover had been decided only twenty
(not forty) years earlier. The Arizona Supreme Court in
capital cases routinely cites and treats as binding
precedent its own decisions from twenty years (and
more) before. See, e.g., State v. Hedlund, 431 P.3d 181,

App. 75
190 (Ariz. 2018) (discussing and distinguishing State v.
Graham, 660 P.2d 460 (Ariz. 1983); State v. Trostle,
951 P.2d 869, 885 (Ariz. 1997) (discussing and relying
on State v. Richmond, 560 P.2d 41, 52–53 (Ariz. 1976)).
See also State v. Stuard, 863 P.2d 881, 902 (Ariz. 1993)
(citing, inter alia, State v. Doss, 568 P.2d 1054, 1060
(Ariz. 1977), and writing, “Leniency is therefore
required”). Nothing in the practice of the Arizona
Supreme Court suggests that when it sentenced Kayer
de novo in 1999, it would have treated as less-thanbinding a twenty-year-old precedent. In that
precedent— Brookover—the Arizona Supreme Court
had held, on facts less favorable to the defendant than
those in Kayer’s case, that a non-capital sentence was
“mandated.” Given Brookover’s holding that “leniency”
was “mandated,” it was unreasonable for the PCR
judge to conclude that in Kayer’s case there was no
“reasonable probability” that the Arizona Supreme
Court on direct appeal would have imposed a noncapital sentence.
IV. Other Certified Claims
Kayer asserts two additional certified claims with
which we may deal fairly quickly.
A. Continuance
Kayer argues that the sentencing court violated his
Sixth Amendment rights by acceding to his objection to
a continuation of his sentencing hearing. He argues
that the court should have disregarded his objection
and instead granted his attorneys’ request for a
continuance. In light of our holding, above, that the
sentencing court unreasonably concluded that Kayer’s

App. 76
attorneys performed effectively and, in the alternative,
if they performed ineffectively, that Kayer suffered no
prejudice, we need not reach the question whether the
court acted properly in denying the continuance.
B. Martinez
Kayer seeks to revive several procedurally barred
guilt-phase ineffective assistance of counsel claims by
showing cause and prejudice under Martinez v. Ryan,
566 U.S. 1 (2012). Post-conviction counsel’s
ineffectiveness in failing to raise a meritorious
ineffective assistance of counsel claim may constitute
“cause” sufficient to overcome a procedural bar. Id. at
17. To prevail, the petitioner must show that (1) postconviction counsel performed deficiently, (2) effective
counsel might have changed the result of the postconviction proceedings, and (3) the underlying
ineffectiveness claim was substantial. Pizzuto v.
Ramirez, 783 F.3d 1171, 1178–79 (9th Cir. 2015). An
evidentiary hearing is appropriate if “such a hearing
could enable an applicant to prove the petition’s factual
allegations, which, if true, would entitle the applicant
to federal habeas relief.” Runningeagle v. Ryan, 825
F.3d 970, 990 (9th Cir. 2016) (quoting Schriro v.
Landrigan, 550 U.S. 465, 474 (2007)).
Kayer sought to revive several claims in the district
court and seeks to revive them here. The district court
held that none of the claims was substantial in the
sense necessary to support a finding of cause and
prejudice under Martinez. Upon review of the evidence,
we agree with the district court.

App. 77
V. Uncertified Claims
Kayer seeks certification of two claims that the
district court declined to certify. We also decline to
certify these claims.
Conclusion
We reverse the decision of the district court with
respect to ineffective assistance of counsel at the
penalty phase. We otherwise affirm.
We remand to the district court with instructions to
grant the writ with respect to the penalty phase unless
the State, within a reasonable period, grants Kayer a
rehearing with respect to the penalty or vacates the
sentence of death and imposes a lesser sentence
consistent with the law.
REVERSED in part, AFFIRMED in part, and
REMANDED with instructions.
OWENS, Circuit Judge, concurring in part and
dissenting in part:
While I agree with much of the majority’s decision,
I part ways as to its conclusion that we must reverse
Kayer’s death sentence. I cannot say that the Arizona
PCR court acted unreasonably regarding prejudice in
light of the aggravating and mitigating circumstances
in this case.
The AEDPA standard is “highly deferential” and
“difficult to meet.” Harrington v. Richter, 562 U.S. 86,
102, 105 (2011) (citations omitted). The petitioner must
show that the state court’s decision was “so lacking in

App. 78
justification that there was an error well understood
and comprehended in existing law beyond any
possibility for fairminded disagreement.” Id. at 103. In
other words, AEDPA “demands that state-court
decisions be given the benefit of the doubt.” Woodford
v. Visciotti, 537 U.S. 19, 24 (2002) (per curiam).
The majority concludes that the aggravating factors
supporting imposition of Kayer’s death sentence were
“not overwhelming.” Majority Opinion 62. It focuses on
the prior serious offense aggravating factor as being
“relatively weak,” Majority Opinion 57, 63, but
overlooks the strength of the pecuniary gain
aggravating factor. For that aggravator, the defendant
must have a financial “motive, cause, or impetus” for
the murder. State v. Kayer, 984 P.2d 31, 41 (Ariz. 1999)
(citation omitted). There is no dispute that Kayer had
a financial motive for killing Haas, doing so for a mere
few hundred dollars’ worth of cash and other items. See
State v. Soto-Fong, 928 P.2d 610, 632 (Ariz. 1996)
(“Pecuniary gain does not focus on whether the
defendants were effective or thorough robbers, but on
whether their motive was financial gain.”).
Moreover, the crime here was brutal, even if it did
not rise to the level of “especially heinous, cruel or
depraved.” Kayer decided to rob and kill Haas, and the
next day shot Haas in the head at point-blank range
during a remote bathroom stop on their drive home
from a gambling trip. Kayer took Haas’s wallet, watch,
and jewelry. Kayer left Haas in the bushes and drove
away, but turned around upon realizing he had
forgotten to take Haas’s keys to loot his house. Kayer
returned to the murder scene, retrieved the keys, and

App. 79
shot Haas in the head again because he did not appear
to be dead.
These facts are remarkably similar to Visciotti,
where the U.S. Supreme Court reversed our grant of
habeas relief. 537 U.S. at 20. There, in a preplanned
armed robbery, the defendant and his co-worker shot
two co-workers as they all drove to a party and made a
remote bathroom stop (one victim died and one
survived). Id. The defendant was sentenced to death.
Id. At the PCR stage, the California Supreme Court
determined that the defendant had not been prejudiced
by his counsel’s failure to introduce mitigating evidence
about his background. Id. at 21. In particular, the
California Supreme Court concluded that the
mitigating evidence was outweighed by “the
circumstances of the crime (a cold-blooded executionstyle killing of one victim and attempted executionstyle killing of another, both during the course of a
preplanned armed robbery) coupled with the
aggravating evidence of prior offenses (the knifing of
one man, and the stabbing of a pregnant woman as she
lay in bed trying to protect her unborn baby).” Id. at 26.
We held that decision was objectively unreasonable and
granted habeas relief. Id. at 21–22.
The U.S. Supreme Court reversed, stating that we
had impermissibly “substituted [our] own judgment for
that of the state court, in contravention of” AEDPA. Id.
at 25. Likewise, here, the majority impermissibly
substitutes its own judgment that Kayer was
prejudiced. Granted, the prior offenses in Visciotti were
more serious than Kayer’s prior burglary conviction.
However, the “federal habeas scheme leaves primary

App. 80
responsibility with the state courts for these
judgments, and authorizes federal-court intervention
only when a state-court decision is objectively
unreasonable. It is not that here.” Id. at 27. The
majority contends that Visciotti is different because it
took place in California, involved a PCR decision by the
state supreme court, and Arizona had a distinct capital
sentencing scheme at the time. Majority Opinion
67–68. But those differences do not excuse AEDPA
deference to the Arizona PCR court’s decision here. See
Schriro v. Landrigan, 550 U.S. 465, 473 (2007)
(reversing Ninth Circuit in an Arizona capital case, and
noting that “[t]he question under AEDPA is not
whether a federal court believes the state court’s
determination was incorrect but whether that
determination was unreasonable—a substantially
higher threshold”).
Further, Kayer’s mitigation—mental illness, and
gambling and alcohol addiction—was hardly
overwhelming; we have denied habeas relief based on
far worse mitigating facts than this one. See, e.g., Apelt
v. Ryan, 878 F.3d 800, 815–16 (9th Cir. 2017) (denying
habeas relief even though trial counsel failed to
uncover mitigating evidence that the defendant grew
up very poor, had an alcoholic and violent father who
beat his children with an iron rod, was raped twice as
a child, and suffered from mental illness); Cain v.
Chappell, 870 F.3d 1003, 1021 (9th Cir. 2017) (denying
habeas relief despite new mitigating evidence that the
defendant was severely beaten and punished by his
stepmother, had an untreated childhood head injury,
and had learning disabilities).

App. 81
Here, we have an undisputedly strong aggravating
factor, an arguably weak one, and some mitigation, all
of which the Arizona PCR court reviewed. The
majority’s reliance on State v. Brookover, 601 P.2d 1322
(Ariz. 1979), a forty-year-old case, ignores what the
state court did in this case. The U.S. Supreme Court
has warned us again and again not to intrude on state
court death sentences unless “so lacking in
justification” as to give rise to constitutional error
“beyond any possibility for fairminded disagreement.”
Richter, 562 U.S. at 103. I fear that we have done so
again, so I respectfully dissent.

App. 82

APPENDIX B
WO
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV 07-2120-PHX-DGC
DEATH PENALTY CASE
[Filed October 19, 2009]
_______________________
George Russell Kayer,
)
)
Petitioner,
)
)
vs.
)
)
Charles L. Ryan, et al.,1 )
)
Respondents. )
_______________________ )
MEMORANDUM OF DECISION AND ORDER
Petitioner George Kayer, a state prisoner under
sentence of death, has filed an Amended Petition for

1

Charles L. Ryan, Interim Director of the Arizona Department of
Corrections, is substituted as Respondent pursuant to Federal
Rule of Civil Procedure 25(d).

App. 83
Writ of Habeas Corpus. Dkt. 35.2 Petitioner alleges,
pursuant to 28 U.S.C. § 2254, that he is imprisoned
and sentenced in violation of the United States
Constitution. He has also filed a motion for evidentiary
development. Dkt. 46. For the reasons set forth below,
the Court concludes that Petitioner is not entitled to
habeas relief or evidentiary development.
BACKGROUND
In 1997, a jury in Yavapai County convicted
Petitioner of first degree murder for taking the life of
Delbert L. Haas. The following facts concerning the
circumstances of the crime and Petitioner’s trial are
derived from the opinion of the Arizona Supreme Court
affirming Petitioner’s conviction and sentence, State v.
Kayer, 194 Ariz. 423, 427-30, 984 P.2d 31, 35-38 (1999),
and from this Court’s review of the record.
On December 3, 1994, two couples searching for
Christmas trees on a dirt road in Yavapai County
discovered a body, later identified as that of Delbert L.
Haas. Haas had been shot twice, once behind each ear.
On December 12, 1994, Yavapai County Detective
Danny Martin received a phone call from Las Vegas
police officer Larry Ross. Ross told Martin that a
woman named Lisa Kester had approached a security
guard at the Pioneer Hotel in Laughlin, Nevada, and
said that her boyfriend, Petitioner, had killed a man in
Arizona. Kester also indicated that a warrant had been
issued for Petitioner’s arrest in relation to a different
crime, a fact Las Vegas police officers later confirmed.
2

“Dkt.” refers to numbered documents in this Court’s electronic
case docket.

App. 84
Kester gave Las Vegas officers the gun she said was
used to kill Haas and led them to credit cards
belonging to Haas that were found inside a white van
in the hotel parking lot.
During her interaction with the officers, Kester
appeared agitated. She told them she had not come
forward sooner because she feared Petitioner would kill
her, and asked to be placed in the witness protection
program. Kester described Petitioner’s physical
appearance and agreed to accompany an officer to the
police station.
Hotel security guards and Las Vegas police officers
soon spotted Petitioner leaving the hotel. The officers
arrested Petitioner and took him to the police station
for questioning. Kester had already been arrested for
carrying a concealed weapon. Detectives Martin and
Roger Williamson flew to Las Vegas on December 13 to
interrogate Kester and Petitioner. Kester gave a
complete account of the events that led to Haas’s death.
Petitioner spoke briefly with the detectives before
invoking his right to counsel.
Kester’s statements to Detectives Martin and
Williamson formed the basis of the State’s prosecution
of Petitioner. She said Petitioner continually bragged
about a gambling system he had devised to beat the
Las Vegas casinos, but neither Petitioner nor Kester
had money with which to gamble. Petitioner earned
some money selling t-shirts, jewelry, and knickknacks
at swap meets. His only other income came from using
fake identities to bilk the government of benefits.
Petitioner learned that Haas had recently received
money from an insurance settlement. He and Kester

App. 85
visited Haas at his house near Cordes Lakes late in
November 1994. Kester said that Petitioner convinced
Haas to go gambling with them. On November 30,
1994, Petitioner, Kester, and Haas left for Laughlin,
Nevada, in Petitioner’s van.
The three stayed in the same hotel room in
Laughlin. After the first night of gambling, Petitioner
claimed to have “won big.” Haas agreed to loan
Petitioner about $100 of his settlement money so that
Petitioner could further utilize his gambling system.
Petitioner’s system proved unsuccessful and he lost all
of the money Haas had given him. Petitioner again told
Haas that he had won big, but claimed that someone
had stolen his winnings. Kester asked Petitioner what
they were going to do now that they were out of money.
Petitioner said he was going to rob Haas. When Kester
asked how Petitioner was going to get away with
robbing someone he knew, Petitioner replied, “I guess
I’ll just have to kill him.”
The three left Laughlin to return to Arizona on
December 2, 1994. On the road, all three consumed
alcohol, especially Haas. Petitioner and Haas argued
over how Petitioner was going to repay Haas. The van
made several stops for bathroom breaks and to
purchase snacks. At one of these stops, Petitioner took
a gun that he stored under the seat of the van and put
it in his pants. Petitioner asked Kester if she was
“going to be all right with this.” Kester said she wanted
Petitioner to warn her before he killed Haas.
Petitioner traveled on a series of back roads that he
claimed would be a shortcut to Haas’s house.
Eventually, he stopped the van near Camp Wood Road

App. 86
in Yavapai County. At this stop, Kester said Haas
exited the van and began urinating behind it. Kester
started to climb out of the van as well, but Petitioner
motioned to her with the gun and pushed her back into
the vehicle. The van had windows in the rear and on
each side through which Kester viewed what occurred
next. Petitioner walked quietly up to Haas from behind
while he was urinating and shot him behind the ear at
point-blank range. He dragged the body off the side of
the road to the bushes where it was eventually found,
then returned to the car carrying Haas’s wallet, watch,
and jewelry.
Petitioner and Kester began to drive away in the
van when Petitioner realized that he had forgotten to
retrieve Haas’s house keys. He turned the van around
and returned to the murder scene. Kester and
Petitioner both looked for the body. Kester spotted it
and then returned to the van. Petitioner returned to
the van, too, and asked for the gun, saying that Haas
did not appear to be dead. Kester said Petitioner
approached Haas’s body and that she heard a second
shot.
Petitioner and Kester then drove to Haas’s home.
Petitioner entered the home and removed several guns,
a camera, and other items of personal property. He
attempted unsuccessfully to find Haas’s PIN number in
order to access Haas’s bank accounts. Petitioner and
Kester sold Haas’s guns and jewelry at pawn shops and
flea markets over the course of the next week, usually
under the aliases of David Flynn and Sharon Hughes.
They then traveled to Laughlin where Petitioner used
the proceeds from selling Haas’s property to test his

App. 87
gambling system again and to pay for a room at the
Pioneer Hotel. Kester approached the Pioneer Hotel
security guard and reported the shooting.
On December 29, 1994, a grand jury indicted
Petitioner and Kester on several charges, including
premeditated first degree murder and felony first
degree murder. In February 1995, the State filed a
notice that it would seek the death penalty against
both Petitioner and Kester. In September 1995, Kester
entered into a plea agreement with the State. In
exchange for her truthful testimony, the original
charges would be dropped and Kester would be charged
with several lesser counts including facilitation to
commit first degree murder.
Petitioner was tried in March 1997. His defense
centered on the claim that Kester alone had killed
Haas and was now framing Petitioner for the murder.
The State presented evidence that corroborated
Kester’s testimony and discredited Petitioner’s
testimony. The jury convicted Petitioner of all charges,
finding him guilty of first degree murder under both
premeditated and felony murder theories.
At sentencing, the trial judge, Yavapai County
Superior Court Judge William T. Kiger, found two
aggravating factors: that Petitioner had previously
been convicted of a serious offense, pursuant to A.R.S.
§ 13-703(F)(2), and that the murder was committed for
pecuniary gain under § 13-703(F)(5). Dkt. 36, Ex. A.
Judge Kiger found that Petitioner had failed to
establish any statutory mitigating factors and had
proved only one nonstatutory mitigator. Id. After

App. 88
weighing the aggravating and mitigating factors, the
judge sentenced Petitioner to death. Id.
The Arizona Supreme Court affirmed the
convictions and sentences. Kayer, 194 Ariz. 423, 984
P.2d 31. Petitioner filed a petition for postconviction
relief (“PCR”) with the trial court.3 PCR Pet., filed
6/6/05. Judge Kiger dismissed a number of claims as
precluded and, following an evidentiary hearing on
Petitioner’s claims of ineffective assistance of counsel,
denied the PCR petition. Dkt. 36, Exs. B, C. Petitioner
filed a petition for review (“PR”), PR doc. 9, which the
Arizona Supreme Court denied.
APPLICABLE LAW
Because it was filed after April 24, 1996, this case
is governed by the Antiterrorism and Effective Death
Penalty Act of 1996, 28 U.S.C. § 2254 (AEDPA). Lindh
v. Murphy, 521 U.S. 320, 336 (1997); see also Woodford
v. Garceau, 538 U.S. 202, 210 (2003).
PRINCIPLES
DEFAULT

OF

EXHAUSTION

AND

PROCEDURAL

Under the AEDPA, a writ of habeas corpus cannot
be granted unless it appears that the petitioner has
exhausted all available state court remedies. 28 U.S.C.
§ 2254(b)(1); see Coleman v. Thompson, 501 U.S. 722,
731 (1991); Rose v. Lundy, 455 U.S. 509 (1982). To
exhaust state remedies, the petitioner must “fairly
3

An earlier PCR notice had been vacated when initial PCR counsel
failed to file a timely petition (Case No. CR-02-0048-PC). Counsel
withdrew, new counsel were appointed, and a new PCR notice was
filed (Case No. CR-07-0163-PC).

App. 89
present” his claims to the state’s highest court in a
procedurally appropriate manner. O’Sullivan v.
Boerckel, 526 U.S. 838, 848 (1999).
A claim is “fairly presented” if the petitioner has
described the operative facts and the federal legal
theory on which his claim is based so that the state
courts have a fair opportunity to apply controlling legal
principles to the facts bearing upon his constitutional
claim. Anderson v. Harless, 459 U.S. 4, 6 (1982); Picard
v. Connor, 404 U.S. 270, 277-78 (1971). Unless the
petitioner clearly alerts the state court that he is
alleging a specific federal constitutional violation, he
has not fairly presented the claim. See Casey v. Moore,
386 F.3d 896, 913 (9th Cir. 2004). A petitioner must
make the federal basis of a claim explicit either by
citing specific provisions of federal law or federal case
law, even if the federal basis of a claim is “self-evident,”
Gatlin v. Madding, 189 F.3d 882, 888 (9th Cir. 1999),
or by citing state cases that explicitly analyze the same
federal constitutional claim, Peterson v. Lampert, 319
F.3d 1153, 1158 (9th Cir. 2003) (en banc).
In Arizona, there are two primary procedurally
appropriate avenues for petitioners to exhaust federal
constitutional claims: direct appeal and PCR
proceedings. Rule 32 of the Arizona Rules of Criminal
Procedure governs PCR proceedings and provides that
a petitioner is precluded from relief on any claim that
could have been raised on appeal or in a prior PCR
petition. Ariz. R. Crim. P. 32.2(a)(3). The preclusive
effect of Rule 32.2(a) may be avoided only if a claim
falls within certain exceptions (subsections (d) through
(h) of Rule 32.1) and the petitioner can justify why the

App. 90
claim was omitted from a prior petition or not
presented in a timely manner. See Ariz. R. Crim. P.
32.1(d)-(h), 32.2(b), 32.4(a).
A habeas petitioner’s claims may be precluded from
federal review in two ways. First, a claim may be
procedurally defaulted in federal court if it was
actually raised in state court but found by that court to
be defaulted on state procedural grounds. Coleman, 501
U.S. at 729-30. Second, a claim may be procedurally
defaulted if the petitioner failed to present it in state
court and “the court to which the petitioner would be
required to present his claims in order to meet the
exhaustion requirement would now find the claims
procedurally barred.” Id. at 735 n.1; see also Ortiz v.
Stewart, 149 F.3d 923, 931 (9th Cir. 1998) (district
court must consider whether the claim could be
pursued by any presently available state remedy).
Therefore, in the present case, if there are claims
which have not been raised previously in state court,
the Court must determine whether Petitioner has state
remedies currently available to him pursuant to Rule
32. See Ortiz, 149 F.3d at 931 (district court must
consider whether the claim could be pursued by any
presently available state remedy). If no remedies are
currently available, petitioner’s claims are “technically”
exhausted but procedurally defaulted. Coleman, 501
U.S. at 732, 735 n.1.
In addition, if there are claims that were fairly
presented in state court but found defaulted on state
procedural grounds, such claims also will be found
procedurally defaulted in federal court so long as the
state procedural bar was independent of federal law

App. 91
and adequate to warrant preclusion of federal review.
See Harris v. Reed, 489 U.S. 255, 262 (1989). It is well
established that Arizona’s preclusion rule is
independent of federal law, see Stewart v. Smith, 536
U.S. 856, 860 (2002), and the Ninth Circuit has
repeatedly determined that Arizona regularly and
consistently applies its procedural default rules such
that they are an adequate bar to federal review of a
claim. See Ortiz, 149 F.3d at 932 (Rule 32.2(a)(3)
regularly followed and adequate); Poland v. Stewart,
117 F.3d 1094, 1106 (9th Cir. 1997) (same); MartinezVillareal v. Lewis, 80 F.3d 1301, 1306 (9th Cir. 1996)
(previous version of Arizona’s preclusion rules
“adequate”).
Nonetheless, because the doctrine of procedural
default is based on comity, not jurisdiction, federal
courts retain the power to consider the merits of
procedurally defaulted claims. Reed v. Ross, 468 U.S. 1,
9 (1984). As a general matter, however, the Court will
not review the merits of procedurally defaulted claims
unless a petitioner demonstrates legitimate cause for
the failure to properly exhaust in state court and
prejudice from the alleged constitutional violation, or
shows that a fundamental miscarriage of justice would
result if the claim were not heard on the merits in
federal court. Coleman, 501 U.S. at 750.
Ordinarily, “cause” to excuse a default exists if a
petitioner can demonstrate that “some objective factor
external to the defense impeded counsel’s efforts to
comply with the State’s procedural rule.” Id. at 753.
Objective factors which constitute cause include
interference by officials that makes compliance with

App. 92
the state’s procedural rule impracticable, a showing
that the factual or legal basis for a claim was not
reasonably available to counsel, and constitutionally
ineffective assistance of counsel. Murray v. Carrier, 477
U.S. 478, 488 (1986); King v. LaMarque, 455 F.3d 1040,
1045 (9th Cir. 2006). “Prejudice” is actual harm
resulting from the alleged constitutional error or
violation. Vickers v. Stewart, 144 F.3d 613, 617 (9th
Cir. 1998). To establish prejudice resulting from a
procedural default, a habeas petitioner bears the
burden of showing not merely that the errors at his
trial constituted a possibility of prejudice, but that they
worked to his actual and substantial disadvantage,
infecting his entire trial with errors of constitutional
dimension. United States v. Frady, 456 U.S. 152, 170
(1982).
STANDARD FOR HABEAS RELIEF
For properly exhausted claims, the AEDPA
established a “substantially higher threshold for
habeas relief” with the “acknowledged purpose of
‘reducing delays in the execution of state and federal
criminal sentences.’” Schriro v. Landrigan, 550 U.S.
465, 475 (2007) (quoting Woodford v. Garceau, 538 U.S.
202, 206 (2003)). The AEDPA’s “‘highly deferential
standard for evaluating state-court rulings’ . . .
demands that state-court decisions be given the benefit
of the doubt.” Woodford v. Visciotti, 537 U.S. 19, 24
(2002) (per curiam) (quoting Lindh v. Murphy, 521 U.S.
320, 333 n.7 (1997)).
Under the AEDPA, a petitioner is not entitled to
habeas relief on any claim “adjudicated on the merits”
by the state court unless that adjudication:

App. 93
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceeding.
28 U.S.C. § 2254(d). The relevant state court decision
is the last reasoned state decision regarding a claim.
Barker v. Fleming, 423 F.3d 1085, 1091 (9th Cir. 2005)
(citing Ylst v. Nunnemaker, 501 U.S. 797, 803-04
(1991)).
“The threshold question under AEDPA is whether
[a petitioner] seeks to apply a rule of law that was
clearly established at the time his state-court
conviction became final.” Williams v. Taylor, 529 U.S.
362, 390 (2000). Therefore, to assess a claim under
subsection (d)(1), the Court must first identify the
“clearly established Federal law,” if any, that governs
the sufficiency of the claims on habeas review. “Clearly
established” federal law consists of the holdings of the
Supreme Court at the time the petitioner’s state court
conviction became final. Williams, 529 U.S. at 365; see
Carey v. Musladin, 549 U.S. 70, 76 (2006). Habeas
relief cannot be granted if the Supreme Court has not
“broken sufficient legal ground” on a constitutional
principle advanced by a petitioner, even if lower federal
courts have decided the issue. Williams, 529 U.S. at
381; see Musladin, 549 U.S. at 77. Nevertheless, while
only Supreme Court authority is binding, circuit court
precedent may be “persuasive” in determining what

App. 94
law is clearly established and whether a state court
applied that law unreasonably. Clark v. Murphy, 331
F.3d 1062, 1069 (9th Cir. 2003).
The Supreme Court has provided guidance in
applying each prong of § 2254(d)(1). The Court has
explained that a state court decision is “contrary to” the
Supreme Court’s clearly established precedents if the
decision applies a rule that contradicts the governing
law set forth in those precedents, thereby reaching a
conclusion opposite to that reached by the Supreme
Court on a matter of law, or if it confronts a set of facts
that is materially indistinguishable from a decision of
the Supreme Court but reaches a different result.
Williams, 529 U.S. at 405-06; see Early v. Packer, 537
U.S. 3, 8 (2002) (per curiam). In characterizing the
claims subject to analysis under the “contrary to”
prong, the Court has observed that “a run-of-the-mill
state-court decision applying the correct legal rule to
the facts of the prisoner’s case would not fit
comfortably within § 2254(d)(1)’s ‘contrary to’ clause.”
Williams, 529 U.S. at 406.
Under the “unreasonable application” prong of
§ 2254(d)(1), a federal habeas court may grant relief
where a state court “identifies the correct governing
legal rule from [the Supreme] Court’s cases but
unreasonably applies it to the facts of the particular . . .
case” or “unreasonably extends a legal principle from
[Supreme Court] precedent to a new context where it
should not apply or unreasonably refuses to extend
that principle to a new context where it should apply.”
Williams, 529 U.S. at 407. For a federal court to find a
state court’s application of Supreme Court precedent

App. 95
“unreasonable” under § 2254(d)(1), the petitioner must
show that the state court’s decision was not merely
incorrect or erroneous, but “objectively unreasonable.”
Id. at 409; Visciotti, 537 U.S. at 25.
Under the standard set forth in § 2254(d)(2), habeas
relief is available only if the state court decision was
based on an unreasonable determination of the facts.
Miller-El v. Dretke, 545 U.S. 231, 240 (2005) (Miller-El
II). A state court decision “based on a factual
determination will not be overturned on factual
grounds unless objectively unreasonable in light of the
evidence presented in the state-court proceeding.”
Miller-El I, 537 U.S. at 340; see Taylor v. Maddox, 366
F.3d 992, 999 (9th Cir. 2004). In considering a
challenge under 2254(d)(2), state court factual
determinations are presumed to be correct, and a
petitioner bears the “burden of rebutting this
presumption by clear and convincing evidence.” 28
U.S.C. § 2254(e)(1); Miller-El II, 545 U.S. at 240. But
only the state court’s factual findings, not its ultimate
decision, are subject to § 2254(e)(1)’s presumption of
correctness. Miller-El I, 537 U.S. at 341-42.
DISCUSSION
PROCEDURAL ANALYSIS
Petitioner has raised 30 claims. Respondents
contend that only five of the claims are properly
exhausted. Dkt. 36 at 1. For the reasons set forth
below, the Court finds that Claims 1(B)(1), 1(B)(2),
1(B)(3), 1(B)(5), 13-21, 24, and 26 are procedurally
barred and will not be considered on the merits. The

App. 96
Court will address procedural issues with respect to the
remaining claims as necessary.
Claim 1
Petitioner raises five subclaims alleging ineffective
assistance of counsel during the guilt and penalty
phases of his trial. Dkt. 35 at 20. Respondents concede
that subclaim 1(B)(4), alleging ineffective assistance at
sentencing, is exhausted, but contend that the
remaining subclaims were not exhausted in state court
and are procedurally barred. Dkt. 36 at 25-26.
In subclaims 1(B)(1), 1(B)(2), and 1(B)(3), Petitioner
alleges, respectively, that he was denied effective
assistance of counsel because his attorneys failed to
conduct an immediate and thorough investigation; his
first lead counsel failed to seek second counsel in a
timely manner and second counsel, when appointed,
undertook little work on Petitioner’s behalf; and
neither of his lead attorneys was qualified to defend a
capital case. In subclaim 1(B)(5), Petitioner alleges that
he was denied effective assistance of counsel during
death qualification of the jury.
In his PCR petition, Petitioner raised two claims of
ineffective assistance of counsel, alleging that counsel
failed to conduct an adequate mitigation investigation
and that counsel performed ineffectively during voir
dire. PCR Pet. at 32, 37. In his petition for review to
the Arizona Supreme Court, Petitioner included only
the claim that counsel’s performance was ineffective
with respect to mitigation. PR doc. 9. In neither filing
did Petitioner raise a claim that his rights were
violated by counsel’s performance at the guilt stage of

App. 97
trial as alleged in Claims 1(B)(1), 1(B)(2), or 1(B)(3). If
Petitioner were to return to state court and attempt to
exhaust these claims, the claims would be found
waived and untimely under Rules 32.2(a)(3) and 32.4(a)
of the Arizona Rules of Criminal Procedure because
they do not fall within an exception to preclusion. See
Ariz. R. Crim. P. 32.2(b); 32.1(d)-(h). Therefore,
subclaims 1(B)(1), 1(B)(2), and 1(B)(3) are “technically”
exhausted but procedurally defaulted because
Petitioner no longer has an available state remedy.
Coleman, 501 U.S. at 732, 735 n.1. Petitioner does not
attempt to show cause and prejudice or a fundamental
miscarriage of justice.
Claim 1(B)(5) is also procedurally defaulted. In
Arizona, fair presentation requires that capital
petitioners present their allegations not only to the
PCR court but also to the Arizona Supreme Court upon
denial of relief. See O’Sullivan, 526 U.S. at 848;
Swoopes v. Sublett, 196 F.3d 1008 (9th Cir. 1999) (per
curiam) (capital petitioners must seek review in
Arizona Supreme Court to exhaust claims). In his
petition for review, Petitioner did not include his claim
regarding counsel’s performance during voir dire. See
PR doc. 9. Therefore, he did not fairly present the claim
to the Arizona Supreme Court. Petitioner may not
exhaust the claim now because he does not have an
available state court remedy. Petitioner does not assert
that cause and prejudice or a fundamental miscarriage
of justice excuse the default of these subclaims.
Therefore, subclaims 1(B)(1), 1(B)(2),1(B)(3), and
1(B)(5) are denied as procedurally barred.

App. 98
Claims 13-21, 26
Petitioner raised these claims for the first time in
his PCR petition. PCR Pet. at 3-9, 40-46. Judge Kiger
denied them as “[p]recluded by Rule 32.2(a)(3).” Dkt.
36, Ex. B.
Rule 32.2(a)(3) constitutes a regularly followed and
adequate state procedural bar. See Ortiz, 149 F.3d at
932. Petitioner nonetheless argues that the PCR ruling
“was ambiguous and therefore insufficient to constitute
a clear express invocation of a state procedural rule
permitting preclusion.” Dkt. 40 at 49. According to
Petitioner, it is not clear whether the PCR court
believed the claims should have been raised on direct
appeal or in his prior PCR petition. Id. at 45-46.
Petitioner cites no authority for the proposition that
this alleged ambiguity renders the invocation of Rule
32.2(a)(3) inadequate as a procedural bar, and the
Court is unconvinced. There is no ambiguity either in
the PCR court’s citation to Rule 32.2(a)(3) as the sole
basis for finding the claims precluded or in the
language of the Rule itself, which states that a claim is
precluded if it was waived “at trial, on appeal, or in any
previous collateral proceeding.” Nothing in the rule
requires the state court to specifically identify the
proceeding in which the waiver occurred. Moreover,
given that the first PCR notice was vacated before a
petition was filed, there is no question that the PCR
court’s ruling referred to Petitioner’s failure to raise the
claims on direct appeal.
As cause for the default of Claims 13, 14, 16, 17, 19,
and 20, Petitioner asserts ineffective assistance of
appellate counsel. See, e.g., Dkt. 40 at 39. Ineffective

App. 99
assistance of counsel may constitute cause for failing
properly to exhaust claims in state court and excuse
procedural default. Ortiz, 149 F.3d at 932. To meet the
“cause” requirement, however, the ineffective
assistance must amount to an independent
constitutional violation. Id.; see also Coleman, 501 U.S.
at 755 (“We reiterate that counsel’s ineffectiveness will
constitute cause only if it is an independent
constitutional violation.”). As explained below with
respect to Claim 22, Petitioner has failed to show that
appellate counsel performed at a constitutionally
ineffective level. Therefore, he cannot establish cause
for the default of the claims. Claims 13-21 and 26 are
denied as procedurally barred.
Claim 24
Petitioner alleges that the State improperly
withheld exculpatory and impeachment evidence in
violation of Brady v. Maryland. Dkt. 35 at 129. As
Respondents note, Petitioner never presented this
claim in state court. Dkt. 36 at 89. Because no state
remedies remain, the claim is technically exhausted
but procedurally defaulted. Petitioner does not allege
cause and prejudice or a fundamental miscarriage of
justice. Claim 24 is denied as procedurally barred.
MERITS ANALYSIS
Claim 1(B)(4):
Petitioner alleges that he was denied effective
assistance of counsel at sentencing because his
attorneys failed to conduct an immediate and thorough
mitigation investigation. Dkt. 35 at 45.

App. 100
Background
Pretrial, trial, and sentencing
Petitioner was indicted on December 29, 1994. On
January 6, 1995, Linda Williamson was appointed to
represent him. RT 1/6/95 at 3.4 Williamson was under
a contract with Yavapai County to represent indigent
defendants and had been an attorney for nearly five
years with significant experience in criminal law,
although she had not tried a capital murder case. RT
3/22/06 at 7-8, 44.
Williamson asked James Bond, an experienced
criminal attorney, to serve as second chair, with the
intent that he would focus on mitigation and
sentencing. RT 3/15/06 at 25, 47; RT 3/22/06 at 45-46.
When Bond agreed to serve as second-chair, he
understood that the trial would not occur for a long
time; his involvement in the case was minimal. RT
3/22/06 at 48. Although Williamson never focused on
the sentencing phase of trial, she spoke with Petitioner
about mitigation in a general way. RT 3/22/06 at 32.
Williamson filed a number of pretrial motions,
including one requesting a Rule 11 pre-screening
psychiatric examination of Petitioner. Id. at 50; ROA
30. The court appointed Dr. Daniel Barack Wasserman
4

“RT” refers to the court reporter’s transcript. “ROA” refers to the
record on appeal from trial and sentencing prepared for
Petitioner’s direct appeal to the Arizona Supreme Court (Case. No.
CR-97-0280-AP). “ME” refers to the minute entries of the trial
court. Certified copies of the trial and post-conviction records were
provided to this Court by the Arizona Supreme Court on May 12,
2009. Dkt. 50.

App. 101
to conduct the examination. Id. at 53-54. Dr.
Wasserman concluded that Petitioner did not suffer
from an identifiable mental illness or defect, although
some test results were suggestive of a “paranoid or
depressive disorder.” PCR pet., Ex. 6. Based on Dr.
Wasserman’s evaluation, the trial court found
Petitioner competent to stand trial and no further
evaluations took place. RT 3/22/06 at 57.
After investigating leads and interviewing
witnesses, Williamson concluded that the case would be
difficult to win. RT 3/22/06 at 46; RT 3/16/06 at 98. She
believed that delay was her best option, hoping that
Kester, the State’s key witness, who was pregnant with
Petitioner’s child, would begin using drugs again,
abscond, or otherwise become unavailable to testify. RT
3/22/06 at 47-48.
In June 1996, Petitioner sought to remove
Williamson and replace her with Bond as lead counsel.
The State wanted the case to proceed to trial, the trial
court wanted to schedule a firm July trial date, and
Bond was adamant that he could not be appointed lead
counsel due to his heavy case load. RT 6/19/96 at 1-20;
RT 3/30/06 at 122. Two days later, after further
discussion, the court allowed Williamson to withdraw,
directed Bond to remain as second-chair, and appointed
David Stoller, the next contract attorney in line for
capital cases, as lead counsel. RT 6/21/96 at 9.
At the time of his appointment, Stoller had been
practicing criminal law for nearly 30 years, both as a
prosecutor and a defense attorney. RT 3/15/06 at 57-60.
As a prosecutor, he had taken 50 felony cases to jury
trial, including one capital case. Id. at 58.

App. 102
In August, the trial court allowed Bond to
withdraw. RT 8/20/96 at 3. Petitioner subsequently
requested that Marc Victor be appointed to replace
Bond. RT 3/ 15/06 at 90; RT 3/16/06 at 38. Victor had
represented Petitioner on another criminal matter. Id.
He was appointed as second counsel. At the time, he
had about two years of experience as a lawyer.
In January 1997, defense counsel filed a number of
motions, including an ex parte application for funds to
further investigate the crime and to conduct a
mitigation investigation. ROA 107A. At the time of
Petitioner’s trial, requests for certain defense expenses
were required to be made to the Yavapai County
presiding judge. See RT 3/15/06 at 113. Judge Weaver,
the presiding judge, granted additional funds for the
crime investigation but deferred ruling on the request
for funds relating to mitigation. ME 2/24/97; RT 2/24/97
at 3-8. Judge Weaver stated that he would wait to see
if there was a conviction before he would authorize
funds for a mitigation investigation. RT 3/15/06 at 115.
The trial began on March 5, 1997. The jury returned
its verdict on March 26. The court scheduled the
aggravation/mitigation hearing for May 27, with a
sentencing date of June 17, 1997. ME 3/26/97.
On April 8, 1997, at Stoller’s request, Judge Weaver
authorized $6,000 for mitigation specialist Mary
Durand to begin an investigation. ME 4/8/97. The order
provided that the amount was not to be exceeded
without prior authorization. Id. Counsel subsequently
argued that Durand needed additional time to conduct
her mitigation investigation; the court continued the

App. 103
aggravation/mitigation hearing to June 24, and set
sentencing for July 15, 1997. RT 5/16/97 at 13-14.
The court held a status conference on June 6.
Defense counsel Victor informed the court that Durand
had met twice with Petitioner, but that she needed an
additional three to six months to complete her
investigation. RT 6/6/97 at 10. Victor also told the court
that Petitioner objected to such a continuance,
explaining that Petitioner “understands exactly what
is going on. He understands the nature of putting the
mitigation case on. He understands that that would be
to some extent compromised, if myself and Mr. Stoller
are not able to push back the date.” Id. at 11. Next,
lead counsel Stoller, who wanted to make a “good
record” of the issue, id. at 14, indicated that Petitioner
understood Durand’s position that potentially
significant areas of mitigation needed to be explored.5
Id. at 12. Petitioner, however, “simply didn’t want to
wait in the county jail and have that kind of diet and
not have access to things to read and television, and
things of that nature.” Id. Based in part upon this “lifestyle choice,” and against Stoller’s “best advice” and
“strong recommendation,” id. at 13, Petitioner had
informed counsel that he would not waive time to allow
Durand to complete her investigation. Id. at 12.
The court next addressed Petitioner directly.
Petitioner detailed his reasoning as follows:
In speaking with Mary Durand, I had no idea
what a mitigation specialist was before I sat
5

Stoller appeared at the hearing telephonically. See RT 6/6/97 at
8.

App. 104
down and talked to her. Didn’t know what they
looked for, didn’t know what she was looking for
in this case with me or with my life. We talked
as has been indicated on two separate occasions
for several hours. There isn’t any major areas of
investigation that are open or available to her
that her and I have discussed [sic].
These areas that Mr. Stoller brings out that
he is calling substantial evidence, from what I
understand in my conversation with Mary
Durand, she is talking about a fetal alcohol
syndrome that possibly existed. She hasn’t had
the opportunity to investigate it, and some
minor areas and details in my life that I
personally can’t see how they would relate to
mitigation in this case.
So it’s with reservations when Mr. Stoller
talks about vital areas and evidence that can be
used in mitigation. It’s a personal difference,
and certainly of opinion [sic]. I’m saying I don’t
see anything here of substantial value.
Obviously, Mr. Stoller is saying that he does.
Id. at 15-16. Petitioner also explained that Durand had
told him that she would testify at the
aggravation/mitigation hearing and do her best even if
she was unable to complete her investigation. Id. at 16.
Petitioner then continued to detail his rationale for
objecting to a further continuance:
I don’t think that – I don’t think that some
people understand exactly where I’m at. It
certainly hasn’t been presented here, and I don’t

App. 105
want to turn this into a mitigation hearing, but
I feel that there’s a few things that need to be
said today in view of where we’re at.
One of them is that I don’t have a death wish.
I’m not trying to manipulate the Court to such a
position that they have no alternative but to
decide to give me the death penalty. I don’t feel
the lack of Mary Durand’s mitigation is going to
be a major factor in the decision.
Id. at 17.
Judge Kiger, explaining that he would look
favorably on a request for an additional 30 days “or
something like that,” though not a continuance of 90 or
180 days, directly asked Petitioner if he wished to
continue the June 24 aggravation/mitigation hearing.
Id. at 20-21. Petitioner responded that he understood
the court’s position but was “not in favor of any more
continuances.” Id. at 21. Petitioner explained, “Believe
me, if I thought that – that Miss Durand had valid
evidence that should be presented to this Court, I’d be
scratching and clawing and asking for 180 days.” Id.
Citing Petitioner’s waiver of a continuance and its
effect on their ability to represent him, counsel moved
to withdraw. Id. at 25. The court denied the motion. Id.
at 25-26. At the end of the hearing, at defense counsel’s
request, the court rescheduled the aggravation/
mitigation hearing for July 8 while maintaining the
sentencing date of July 15. Id. at 30.
Counsel filed a sentencing memorandum on
Petitioner’s behalf. ROA 166. In arguing against a
death sentence, counsel offered one statutory

App. 106
mitigating factor and several nonstatutory
circumstances: intoxication causing an inability to
appreciate the wrongfulness of one’s conduct under
A.R.S. § 13-703(G)(1); intoxication not rising to the
level of the (G)(1) factor; Petitioner’s military record;
the disparity in sentences between Petitioner and
Kester; Petitioner’s poor physical health; his
intelligence and ability to contribute to society; and his
devotion to his mentally disabled son. Id. at 12-17.
At the July 8 aggravating/mitigation hearing,
defense counsel called four witnesses: a corrections
officer who testified briefly about Petitioner’s nondisruptive conduct and his work with other inmates in
the law library; Petitioner’s mother and sister; and
Mary Durand. Petitioner and his son also made
statements to the court.
Sherry Rottau, Petitioner’s mother, testified that
his father, an aeronautical engineer, died when
Petitioner was in kindergarten. RT 7/8/97 at 12. Rottau
remarried when Petitioner was in high school. Id. at
13. When Petitioner was 15 the family relocated to
Arkansas for a year before moving back to California
where he graduated from high school. Id. at 14. In
school Petitioner earned Bs and Cs and some As. Id. at
15. He was an “ambitious” child who earned money by
mowing lawns and shining shoes. Id. at 16. Rottau
testified that Petitioner was sick a lot as a child with
colds, the flu, and earaches; he was also hyperactive
and had trouble sleeping. Id. at 16-17.
After high school Petitioner joined the Navy and got
married. Id. at 21. He began exhibiting manic
depressive behavior following his military service. Id.

App. 107
at 22-23. He would work for 24 hours straight and then
sleep for a long period of time; he would start projects
only to abandon them and become depressed. Id.
Rottau was concerned about these cycles of happiness
and depression. Id. at 24.
Rottau also testified that Petitioner had a history of
heart problems. Id. at 25-26. Finally, she testified
about the close relationship between Petitioner and his
son, Tayo. Id. at 29-31.
Jean Hopson, Petitioner’s older sister, testified that
his father had drinking and gambling problems and
that Petitioner suffered difficulties in those areas as
well. Id. at 34-37. Hopson described Petitioner’s mental
state as consisting of highs and lows and testified that
he had been diagnosed as bipolar, had experienced a
nervous breakdown, and been treated with lithium. Id.
at 36, 38, 41-43. She also described a loving
relationship between Petitioner and Tayo. Id. at 40.
Mary Durand testified about the role of a mitigation
specialist, which is to develop a social history of the
defendant “in order to determine family dynamics, . . .
mental, medical, emotional, familial, nutritional, and
social factors, and behaviors that the defendant has
been involved in and exposed to throughout the course
of his life.” Id. at 46-47. Durand explained that a
mitigation specialist investigates “social and
educational, medical, marital, sexual, any kind of issue
that presents itself that gives us an idea of who the
client is that we’re dealing with, specifically to look at
impairment.” Id. at 47. She testified that the average
number of hours needed to complete a mitigation
investigation is “ideally” between 2,500 and 5,000, but

App. 108
as a practical matter “between 1,000 and 1,500 hours
. . . begins to approach a competent test and
reliability.” Id. at 50. According to Durand, a mitigation
specialist must “attempt to get every piece of
information you can,” including medical and mental
health records, military records, school records, and
court documents. Id. at 49, 51.
Durand testified that she met with Petitioner twice
for a total of six or seven hours. Id. at 52. She also met
with his mother twice, his sister once, his uncle twice,
and his son once. Id. at 53. She reviewed the
presentence reports from Petitioner’s criminal cases.
Id. Durand did not obtain any of Petitioner’s
psychiatric, medical, school, or military records because
Petitioner was “not interested in having the world
know about his life.”6 Id. at 54. Concerning Petitioner’s
reluctance to allow a full-scale mitigation investigation,
Durand explained:
We talked for an extraordinarily long period
of time, just about the issue of allowing me the
time I needed to do an appropriate, complete
and reliable mitigation on his behalf. He had
very, very strong feelings where – the fact that
he had been in jail two years and . . . five months
at that time, and was not willing to wait another
year.
I was very direct with him, and I told him I
couldn’t do it in three weeks or six weeks or
6

Petitioner did sign a waiver for the release of his military records,
but at the time of the hearing Durand had not yet received them.
RT 7/8/97 at 56.

App. 109
eight weeks, or three months, and he is very
concerned about his emotional health, his
physical health, and catching a new case, if you
will, being in this particular environment for
that period of time.
He was very concerned about putting his
family through any emotional, public hearing.
He was concerned about his son. His mother is
76 and not in good health and has serious
memory lapses, and he was concerned that he
would add to her already fragile medical state,
and he just didn’t want to put anybody through
this process. He felt like they’ve been through
enough, and he didn’t want to add to that.
Id. at 56-57.
Durand then testified that if Petitioner had been
willing to allow additional time she would have
investigated several areas of potential mitigation,
foremost among them the issue of Petitioner’s mental
health. Id. at 59. Durand stated that “there’s definitely
very serious indications of serious psychiatric
difficulties,” including a diagnosis of bipolar disorder
and an incident in which he was hospitalized with
“suicide ideation.” Id. at 59-60. Durand also testified,
citing reports of alcohol abuse in Petitioner’s family
background, that she would have investigated the issue
of alcoholism and poly-substance abuse. Id. at 60.
Finally, she would have further investigated
Petitioner’s physical health based on reports that his
mother experienced a difficult pregnancy and labor and
that Petitioner was a sickly child. Id. at 61-62. Durand
indicated that Petitioner’s “educational record does

App. 110
appear to be good in that there are areas in which he
clearly is quite brilliant and very, very well-spoken.”
Id. at 62.
Durand reiterated that Petitioner did “not want to
talk about” the proposed areas of mitigation. Id. at 62.
She concluded that, in addition to Petitioner’s
unwillingness to spend additional time in the county
jail and his reluctance to expose his mother and son to
further legal proceedings, he did not wish to pursue a
mitigation investigation due to his “pride,” “dignity,”
and desire not to “relive” his past. Id. at 63.
At the conclusion of the aggravation/mitigation
hearing, after listening to Durand’s testimony, the trial
court engaged in the following colloquy with Petitioner:
Court:

Change your mind about what you
told me last time as far as go ahead
with sentencing on the 15th of July?
Do you want more time? By asking
you the question, I’m basically saying
if you tell me right now that you’ve
considered it, and you want more
time, I’m prepared to give you more
time.
But I think you’re an intelligent
individual. You know what she’s just
testified to. I believe strongly that an
individual ought to have the ability to
make some decisions on their own, if
they have gotten all the information
and have the requisite intelligence.

App. 111
You got the information, you got the
intelligence, you’ve talked to your
counsel, you’ve heard Ms. Durand.
Your call.
Petitioner:

I appreciate your patience and
your concern in this, and I have not
changed my feeling. Thank you.

Id. at 71.
In addition to the testimony from the
aggravation/mitigation hearing, Judge Kiger, in
sentencing Petitioner, reviewed information contained
in the presentence report. PCR Pet., Ex. 26. The report
discussed Petitioner’s mental health, describing an
incident when “he became extremely depressed, had
near suicide attempts [and] in September of 1989, he
had been diagnosed as Manic Depressive at the
Phoenix VA Hospital”; it further indicated that
Petitioner had been prescribed lithium. Id. at 7. The
report also noted Petitioner’s substance abuse history,
including the fact that he was a “heavy abuser of
alcohol.” Id.
The trial court also reviewed, along with Dr.
Wasserman’s Rule 11 report, the results of a mental
status examination prepared in 1990 by Dr. Jeffrey
Penney, a psychiatrist from Prescott. RT 7/15/98 at 38;
see Dkt. 52, Attach. Dr. Penney reported that
Petitioner described experiencing symptoms of mania
and depression with “intermittent suicidal ideation”;
Petitioner indicated that he was presently taking
lithium and an anti-depressant. Dkt. 52, Attach. at 1.
Dr. Penney noted that drug and alcohol use were often

App. 112
associated with the manic episodes described by
Petitioner. Id. Petitioner reported a “history of heavy
alcohol usage throughout his life” and informed Dr.
Penney that he currently drank “3 six-packs a week”
and would drink more if he could afford to do so. Id. Dr.
Penney observed that Petitioner experienced “notable”
gaps in his memory and that his “[i]nsight seemed
mildly impaired and judgment impaired based on his
continued alcohol abuse with depression and with
symptoms consistent with some alcohol-induced
memory dysfunction.” Id. at 2. Dr. Penney also
reported that Petitioner carried a cyanide pill with him
at all times, including during the evaluation, in the
event he wanted to commit suicide. Id. Dr. Penney
diagnosed Petitioner with amphetamine, marijuana,
and alcohol abuse, as well as depression probably
secondary to alcohol intake. Id. at 3. Because Petitioner
would not authorize the release of his medical records,
Dr. Penny reached a “rule out”diagnosis of Bipolar
Affective Disorder. Id.
At the sentencing hearing on July 15, the court
engaged in another colloquy with Petitioner, explaining
that “if you told me you wanted more time, as your
attorneys were requesting, as Miss Durand had
requested, to find additional information and evidence
to present to me, . . . I would certainly grant it.” RT
7/15/97 at 3. Judge Kiger next outlined the applicable
provisions of the death penalty statute and indicated
that he was prepared to find two aggravating
circumstances. Id. at 4. The court then asked Petitioner
if, with that information in mind, he wished to proceed
with sentencing. Id. at 5. While Petitioner consulted
with counsel, the court elaborated:

App. 113
This is a very, very important decision, and
I want Mr. Kayer to make it based upon
discussion with counsel and reflection, and I
want him to have as much information as
possible. I hope he understands what I have just
reviewed with him, and if there is any question
about that, I’d be happy to respond.
Before I officially get into the sentencing of
this matter, if that’s – I will tell you this, if Mr.
Kayer, after review, still wants to go ahead with
sentencing today, I’m ready to proceed. On the
other hand, if Mr. Kayer believes that he needs
to ask for additional time, I am willing to do it
that way.
Id. at 6.
The court took a recess to allow further
consultation. Id. at 6. After the recess Petitioner
indicated that he understood the information provided
by the court, but that he wished to proceed with
sentencing. Id. at 6-7.
In his special verdict, Judge Kiger found that “the
intentional and knowing decisions and actions of the
defendant have blocked the attempts by his trial
counsels [sic] to fully pursue mitigation pursuant to 13703(G)(1) and the court is unable to find that any such
factor has been proven by a preponderance of the
evidence.” Dkt. 36, Ex. A at 2. The court found that no
statutory mitigating circumstances existed. Id. at 2-3.
The court then “considered” Petitioner’s proffered
nonstatutory mitigating circumstances, finding that
Petitioner had proved that he was “an important figure

App. 114
in the life of his son.” Id. at 3. The court found that the
remaining nonstatutory circumstances had not been
proved, explaining, in relevant part:
2. The defendant was apparently diagnosed and
treated for a time for a mental condition
referred to as a bipolar or manic/depressive
problem. The court can speculate as to a
possible relationship between such a
condition and the murder; the court cannot
find a relationship by a preponderance of the
evidence.
....
4. The defendant has apparently had some level
of addiction to both gambling and alcohol.
There is no dispute that the defendant
consumed several beers on the trip from
Laughlin to the place where the murder took
place. As with #2 above, there may be some
possible connection between such a condition
and the murder such that it effected [sic] the
defendant’s ability or capacity to conform his
conduct with the requirements of the law. It
would be at best speculation by the court and
is not found by a preponderance of the
evidence.
5. The Rule 11 evaluation conducted by Dr.
Wasserman in 1995 found some unusual
results in the MMPI and some possible
problems with paranoia. As with #2 above,
there may be some possible connection
between such a condition and the murder

App. 115
such that it effected [sic] the defendant’s
ability or capacity to conform his conduct
with the requirements of the law. It would be
at best speculation by the court and is not
found by a preponderance of the evidence.
6. There have been references to the defendant
having suicide thoughts. Apparently at one
time, the defendant carried a cyanide pill to
the office of a doctor who was performing a
mental health evaluation. His explanation
was that he would use the pill if he decided it
was needed. The court has considered the
possibility that the defendant has
determined to block the attempts by his
attorneys to present mitigation as a way of
now bringing about his death. This too is
speculation by the court and does not rise to
the point of proof by a preponderance of the
evidence.
Id. at 3-4.
Judge Kiger concluded that “[s]ince these factors
have not been proven, the court cannot find these
factors applicable to the sentencing structure called for
in 13-703. These factors as considered have essentially
no weight to balance against the aggravating factors.”
Id. at 5.
On appeal, the Arizona Supreme Court agreed with
the trial court’s assessment of the mitigating evidence:
Defendant’s alleged mental impairment on
the day he murdered Haas, whether attributed
to historical substance abuse or a mental

App. 116
disorder, also must be considered as a
nonstatutory mitigating circumstance.
....
But the record shows that the existence of
impairment, from any source, is at best
speculative. Further, in addition to offering
equivocal evidence of mental impairment,
defendant offered no evidence to show the
requisite causal nexus that mental impairment
affected his judgment or his actions at the time
of the murder. Thus, we conclude that the trial
court ruled correctly that impairment was not
established as a nonstatutory mitigating factor
by a preponderance of the evidence.
Kayer, 194 Ariz. at 438, 984 P.2d at 46 (citations
omitted).
Postconviction proceedings
In March 2006, Judge Kiger held an evidentiary
hearing on Petitioner’s ineffective assistance claims.
The hearing lasted nine days. Petitioner called 17
witnesses, including each of the attorneys who had
represented him at trial, along with Ms. Durand and
his current mitigation specialist. He also presented
expert testimony from a clinical neuropsychologist, a
forensic psychiatrist, and a physician specializing in
addiction medicine. Finally, several family members
and a friend testified about Petitioner’s family

App. 117
background, problems with alcohol
gambling, and mental health issues.7

abuse

and

Lead counsel Stoller testified that the defense plan
was to obtain mitigating information and present a full
mitigation case, including mental health evidence,
through Durand’s investigation; she would gather the
information and submit it to the appropriate experts.
RT 3/15/06 at 148-49. Petitioner, however, did not want
the continuance necessary to allow such an
investigation, nor did he want to explore issues
concerning his metal health because, as Durand
informed Stoller, “he felt they would cause him to be
viewed as weak and vacillating in prison.” RT 3/16/06
at 76. Petitioner also “thought it wouldn’t make any
difference.” Id. at 100. In addition, he believed that his
“living conditions” would improve in prison because he
would have “smoking and television privileges.” Id. at
103. Thus, Stoller testified, the defense team was
prevented from developing more mitigation by
Petitioner’s waiver of a continuance. Id. at 78.
Nevertheless, Stoller went to Phoenix to visit
Petitioner’s mother, son, and sister, and later had
contact with other family members. Id. at 91, 99. He
asked Petitioner’s mother for a history of Petitioner’s
life. Id. at 165. Later, Stoller discussed mitigation with
Petitioner’s mother and explained that “bad is good” for
purposes of mitigation. Id. at 173-74.

7

In addition, Larry Hammond, a local attorney with capital case
experience, testified as an expert on the Strickland standard. In
his opinion, Petitioner’s trial counsel performed at a
constitutionally ineffective level. See, e.g., RT 3/23/06 at 27, 93, 9697; PCR Pet., Ex. 32.

App. 118
Second-chair Victor testified that he and Stoller had
intended to pursue Petitioner’s mental health as
mitigating evidence. RT 3/22/06 at 49. Victor tried to
“disabuse” Petitioner of the notion that to pursue
mitigation was tantamount to admitting guilt. Id. at
59-60. Victor testified that he spoke in “great detail”
with Petitioner until he was assured that Petitioner
understood the nature and purpose of mitigation
evidence. Id at 79. Petitioner explained to Victor why
he did not wish to delay sentencing in order to pursue
mitigation: first, he was very close to his mother and
son and thus “he was very adverse [sic] to having
things about his past . . . brought out in front of them,
and so he was very adverse [sic] to having them
exposed to that information and he was not willing to
cooperate with mitigation.” Id. at 88. Petitioner also
cited the fact that he had been in the county jail for an
extended period and he looked forward to the benefits
of prison, primarily television and smoking privileges;
he “perceived that whatever time he had to spend in
the Department of Corrections would be more
pleasurable than the time he had been spending in the
Yavapai County Jail.” Id. Victor argued “as
persuasively as I could, on many occasions” to convince
Petitioner to allow an investigation. Id. at 90. He was
also hopeful that Durand would be able to change
Petitioner’s mind by outlining the scope of a full
mitigation investigation and explaining that in his case
persuasive mitigation information existed. Id. at 91.
Victor adamantly opposed Petitioner’s decision to waive
a continuance, but “believe[d] Mr. Kayer understood
things and had a rational position and didn’t want to
put his family through mitigation.” Id. at 92.

App. 119
Mary Durand testified that Petitioner was
motivated to waive a continuance based on fear for his
emotional and physical well being in the county jail.
According to Durand, he “wanted desperately to get
out.” RT 3/29/06 at 72, 73. Nevertheless, despite his
reluctance to pursue mitigation, Petitioner provided
contact information for family members and executed
some releases for documentary evidence. Id. at 76.
Durand explained the purpose of mitigation to
Petitioner, who became upset that counsel had waited
so long to begin an investigation. Id. at 79-80.
Notwithstanding their conversations, Durand felt
Petitioner had only a “minimal understanding of [the]
scope and breadth and depth of mitigation.” Id. at 122.
Keith Rohman, Petitioner’s post-conviction
mitigation specialist, testified that a mitigation
investigation should begin immediately, in part
because it is necessary to “educate the client” and
overcome his initial reluctance to present mitigating
evidence. Rohman testified that Petitioner’s decision
not to “cooperate with the mitigation investigation” was
based on several factors: “he did not have a clear
understanding of mitigation,” about which his lawyers
had failed to educate him; “he was very concerned
about the situation at the Yavapai Jail”; “he was
frustrated with his attorneys for having waited so
long”; he believed that the presentation of mitigation
was an admission of guilt; and he thought that offering
mitigating evidence would be futile. Id. at 61-64.
Rohman testified that there were four areas of
mitigation that trial counsel omitted or left
insufficiently developed: Petitioner’s bipolar disorder,
alcoholism, pathological gambling, and his transient

App. 120
living situation as a child. Id. at 68-78. Rohman then
outlined his findings with respect to each of these
areas. Id. Finally, Rohman testified about the violent,
overcrowded conditions of the Yavapai County Jail. Id.
at 81-88. He also noted that the jail failed to provide
Petitioner with the special diet recommended for his
heart condition. Id. at 89.
Petitioner presented testimony from a number of
experts. Dr. Anne Marie Herring, a clinical
neuropsychologist, testified that Petitioner had an
average IQ (102) and that, with one exception, the
results of the tests she administered were normal. RT
3/17/06 at 29; see PCR Pet., Ex. 39. The exception was
one of the card sorting tests, designed to measure
complex problem solving abilities, on which Petitioner
achieved a low-average or borderline score. Id. at 37-38.
This result was indicative of a cognitive deficit. Id at
38. According to Dr. Herring, such a deficit would be
consistent with various etiologies, including chronic
heavy substance abuse, bipolar disorder, and traumatic
brain injury. Id.
Dr. Barry Morenz, a forensic psychiatrist, diagnosed
Petitioner with the following conditions: bipolar type 1,
hypomanic; alcohol dependence; personality disorder
with schizotypal, narcissistic, and antisocial features;
and, citing Dr. Herring’s test results, cognitive disorder
not otherwise specified. RT 3/17/06 at 94-95; see PCR
Pet., Ex. 33. Dr. Morenz testified that Petitioner’s
cognitive disorder interfered with his capacity to
address his other conditions, impairing his ability to
recover from his alcohol and gambling addictions. Id. at
105. At the time of the murder, according to Dr.

App. 121
Morenz, all of these conditions were manifesting
themselves and combined to make Petitioner “very,
very impaired.” Id. at 107.
Dr. Morenz further testified that Petitioner was
enjoying his life in prison, where he had completed and
published one book and was working on two others. Id.
at 109-110. He enjoyed receiving fan mail for his
writing. Id. His laundry and trash were picked up and
his meals were provided. Id. Dr. Morenz characterized
Petitioner’s positive state of mind as unrealistic and a
function of his hypomania. Id.
Dr. Michel Sucher, a physician specializing in
addiction medicine, diagnosed Petitioner with alcohol
dependence, polysubstance abuse, and pathological
gambling. RT 3/30/06 at 16; see PCR Pet., Ex. 34.
Several lay witnesses testified, including
Petitioner’s sister, two cousins, an aunt, and a friend.
Their testimony indicated that several of Petitioner’s
relatives also suffered from mental health issues,
including manic and depressive episodes. According to
this testimony, Petitioner’s maternal cousin was
institutionalized in a psychiatric facility, where she
was initially diagnosed with schizophrenia and later
with manic depressive disorder. RT 3/24/06 at 63. Her
mother had also experienced severe mood swings. Id. at
68. Petitioner’s maternal aunt had a history of hearing
voices, as did her grandfather and sister. RT 3/31/06 at
6-7. Petitioner’s other maternal aunt suffered from
depression. Id.
The testimony of these witnesses further indicated
that Petitioner had longstanding issues with substance

App. 122
abuse and gambling, as did other family members. See,
e.g., RT 3/24/06 at 66; RT 3/31/06 at 41. Pete Decell, a
friend and coworker with whom Petitioner had
committed a series of residential burglaries, testified
that Petitioner had been a heavy drinker. RT 3/29/06 at
50. He also stated that Petitioner did not like to work
and had gotten a “rush” from committing the
burglaries. Id. at 32.
Judge Kiger, presiding over the PCR proceedings,
rejected Petitioner’s claim of ineffective assistance of
counsel at sentencing. Judge Kiger determined “at the
time of sentencing, the defendant voluntarily
prohibited his attorneys from further pursuing and
presenting any possible mitigating evidence.” Dkt. 36,
Ex. C at 2. He ruled that Petitioner had failed to
demonstrate deficient performance, explaining that
“trial counsel did not fall below the Strickland
standard for effective representation concerning
potential mitigation.” Id. at 1. This finding was based
on the judge’s “own observations of the defendant
during trial and the sentencing phase” and the Arizona
Supreme Court’s determination that Petitioner was
competent when he waived a further mitigation
investigation and that the waiver was knowing and
voluntary. Id. at 2.
Judge Kiger also found that Petitioner had not
shown that he was prejudiced by counsel’s
performance:
This court further concludes that if there had
been a finding that the performance prong of the
Strickland standard had been met, that no
prejudice to the defendant can be found. In

App. 123
stating this conclusion the court has considered
the assertion of mental illness, jail conditions,
childhood development, and any alcohol or
gambling addictions.
Id. at 2.
Analysis
Petitioner contends that the PCR court’s rejection of
this claim constituted an unreasonable application of
clearly established federal law and was based on an
unreasonable determination of the facts. Dkt. 37 at 4647. The Court does not agree.
The clearly established federal law governing claims
of ineffective assistance of counsel is set forth in
Strickland v. Washington, 466 U.S. 668 (1984). To
prevail under Strickland, a petitioner must show that
counsel’s representation fell below an objective
standard of reasonableness and that the deficiency
prejudiced the defense. 466 U.S. at 687-88.
In assessing whether counsel’s performance was
deficient under Strickland, the test is whether
counsel’s actions were objectively reasonable at the
time of the decision. Id. at 689-90. A petitioner must
overcome “the presumption that, under the
circumstances, the challenged action might be
considered sound trial strategy.” Id. at 689. The
question is “not whether another lawyer, with the
benefit of hindsight, would have acted differently, but
‘whether counsel made errors so serious that counsel
was not functioning as the counsel guaranteed the
defendant by the Sixth Amendment.’” Babbitt v.

App. 124
Calderon, 151 F.3d 1170, 1173 (9th Cir. 1998) (quoting
Strickland, 466 U.S. at 687).
While trial counsel has “a duty to make reasonable
investigations or to make a reasonable decision that
makes particular investigations unnecessary, . . . a
particular decision not to investigate must be directly
assessed for reasonableness in all the circumstances,
applying a heavy measure of deference to counsel’s
judgments.” Id. at 691. In making this assessment, the
court “must conduct an objective review of [counsel’s]
performance, measured for reasonableness under
prevailing professional norms, which includes a
context-dependent consideration of the challenged
conduct as seen from counsel’s perspective at the time.”
Wiggins v. Smith, 539 U.S. 510, 523 (2003) (citation
and quotation marks omitted). The Supreme Court has
instructed that “[i]n judging the defense’s investigation,
as in applying Strickland generally, hindsight is
discounted by pegging adequacy to ‘counsel’s
perspective at the time’ investigative decisions are
made” and by applying deference to counsel’s
judgments. Rompilla v. Beard, 545 U.S. 374, 381 (2005)
(quoting Strickland, 466 U.S. at 689).
With respect to Strickland’s second prong, a
petitioner must affirmatively prove prejudice by
“show[ing] that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Strickland, 466 U.S. at 694.
The Strickland Court explained that “[w]hen a
defendant challenges a death sentence . . . the question

App. 125
is whether there is a reasonable probability that,
absent the errors, the sentencer . . . would have
concluded that the balance of aggravating and
mitigating circumstances did not warrant death.” 466
U.S. at 695. In Wiggins, 539 U.S. at 534, the Court
noted that “[i]n assessing prejudice, we reweigh the
evidence in aggravation against the totality of available
mitigating evidence.” The totality of the available
evidence includes “both that adduced at trial, and the
evidence adduced in the habeas proceeding.” Id. at 536
(quoting Williams v. Taylor, 529 U.S. at 397-98).
Under the AEDPA, this Court’s review of the state
court’s decision is subject to another level of deference.
Bell v. Cone, 535 U.S. 685, 698-99 (2002); see Knowles
v. Mirzayance, 129 S. Ct. 1411, 1420 (2009) (noting that
a “doubly deferential” standard applies to Strickland
claims under AEDPA). Therefore, to prevail on this
claim, Petitioner must make the additional showing
that the state court’s ruling that counsel was not
ineffective constituted an objectively unreasonable
application of Strickland. 28 U.S.C. § 2254(d)(1).
In reviewing Petitioner’s allegations of ineffective
assistance, this Court further notes that the judge who
presided over Petitioner’s trial and sentencing also
presided over the PCR proceedings. Thus, in
considering Petitioner’s ineffective assistance claims,
Judge Kiger was already familiar with the record and
the evidence presented at trial and sentencing. This
familiarity with the record provides the Court an
additional reason to extend deference to the state
court’s ruling. See Smith v. Stewart, 140 F.3d 1263,
1271 (9th Cir. 1998). As the Ninth Circuit explained in

App. 126
Smith, when the judge who presided at the postconviction proceeding is the same as the trial and
sentencing judge, the court is considerably less inclined
to order relief because doing so “might at least
approach ‘a looking-glass exercise in folly.’” Id. (quoting
Gerlaugh v. Stewart, 129 F.3d 1027, 1036 (9th Cir.
1997)).
Finally, because an ineffective assistance of counsel
claim must satisfy both prongs of Strickland, the
reviewing court “need not determine whether counsel’s
performance was deficient before examining the
prejudice suffered by the defendant as a result of the
alleged deficiencies.” 466 U.S. at 697 (“if it is easier to
dispose of an ineffectiveness claim on the ground of
lack of sufficient prejudice . . . that course should be
followed”).
Petitioner is not entitled to relief because Judge
Kiger did not apply Strickland’s second prong in an
unreasonable manner when he determined that
Petitioner failed to prove that he was prejudiced by
counsel’s performance.8 First, under Schriro v.
Landrigan, 550 U.S. 465, Petitioner cannot show
prejudice because he waived an extension of the
sentencing date and thereby waived presentation of the
full-scale mitigation case that defense counsel and
mitigation specialist Durand had intended to develop
and present. Next, Petitioner cannot show prejudice

8

Because this claim is more readily resolved on the basis of lack of
prejudice, see Strickland, 466 U.S. at 697, the Court makes no
finding regarding the alleged deficiency of trial counsel’s
performance at sentencing.

App. 127
because the evidence produced during the PCR
proceedings, which was the product of an exhaustive
mitigation investigation, was largely cumulative of the
evidence presented at sentencing and fell short of the
type of mitigation information that would have
influenced the sentencing decision. See id. at 481.
Finally, the reasonableness of the PCR court’s rejection
of this claim is buttressed by the fact that Judge Kiger
had presided over Petitioner’s trial and sentencing and
was therefore “ideally situated,” Landrigan, 550 U.S.
at 476, to gauge the validity of Petitioner’s waiver and
to weigh the totality of the mitigating evidence against
the evidence presented at sentencing. See Gerlaugh,
129 F.3d at 1036.
In Landrigan, the petitioner refused to allow
defense counsel to present the testimony of his ex-wife
and birth mother as mitigating evidence. He also
interrupted as counsel tried to proffer other evidence
and told the Arizona trial judge that he did not wish to
present any mitigating evidence and to bring on the
death penalty. The court sentenced him to death and
the sentence was affirmed on direct appeal. State v.
Landrigan, 176 Ariz. 1, 859 P.2d 111 (1993). The PCR
court rejected Landrigan’s request for a hearing and
denied his claim that counsel was ineffective for failing
to conduct further investigation into mitigating
circumstances, finding that he had instructed counsel
at sentencing not to present any mitigating evidence at
all. Landrigan then filed a federal habeas petition. The
district court denied the petition and refused to grant
an evidentiary hearing because Landrigan could not
make out a colorable claim of ineffective assistance of
counsel. A panel of the Ninth Circuit affirmed the

App. 128
denial. Landrigan v. Stewart, 272 F.3d 1221 (9th Cir.
2001). The en banc Ninth Circuit reversed, holding that
counsel’s performance at sentencing was ineffective.
441 F.3d 638 (9th Cir. 2006). According to the court,
Landrigan’s “last-minute decision could not excuse
counsel’s failure to conduct an adequate investigation
prior to sentencing.” Id. at 647. The court then
reiterated its view “that a lawyer’s duty to investigate
[mitigating circumstances] is virtually absolute,
regardless of a client’s expressed wishes.” Id.
The Supreme Court reversed. Schriro v. Landrigan,
550 U.S. 465. The Court held that the district court did
not abuse its discretion in failing to hold an evidentiary
hearing on Landrigan’s claim of sentencing-stage
ineffectiveness and that the court was within its
discretion in denying the claim based on Landrigan’s
unwillingness to present mitigation evidence.
Landrigan compels the conclusion that Petitioner is
not entitled to habeas relief. Landrigan establishes the
standard for evaluating a sentencing-stage ineffective
assistance claim brought by a petitioner who directed
counsel not to pursue a case in mitigation. “If [the
petitioner] issued such an instruction, counsel’s failure
to investigate further could not have been prejudicial
under Strickland.” Id. at 475; see Owen v. Guida, 549
F.3d 399, 406 (6th Cir. 2008) (“a client who interferes
with her attorney’s attempts to present mitigating
evidence cannot then claim prejudice based on the
attorney’s failure to present that evidence”); see also
Wood v. Quarterman, 491 F.3d 196, 203 (5th Cir. 2007)
(“Neither the Supreme Court nor this court has ever
held that a lawyer provides ineffective assistance by

App. 129
complying with the client’s clear and unambiguous
instructions to not present evidence.”); Lovitt v. True,
403 F.3d 171, 179 (4th Cir. 2005) (“Lovitt is correct to
insist that a client’s decision in this regard should be
an informed one. At the same time, Lovitt’s lawyers
were hardly ineffective for incorporating their client’s
wishes into their professional judgment.”); Rutherford
v. Crosby, 385 F.3d 1300, 1313-14 (11th Cir. 2004)
(“[U]nder Strickland the duty is to investigate to a
reasonable extent . . . and that duty does not include a
requirement to disregard a mentally competent client’s
sincere and specific instructions about an area of
defense and to obtain a court order in defiance of his
wishes.”); Jeffries v. Blodgett, 5 F.3d 1180, 1198 (9th
Cir. 1993) (“[C]ounsel for Jeffries had been prepared to
present evidence in mitigation and had discussed with
Jeffries the ramifications of failing to present the
evidence. Accordingly, counsel did not deprive Jeffries
of effective assistance in acquiescing in the latter’s
considered decision.”).
In Petitioner’s case, prior to his conviction, counsel
performed only a limited investigation into mitigating
evidence. When funding for a mitigation specialist was
authorized, Mary Durand began a full-scale
investigation. Counsel planned to use the information
she gathered to retain further experts, including
mental health professionals. While Durand’s
investigation was still in its early stages, Petitioner
indicated that he did not wish to delay the sentencing
date. His waiver of a continuance – a continuance the
trial court was prepared to grant – was based on
several factors, including an unwillingness to involve
his family in an investigation into his background and

App. 130
a belief that no valuable information could be obtained.
By the date of sentencing, when he was offered a final
opportunity to rescind his waiver and allow additional
investigation, Petitioner was fully informed of the
nature, scope, and purpose of mitigating information,
having spoken with counsel and Durand and having
heard Durand’s detailed testimony at the
aggravation/mitigation hearing. After being afforded
several opportunities by the judge to obtain a
continuance, Petitioner chose to proceed to sentencing
without a complete mitigation investigation.
Despite Petitioner’s position, the defense
investigation continued until the date of the
aggravation/mitigation hearing, which had been
extended at counsel’s request. At the hearing, counsel
presented testimony concerning Petitioner’s childhood,
alcohol dependence, gambling addiction, mental health
history, and positive character traits and conduct.
Given all of these circumstances, Petitioner’s claim
for relief is even less persuasive than Landrigan’s.
Petitioner’s waiver of a continuance was neither
equivocal nor last-minute. The record demonstrates
that he was fully aware of the consequences of his
decision and persisted in that decision even after
counsel’s attempts to change his mind, exposure to
Durand’s testimony detailing the elements and
potential benefits of a full-scale mitigation
investigation, and repeated opportunities afforded by
the court to reconsider his decision. His waiver did not
prevent counsel from investigating and presenting a
mitigation case within the parameters Petitioner had

App. 131
set. Therefore, under the clearly-established law set
forth in Landrigan, Petitioner is not entitled to relief.
The second factor dictating a conclusion that
Petitioner has not demonstrated prejudice is the nature
of the new mitigating information. At Petitioner’s
sentencing, counsel offered what amounted to an
outline of the mitigation case presented during the
PCR proceedings. The information later presented by
PCR counsel supported the mitigating circumstances
proffered at sentencing, including Petitioner’s alcohol
dependence, gambling addiction, and bipolar disorder.
It also added a new diagnosis that Petitioner suffers
from a cognitive deficit affecting his complex reasoning
skills.
In his special verdict, Judge Kiger found that
several of the nonstatutory mitigating factors advanced
by defense counsel, including Petitioner’s alcohol and
gambling problems and his bipolar condition, had not
been proved and therefore were not weighty. Dkt. 36,
Ex. A at 3-5. In his PCR order, Judge Kiger considered
all of the new evidence, but determined that Petitioner
had not been prejudiced by counsel’s performance at
sentencing. Dkt. 36, Ex. C at 2. To obtain relief,
Petitioner must show that Judge Kiger’s determination
was not merely incorrect, but “unreasonable – a
substantially higher threshold.” Landrigan, 550 U.S. at
473.
The reasonableness of Judge Kiger’s ruling is
supported by several considerations. First, most of the
new mitigating evidence, while more detailed than the
information offered at sentencing, duplicated the
evidence already presented. See Babbit, 151 F.3d at

App. 132
1176 (no prejudice where evidence omitted at
sentencing was “largely cumulative of the evidence
actually presented”). Thus, it did not alter the basic
sentencing profile originally provided to the judge. See
Strickland, 466 U.S. at 699-700; see also Henley v. Bell,
487 F.3d 379, 387-88 (6th Cir. 2007) (no prejudice
resulting from counsel’s failure to call a psychiatric
expert to testify during sentencing phase of capital
murder trial that defendant had learning disabilities,
had dropped out of school, and at the time of the
offense was depressed and acting out of character). To
the extent that the new evidence supported a diagnosis
that Petitioner suffered from a cognitive deficit, that
diagnosis was the product of a single test result, which
was the only indication that Petitioner was not within
the normal range with respect to brain function.
Moreover, Dr. Herring, who performed the test, did not
herself make a diagnosis of cognitive deficit; nor could
she say whether any such deficit was in place at the
time of the murder, more than 10 years earlier. RT
3/17/06 at 41, 52. Therefore, the only new category of
mitigating information was of limited impact.
Thus, in contrast to cases such as Rompilla,
Wiggins, and Williams, where counsel’s failure to
investigate mitigating evidence prejudiced the
defendant, the omitted mitigation evidence about
Petitioner’s background and mental health was
relatively “weak.” Landrigan, 550 U.S. at 481. For
example, in Rompilla, counsel failed to present
evidence that his client was beaten by his father with
fists, straps, belts, and sticks; that his father locked
him and his brother in a dog pen filled with excrement;
and that he grew up in a home with no indoor

App. 133
plumbing and was not given proper clothing. 545 U.S.
at 391-92. In Wiggins, counsel failed to present
evidence that the defendant suffered consistent abuse
during the first six years of his life, was the victim of
“physical torment, sexual molestation, and repeated
rape during his subsequent years in foster care,” was
homeless for portions of his life, and had diminished
mental capacities. 539 U.S. at 535. In Williams,
counsel failed to discover “records graphically
describing Williams’s nightmarish childhood,”
including the fact that he had been committed at age
11, had suffered dramatic mistreatment and abuse
during his early childhood, and was “borderline
mentally retarded.” 529 U.S. at 370-71, 395. See also
Stankewitz v. Woodford, 365 F.3d 706, 717-19 (9th Cir.
2004) (prejudice existed where omitted evidence
showed that Stankewitz was exposed to extreme
deprivation and abuse from his family and in a variety
of foster homes, was borderline retarded, and suffered
from significant brain dysfunction). In Landrigan itself,
the Court described as “poor quality,” and therefore not
supportive of a colorable claim of ineffective assistance,
omitted mitigating evidence indicating that the
petitioner suffered from fetal alcohol syndrome with
attendant cognitive and behavioral defects, was
abandoned by his birth mother, was raised by an
alcoholic adoptive mother, began abusing alcohol and
drugs at an early age, and had a genetic predisposition
to violence. 550 U.S. at 480.
By contrast, the evidence presented to the PCR
court simply corroborated Petitioner’s alcohol
dependence, gambling addiction, and bipolar disorder,
while adding a diagnosis of cognitive deficit that was

App. 134
neither significant nor well supported. It was not
unreasonable for Judge Kiger to find that this evidence
was not persuasive enough to have produced a different
sentence. See id.; see also Hill v. Mitchell, 400 F.3d 308,
319 (6th Cir. 2005) (“to establish prejudice, the new
evidence that a habeas petitioner presents must differ
in a substantial way – in strength and subject matter
– from the evidence actually presented at sentencing”).
In sum, the mitigation case presented during the PCR
proceedings “establishes at most the wholly
unremarkable fact that with the luxury of time and the
opportunity to focus resources on specific parts of a
made record, post-conviction counsel will inevitably
identify shortcomings in the performance of prior
counsel.” Turner v. Crosby, 339 F.3d 1247, 1279 (11th
Cir. 2003) (quoting Waters v. Thomas, 46 F.3d 1506,
1514 (11th Cir. 1995)).
Finally, the reasonableness of Judge Kiger’s ruling
is supported by the fact that he had presided at
Petitioner’s sentencing and was familiar with the
record and the efforts of trial counsel. During the PCR
proceedings, the judge was presented with the results
of an exhaustive mitigation investigation. He denied
relief, again finding that Petitioner had waived
additional mitigation and failed to show prejudice. The
Ninth Circuit has commented on the appropriate
review of cases where the judge considering a claim of
ineffective assistance was also the judge who presided
over trial and sentencing. In Gerlaugh, the court
denied an ineffective assistance claim and rejected the
petitioner’s request for an evidentiary hearing in state
court, explaining:

App. 135
The trial and sentencing judge has already
considered all of this information in the postconviction hearing and has held that none of it
would have altered his judgment as to the
proper penalty for Gerlaugh. And, the Arizona
Supreme Court looked at the substance and
results of the post-conviction proceeding and
affirmed the trial judge in all respects. In effect,
petitioner has already had what he is asking for
– consideration in a formal hearing of this
evidence.
Gerlaugh, 129 F.3d at 1036; see Smith, 140 F.3d at
1271.
Petitioner likewise was able to discover and present
all available mitigating evidence to the sentencing
judge during the PCR proceedings. Petitioner received
a comprehensive mitigation investigation, carried out
by a full complement of investigators and experts,
followed by a hearing at which all of the mitigating
information was presented. Judge Kiger heard and
considered the evidence and determined that if it had
been presented at sentencing it would not have altered
his decision to sentence Petitioner to death. This Court
cannot classify as objectively unreasonable Judge
Kiger’s assessment of the evidence and its impact on
his sentencing determination.
Conclusion
The PCR court, in rejecting Petitioner’s claim of
ineffective assistance of counsel at sentencing, did not
apply Strickland in an objectively unreasonable
manner. Under Landrigan, Petitioner’s waiver of

App. 136
additional mitigation evidence forecloses relief. In
addition, Judge Kiger did not unreasonably determined
that the omitted mitigation evidence was not sufficient
to result in a reasonable probability of a different
sentence.
In Owens, the Sixth Circuit, citing Landrigan,
cautioned that “[a] defendant cannot be permitted to
manufacture a winning [ineffective assistance of
counsel] claim by sabotaging her own defense, or else
every defendant clever enough to thwart her own
attorneys would be able to overturn her sentence on
appeal.” 549 F.3d at 412. That principle applies equally
to Petitioner’s case. Claim 1(B)(4) is denied.
Claim 2
Petitioner alleges that the trial court violated the
Eighth Amendment prohibition against arbitrary and
capricious sentencing in capital cases when it allowed
Petitioner, over his counsel’s objection, to determine
that a continuance of the mitigation hearing was
unnecessary. Dkt. 35 at 59. He further alleges that the
court violated his Sixth Amendment right to counsel by
ignoring defense counsel’s “learned decision” that
additional time was necessary to prepare mitigation in
favor of Petitioner’s uninformed desire to proceed to
sentencing. Id. Respondents concede that the claim is
exhausted to the extent it was raised on direct appeal.
Dkt. 36 at 43-44.
Background
As explained above, Petitioner opposed a
continuance of the sentencing proceedings and thereby
foreclosed a complete mitigation investigation by the

App. 137
defense team. On direct appeal, Petitioner contended
that the trial judge improperly allowed him to waive
the presentation of mitigation evidence against the
advice of counsel. Opening Br. at 26. The Arizona
Supreme Court rejected Petitioner’s argument. Kayer,
194 Ariz. at 434-37, 984 P.2d at 42-45. The court held
that its jurisprudence does not preclude a defendant
from refusing to cooperate with a mitigation specialist,
explaining that a competent defendant can waive
counsel altogether and that “[a] defendant’s right to
waive counsel includes the ability to represent himself
or herself at the sentencing phase of a case that could
result in the death penalty.” Id. at 436, 984 P.2d at 44.
Therefore, according to the court, “[a]n anomaly would
exist were we to accept defendant’s argument that
counsel exclusively controls the presentation of all
mitigation evidence: a defendant could waive counsel at
sentencing and thereby have exclusive control over the
presentation of all mitigation evidence; yet if a
defendant accepts counsel, he would have no input on
what mitigating factors to offer.” Id. at 436-37, 984
P.2d at 44-45. The court also noted that “[t]he United
States Supreme Court has upheld a defendant’s right
to waive all mitigating evidence.” Id. (citing Blystone v.
Pennsylvania, 494 U.S. 299, 306 & n. 4 (1990)). The
court then explained:
[O]ur case law allows defendant the freedom not
to cooperate with a mitigation specialist and
thereby potentially limit the mitigation evidence
that is offered. Significantly, defendant stressed
to the trial judge that he wanted Durand to
advocate on his behalf at the mitigation hearing.
Defendant also wanted his attorneys to argue

App. 138
other mitigating evidence. Consequently, seven
mitigating circumstances were offered. Durand
testified on defendant’s behalf, albeit without
defendant’s full cooperation. Defendant was not
conceding defeat; he wanted advocacy in all
areas except the psychological areas that
Durand wanted to explore. . . .
We conclude that the trial court properly
allowed defendant not to cooperate with the
court-appointed mitigation specialist, given the
repeated warnings of the consequences of this
decision and the factual record before us.
Id. at 437, 984 P.2d at 45 (citation omitted).
Analysis
Petitioner contends that the state courts violated
his constitutional rights by allowing him to waive the
presentation of additional mitigation and that the
courts erred in finding that the waiver was knowing
and voluntary. The Court disagrees.
First, as the Arizona Supreme Court noted, citing
Blystone v. Pennsylvania, there is no dispute that a
defendant may waive the presentation of mitigating
evidence. In Blystone, the United States Supreme
Court held that no constitutional violation occurred
when a defendant was allowed to waive all mitigation
evidence after repeated warnings from the judge and
advice from counsel. 494 U.S. 299, 306 & n.4. That
principle was buttressed by the holding in Landrigan,
which denied an ineffective assistance claim based on
the defendant’s refusal to allow the presentation of a
mitigation case. 550 U.S. at 475. Therefore, the fact

App. 139
that the trial court accepted Petitioner’s waiver of a
more detailed mitigation case does not, by itself,
establish a constitutional violation.
Petitioner asserts that his waiver was not knowing
and voluntary because he did not understand the
consequences of his decision. This argument is
unavailing on both legal and factual grounds. In
Landrigan, the Supreme Court explained that it had
“never imposed an ‘informed and knowing’ requirement
upon a defendant’s decision not to introduce evidence”
and has “never required a specific colloquy to ensure
that a defendant knowingly and intelligently refused to
present mitigating evidence.” Landrigan, 550 U.S. at
479.
In Petitioner’s case, nonetheless, the state courts
reasonably found that his waiver was informed and
voluntary. Judge Kiger afforded Petitioner repeated
opportunities to reconsider his decision to limit the
mitigation defense, ensured that Petitioner discussed
the matter fully with counsel, determined that
Petitioner had discussed the matter at length with his
mitigation specialist, and afforded Petitioner an
opportunity to reconsider the decision after he had
heard the testimony at his own mitigation hearing. The
judge determined that Petitioner “voluntarily
prohibited his attorneys from further pursuing and
presenting any possible mitigating evidence.” Dkt. 36,
Ex. A at 2.
The judge was “ideally situated” to make this
assessment, and his factual findings are presumed
correct. Landrigan, 550 U.S. at 474, 476; see 28 U.S.C.
§ 2254(e)(1). Petitioner has not met his burden of

App. 140
rebutting that presumption with clear and convincing
evidence. By the time of the sentencing hearing, when
Petitioner again waived a continuance, he was fully
aware of the nature and purpose of a mitigation
investigation and its significance to his case. Durand’s
testimony at the aggravation/mitigation hearing alone
was adequate to apprise Petitioner of the ramifications
of his waiver. And Petitioner’s colloquies with Judge
Kiger further support a finding that his decision to
limit the mitigation case was informed and voluntary.
See RT 6/6/97 at 15-21; RT 7/8/97 at 71; RT 7/15/97 at
8.
The ruling of the Arizona Supreme Court rejecting
this claim was neither contrary to nor an unreasonable
application of clearly established federal law, nor was
it based on an unreasonable determination of the facts.
Therefore, Claim 2 is denied.
Claim 3
Petitioner alleges that he was denied effective
assistance of counsel because trial counsel labored
under a conflict of interest. Dkt. 35 at 67. Petitioner
concedes that the claim is unexhausted because he
failed to include it in his petition for review to the
Arizona Supreme Court. Dkt. 40 at 30. He contends,
however, that he has an available state court remedy
under Rule 32.2 because his waiver of the claim was
not knowing, voluntary, and intelligent, and he
requests a stay of these proceeding so that he may
return to state court and exhaust the claim. Id. The
Court concludes that the claim, regardless of its
procedural status, is plainly without merit. See 28

App. 141
U.S.C. § 2254(b)(2); Rhines v. Weber, 544 U.S. 269, 277
(2005).
Analysis
To establish an ineffective assistance of counsel
claim based on a conflict of interest, it is not sufficient
to show that a “potential” conflict existed. Mickens v.
Taylor, 535 U.S. 162, 171 (2002). Rather, “until a
defendant shows that his counsel actively represented
conflicting interests, he has not established the
constitutional predicate for his claim of ineffective
assistance.” Cuyler v. Sullivan, 446 U.S. 335, 350
(1980). An actual conflict of interest for Sixth
Amendment purposes is one that “adversely affected
counsel’s performance.” Mickens, 535 U.S. at 171.
Petitioner has not established that his attorneys
actively represented conflicting interests or that any
conflict of interest affected their performance.
At trial, lead counsel Stoller cross-examined the
victim’s widow, Wilma Haas. Near the conclusion of her
testimony, Stoller asked for a sidebar conference. RT
3/19/97 at 57. He informed the court, the prosecutor,
and Kayer that after observing Haas testify, he
believed he may have represented her son by a prior
marriage a few years earlier on DUI charges in
Phoenix. Id. at 57-58. The prosecutor and Stoller
questioned Haas outside the presence of the jury. Id.
She confirmed that Stoller had represented her son,
but stated that they had no contact regarding this case.
Id. at 69-70. Under these circumstances, Petitioner has
not established that an actual conflict existed based on
Stoller’s prior representation of the victim’s widow’s

App. 142
son. Nor does Petitioner explain how Stoller’s prior
representation adversely affected his performance.
Petitioner contends that second counsel Victor was
burdened with a conflict of interest based on his
representation of an inmate named Pierce. Prior to
Kester’s testimony, the State filed a motion in limine to
preclude the admission of various acts to impeach
Kester. ROA 147, 148. One of those acts concerned an
altercation between Kester and Pierce in the women’s
dorm of the Yavapai County Jail. Id. Later, while
discussing the motion in court, the judge noted that
Victor had represented Pierce on a different matter. RT
3/12/97 at 6.
Contrary to Petitioner’s assertion that “Victor’s
loyalty to his prior client . . . prevented him from being
able to use such information to impeach Kester,” Dkt.
35 at 69, Victor forcefully argued that the dorm
incident should be admissible to impeach Kester on
cross-examination by showing that she was not the
weak and submissive individual portrayed by the
State. The court disagreed and precluded use of the
incident. Id. at 6-7, 170-74. Petitioner therefore has
failed to demonstrate that Victor’s representation of
Pierce affected his performance as Petitioner’s counsel.
Claim 3 is without merit and will be denied.
Claim 4
Petitioner alleges that his right to trial by an
impartial and representative jury under the Sixth and
Fourteenth Amendments was violated when the trial
court death-qualified his jury. Dkt. 35 at 69.

App. 143
Respondents concede that this claim is exhausted. Dkt.
36 at 50.
Prior to trial Judge Kiger informed the parties that
during voir dire he would explain to the jurors that the
death penalty was a possible sentence, but that the
judge, not the jurors, determined the sentence. After
providing such information the judge would then ask if
the juror could still be fair and impartial. RT 5/5/97 at
7-8. Judge Kiger overruled defense counsel’s
“vehement” objection to this process. Id. at 12.
Judge Kiger questioned the jurors in groups of
three, asking each juror, “knowing what your duty as
a juror is, do you believe that this kind of a case [a
potential death penalty case] would be such that you
could not be a fair and impartial juror?” See, e.g., RT
3/6/97 at 36-38. Upon receiving confirmation that a
particular juror would be fair and impartial, the judge
asked no further questions regarding the death
penalty.9 Id.
On direct appeal, the Arizona Supreme Court,
relying on its own precedent as well as Wainwright v.
Witt, 469 U.S. 412, 424 (1985), and Adams v. Texas,
448 U.S. 38, 45 (1980), held that “voir dire questioning
related to a juror’s views on capital punishment is
permitted to determine whether those views would
prevent or substantially impair the performance of the
juror’s duties to decide the case in accordance with the
9

During this process, Stoller asked each of the potential jurors
their views about the role of the jury in a criminal trial, with his
questions focusing on the guilt rather than sentencing phase of the
trial. See, e.g., RT 3/6/97 at 40.

App. 144
court’s instructions and the juror’s oath.” Kayer, 194
Ariz. at 431, 984 P.2d at 39 (quoting State v. MartinezVillareal, 145 Ariz. 441, 449, 702 P.2d 670, 678 (1985)).
The Arizona Supreme Court reasonably applied
clearly established federal law, which holds that the
death-qualification process in a capital case does not
violate a defendant’s right to a fair and impartial jury.
See Lockhart v. McCree, 476 U.S. 162, 178 (1986); Witt,
469 U.S. at 424; Adams, 448 U.S. at 45 (1980); see also
Ceja v. Stewart, 97 F.3d 1246, 1253 (9th Cir. 1996)
(death qualification of Arizona jurors not
inappropriate). The fact that the trial court deathqualified the venire does not establish a federal
constitutional violation. Petitioner is not entitled to
relief on Claim 4.
Claim 5
Petitioner alleges that his right to trial by an
impartial and representative jury under the Sixth and
Fourteenth Amendments was violated when the trial
court dismissed a juror because of his views concerning
the death penalty. Dkt. 35 at 73. Respondents concede
that the claim is exhausted. Dkt. 36 at 53.
Background
Only one juror was excused as a result of the deathqualification questioning described above. In response
to inquiries by Judge Kiger, juror Ed DeMar indicated
that he had “reservations” about a proceeding that
involved the potential of a death sentence. RT 3/6/97 at
91. Rather than have DeMar explain further, Judge
Kiger asked him to step outside so that questioning
could continue with the two jurors who had not

App. 145
expressed concern regarding the death penalty. Id. at
91-92. DeMar was then brought before the judge and
the parties, and the following exchange took place:
Court:

So we are talking about whether or
not you had any personally-held
beliefs, philosophical opinions, or
religious convictions that would get in
the way and make it difficult or
impossible for you to be a fair and
impartial juror knowing that the
death penalty was a possibility.

DeMar: Yes. That would be a – I would have
reservations about an action in which
the death penalty might be imposed or
could be imposed.
Court:

Let me emphasize, again, though, your
duty as a juror is to – and there is a
specific instruction that I’m going to
give these jurors, do not consider the
possible punishment in making your
deliberations.

DeMar: Well, that would put me in a sort of
difficult position.
Court:

That’s why I’m asking the question.
....

DeMar: I’m not opposed to the death penalty,
but I – it would depend on the
conditions involving questions of
premeditation, of stalking, of cruelty,

App. 146
of a particularly heinous crime, of
multiple deaths, things of the sort that
would tend to follow the Federal
application of the death penalty rather
than the State application.
And that’s what would perhaps give
me some difficulty. If I – and also the
question of degree, whether it’s first
degree, second, third, or
manslaughter. Those things would be
considerations that I think would
affect my impartiality, if I knew that
the State had stated that it might seek
the death penalty, not knowing those
other conditions.
In other words, conditionally, I would
not necessarily be against the death
penalty, but I would be looking toward
the kinds of things that I told you that
would – would perhaps affect that
decision.
....
Court:

And I guess – and listen carefully. I’m
going to try to summarize what you’re
telling me so that I can understand it.
And if I’m missing the point, I’ll trust
that you will try to help me. But what
you’re saying to me seems like
knowing that there is that possibility
of the death penalty out there would

App. 147
be bumping into your thoughts on,
making it –
DeMar: Yes. I would need to know more,
really, and it doesn’t mean that I’d be
against it, but it means that under
certain conditions I would, and not
knowing those other factors would
trouble me somewhat.
Court:

And would it get in your way, then, of
being a fair and impartial juror as the
process continued?

DeMar: It might, again depending on what –
how much of a factor became evidence
in testimony and what have you.
Court:

Okay.

DeMar: But it would not be – be a hands-down
opposition to the death penalty as
such.
Court:

I understand what you’re saying, and
of course at this point we are looking
for whether or not you can work in
this trial as a fair and impartial juror
to both defendant and the State.

DeMar: I understand.
Court:

Let me – let me try it this way, to –
knowing what you know right now,
knowing your personal opinions and
beliefs and what you know the job of
the juror to be, because this is a

App. 148
possibility of a death penalty case at
this point, would you like me to excuse
you from jury duty in this case?
DeMar: I think that probably would be fair to
the – to the State and to the defense,
both really, since that reservation is
honestly held.
Court:

Okay. Okay. Mr. DeMar, I’m going to
accept what you tell me. I’m going to
thank you for spending now a day and
a half with us and putting up with all
of our questioning, and I’m going to
excuse you from jury duty in this case,
with our sincere appreciation.

Id. at 98-101. Neither party challenged DeMar for
cause or objected to his excusal. Id.
On direct appeal, Petitioner argued that DeMar’s
dismissal was not supported by a finding that his views
on the death penalty would prevent him from
performing his duties as a juror. Opening Br. at 18-20.
The Arizona Supreme Court rejected this claim,
explaining:
[T]he judge was willing to allow DeMar to
continue as a potential juror upon a simple
assurance that DeMar could be fair and
impartial. Because DeMar could not give such
an assurance, he accepted the court’s decision
that he be excused from the jury panel in order
to be fair to both the defendant and the State.

App. 149
Similarly, our case law is clear that a trial
judge must excuse any potential jurors who
cannot provide assurance that their death
penalty views will not affect their ability to
decide issues of guilt. See Detrich, 188 Ariz. at
65, 932 P.2d at 1336 (urging as “imperative” the
dismissal of any juror who cannot assure
impartiality on guilt issues because of views
regarding the death penalty (citing State v.
Hyde, 186 Ariz. 252, 921 P.2d 655 (1996))). Thus,
the trial court did not err in asking DeMar
questions regarding the death penalty, nor did
the court err in allowing DeMar to be excused
from jury service given the presence of “honestly
held” reservations regarding the death penalty
that might have affected DeMar’s ability to carry
out his oath with respect to issues of guilt.
Kayer, 194 Ariz. at 431-32, 984 P.2d at 39-40.
Analysis
Clearly established Supreme Court law provides
that, when selecting a jury in a capital case, jurors
cannot be struck for cause “because they voiced general
objections to the death penalty or expressed
conscientious or religious scruples against its
infliction.” Witherspoon v. Illinois, 391 U.S. 510, 522 &
n.21 (1968) (noting that exclusion for cause is
appropriate if views on the death penalty would
“prevent them from making an impartial decision as to
the defendant’s guilt”). Therefore, “[a] juror may not be
challenged for cause based on his views about capital
punishment unless those views would prevent or
substantially impair the performance of his duties as a

App. 150
juror in accordance with his instructions and his oath.”
Adams v. Texas, 448 U.S. at 45; see Wainwright v. Witt,
469 U.S. at 424.
In Petitioner’s case, the record indicates that DeMar
was not challenged for cause. Instead, at the end of a
colloquy in which he consistently expressed
reservations about his ability to sit as a fair and
impartial juror in a death penalty case, the judge asked
him if he would prefer to be excused. He stated that he
would, in fairness to both parties, and neither
Petitioner nor the State objected.10 Under these
circumstances, Petitioner cannot demonstrate that the
Arizona Supreme Court unreasonably applied
Witherspoon in rejecting this claim.
Even assuming that DeMar was struck for cause,
under Uttecht v. Brown, 551 U.S. 1 (2007), Petitioner
would not be entitled to relief. In Uttecht the
prosecution struck for cause a panel member referred
to as “Juror Z.” Id. at 5. Juror Z initially indicated that
he could impose the death penalty in “severe
situations”– for example, if a defendant would
inevitably re-offend if released. Id. at 14-15. When
informed by defense counsel that the defendant would
never be released from prison, Juror Z expressed
uncertainty about his ability to impose a death
sentence. Pressed by the prosecution, he continued to
equivocate regarding his willingness to consider the
death penalty in the circumstances of the case before

10

During the PCR evidentiary hearing, both Stoller and Victor
testified that they did not want DeMar on the jury. RT 3/16/06 at
42; RT 3/22/06 at 96.

App. 151
him, though he generally stated “that he could consider
the death penalty or follow the law.” Id. at 15. The
prosecution challenged Juror Z for cause, citing his
confusion about the proper circumstances for the
imposition of a death sentence. The defense indicated
that it had no objection, and the trial court excused the
juror. The Ninth Circuit granted habeas relief on the
grounds that the state courts had not made a finding
that the juror was “substantially impaired” and that
“the transcript unambiguously proved Juror Z was not
substantially impaired.” Id. at 15-16. The Supreme
Court reversed, holding that the record established
that Juror Z “had both serious misunderstandings
about his responsibility as a juror and an attitude
toward capital punishment that could have prevented
him from returning a death sentence under the facts of
this case.” Id. at 13. As illustrated above, DeMar in his
colloquy with Judge Kiger demonstrated similar
characteristics – confusion about his role as a juror and
an attitude toward the death penalty suggesting that
he might have been unable to serve as a fair and
impartial juror. Indeed, DeMar himself stated that he
thought his excusal from the jury would be fair to the
State and the defense.
In addition, if, as Petitioner contends, Judge Kiger
dismissed DeMar for cause after finding that his ability
to be fair and impartial was substantially impaired due
to his beliefs about the death penalty, then the judge’s
determination was “based in part on [DeMar’s]
demeanor” and is “owed deference by reviewing courts.”
Id. at 8. Judge Kiger had “broad discretion” to dismiss
DeMar after conducting a “diligent and thoughtful voir

App. 152
dire” that revealed “considerable confusion” on the part
of the juror. Id. at 20.
Petitioner notes that DeMar indicated that he was
not unambiguously opposed to the death penalty and
would vote to apply it in certain circumstances. But
“such isolated statements indicating an ability to
impose the death penalty do not suffice to preclude the
prosecution from striking for cause a juror whose
responses, taken together, indicate a lack of such
ability or a failure to comprehend the responsibilities
of a juror.” Morales v. Mitchell, 507 F.3d 916, 941 (6th
Cir. 2007).
The Arizona Supreme Court did not unreasonably
apply clearly established federal law in rejecting this
claim on appeal. Therefore, Claim 5 is denied.
Claim 6
Petitioner alleges that the state courts violated his
rights to due process and to be free from cruel and
unusual punishment under the Fifth, Eighth, and
Fourteenth Amendments by finding that he committed
the murder with the expectation of the receipt of
anything of pecuniary value under A.R.S. § 13703(F)(5). Dkt. 35 at 76. Petitioner contends that “[t]he
State failed to prove beyond a reasonable doubt that
Petitioner’s motive was not revenge or some other
reason beyond the expectation of pecuniary gain.” Id. at
77.
Respondents counter that Claim 6 is unexhausted
and procedurally barred. Dkt. 36 at 56. They correctly
note that on direct appeal Petitioner did not allege a
violation of his federal constitutional rights but argued

App. 153
only that the factor had not been proved. See Opening
Br. at 31-37. The Arizona Supreme Court, however,
considered the pecuniary gain aggravating factor
during its independent sentencing review. Kayer, 194
Ariz. at 433-34, 984 P.2d at 41-42. This Court must
determine whether that review exhausted the claim.
The Arizona Supreme Court independently reviews
each capital case to determine whether the death
sentence is appropriate. In State v. Gretzler, 135 Ariz.
42, 54, 659 P.2d 1, 13 (1983), the court stated that the
purpose of independent review is to assess the presence
or absence of aggravating and mitigating
circumstances and the weight to give to each. To
ensure compliance with Arizona’s death penalty
statute, the state supreme court reviews the record
regarding aggravation and mitigation findings and
decides independently whether the death sentence
should be imposed. State v. Brewer, 170 Ariz. 486, 49394, 826 P.2d 783, 790-91 (1992). The Arizona Supreme
Court has also stated that in conducting its review it
determines whether the sentence of death was imposed
under the influence of passion, prejudice, or any other
arbitrary factors. State v. Richmond, 114 Ariz. 186,
196, 560 P.2d 41, 51 (1976), sentence overturned on
other grounds, Richmond v. Cardwell, 450 F.Supp. 519
(D. Ariz. 1978). Arguably, such a review rests on both
state and federal grounds. See Brewer, 170 Ariz. at 493,
826 P.2d at 790 (finding that statutory duty to review
death sentences arises from need to ensure compliance
with constitutional safeguards imposed by the Eighth
and Fourteenth Amendments).

App. 154
While the state supreme court’s independent review
does not encompass all alleged constitutional errors at
sentencing, the Court must determine if it
encompassed Petitioner’s claim that the trial court
erred in finding the pecuniary gain aggravating factor.
In its written opinion, the Arizona Supreme Court
reviewed the aggravating factors found by the
sentencing judge to determine their existence and
whether a death sentence was appropriate. Kayer, 194
Ariz. at 432-33, 984 P.2d at 40-41. With respect to the
pecuniary gain factor, the supreme court reviewed the
evidence in the record and determined that the
pecuniary gain factor had been satisfied. Id. at 433-34,
984 P.3d at 41-42. The supreme court’s actual review of
the trial court’s finding of the (F)(5) factor sufficiently
exhausted Claim 16. See Sandstrom v. Butterworth,
738 F.2d 1200, 1206 (11th Cir. 1984). Thus, the Court
finds that Claim 6 was actually exhausted, and it will
be reviewed on the merits.
Analysis
In rejecting this claim on appeal, the Arizona
Supreme Court explained:
The State proved pecuniary gain in this case
beyond a reasonable doubt. Kester and other
witnesses testified that defendant continually
bragged about his gambling system and
observed his addictive behavior of constantly
wanting money with which to gamble. Kester
testified that defendant said he planned to steal
from Haas and then kill him so that defendant
could get away with killing someone he knew.
Defendant took Haas’ money, credit cards, and

App. 155
other personal items from the crime scene.
Kester testified that defendant also took Haas’
house keys after the murder, entered the home,
and stole several additional items of personal
property. Another witness at trial observed
Kester and defendant at Haas’ home at about
the time established by Kester. Pawn shop
receipts and witness testimony established that
after Haas was murdered, defendant sold
virtually all of Haas’ jewelry and guns. In short,
the State presented overwhelming
circumstantial and direct evidence that
defendant killed with the expectation of
pecuniary gain. This proof far exceeds the
requirement that pecuniary gain must be only a
motive for the crime.
Kayer, 194 Ariz. at 433-34, 984 P.2d at 41-42.
With respect to a state court’s application of an
aggravating factor, habeas review “is limited, at most,
to determining whether the state court’s finding was so
arbitrary and capricious as to constitute an
independent due process or Eighth Amendment
violation.” Lewis v. Jeffers, 497 U.S. 764, 780 (1990). In
making that determination, the reviewing court must
inquire “whether, after viewing the evidence in the
light most favorable to the prosecution, any rational
trier of fact could have found that the factor had been
satisfied.” Id. at 781 (quoting Jackson v. Virginia, 443
U.S. 307, 319 (1979)). This standard “gives full play to
the responsibility of the trier of fact fairly to resolve
conflicts in the testimony, to weigh the evidence, and to

App. 156
draw reasonable inferences from basic facts to ultimate
facts.” Jackson, 443 U.S. at 319.
“[A] finding that a murder was motivated by
pecuniary gain for purposes of § 13-703(F)(5) must be
supported by evidence that the pecuniary gain was the
impetus of the murder, not merely the result of the
murder.” Moormann v. Schriro, 426 F.3d 1044, 1054
(9th Cir. 2005). Based upon the evidence produced at
trial, a rational factfinder could have determined that
Petitioner, short of cash from his gambling losses,
planned and carried out the murder of Haas in order to
gain access to the victim’s property.
Petitioner argues that additional motives may have
led to the killing. As the Arizona Supreme Court noted,
however, “[t]he State can establish pecuniary gain
beyond reasonable doubt through presentation of
direct, tangible evidence or through strong
circumstantial evidence,” and a “financial motive need
not be the only reason the murder was committed for
the pecuniary gain aggravator to apply.” Kayer, 194
Ariz. at 434, 984 P.2d at 42. Here, Kester’s testimony
of a financial motive for the killing is corroborated by
circumstantial evidence concerning the missing
property and the sale of items belonging to Haas. Thus,
application of the pecuniary gain factor was not
unreasonable even if other motives for the killing may
have existed. Petitioner is not entitled to relief on
Claim 6.
Claim 7
Petitioner alleges that the state courts violated his
rights under the Fifth, Sixth, Eighth, and Fourteenth

App. 157
Amendments when they determined that the
prosecution had proven as an aggravating factor that
Petitioner was previously convicted of a serious offense
under A.R.S. §13-703(F)(2). Dkt. 35 at 78. Respondents
contend that the claim is unexhausted and
procedurally barred. Dkt. 36 at 57. For the reasons set
forth above with respect to the pecuniary gain factor,
the Court concludes that this claim was exhausted by
the Arizona Supreme Court’s independent review of
Petitioner’s sentence.
In its special verdict, the trial court indicated that
it had “received and reviewed the documents submitted
by the State” with respect to Petitioner’s first-degree
burglary conviction. Dkt. 36, Ex. A at 1. On direct
appeal, the Arizona Supreme Court upheld the trial
court’s application of the (F)(2) factor. Kayer, 194 Ariz.
at 433, 984 P.2d at 41. The court stated, in relevant
part:
The State presented documentation of
defendant’s 1981 conviction of first-degree
burglary. Based on this documentation, the
court determined the (F)(2) aggravator had been
proved beyond a reasonable doubt. The State
thus met its burden of showing that defendant
had been previously convicted of a “serious
offense” under section 13-703(F)(2).
Id.
Petitioner asserts that the trial court based its
findings regarding the prior conviction on documents it
had reviewed but that had not properly been admitted
into evidence. In affirming the application of (F)(2),

App. 158
Petitioner contends that “the supreme court ignored
the fact the trial court did not admit any evidence
regarding this potential aggravating circumstance” and
thereby “violated its own precedent.” Dkt. 35 at 80.
Even assuming that the state courts erred by failing
to admit into evidence the records of Petitioner’s firstdegree burglary conviction, Petitioner is not entitled to
habeas relief. A state court’s error in applying state law
does not warrant federal habeas corpus relief. Estelle v.
McGuire, 502 U.S. 62, 71-72 (1981). On habeas review,
this Court is limited to determining whether the state
court’s application of state law was so arbitrary and
capricious that it amounted an independent due
process or Eighth Amendment violation. Lewis v.
Jeffers, 497 U.S. at 780.
Claim 7 does not meet this standard. Petitioner does
not contest the existence of the prior conviction or
contend that it fails to satisfy the statutory definition
of a serious offense. He simply argues that the trial
court considered the documents proving the conviction
without first having admitted them into evidence. The
state supreme court found that the record presented to
the trial court was sufficient to prove that Petitioner
had previously been convicted of a serious offense
under § 13-703(F)(2). Whether or not the Arizona
Supreme Court erred in upholding the process by
which the prior conviction was proved, the state courts’
application of the (F)(2) factor, under the circumstances
described above, was not so arbitrary and capricious as
to constitute an independent constitutional violation.
Claim 7 is therefore denied.

App. 159
Claims 8 and 10
In Claim 8, Petitioner alleges that the “trial court
violated [his] rights under the Eighth and Fourteenth
Amendments . . . when it failed to find and/or consider
mitigating circumstances established by the record.”
Dkt. 35 at 80. In Claim 10, Petitioner alleges that the
trial court and the Arizona Supreme Court violated his
Eighth and Fourteenth Amendment right to the
consideration of all relevant mitigation evidence by
refusing to consider mitigating factors that did not
have a “causal nexus” to the crime. Dkt. 35 at 85.
On direct appeal, Petitioner did not allege that his
federal constitutional rights were violated by the
manner in which the trial court considered the
proffered mitigating circumstances. See Opening Br. at
37. He simply argued, with no citation to the federal
constitution or relevant case law, that the trial court
erred in not finding that the mitigating circumstances
had been proved. Id. Therefore, he failed to exhaust
Claims 8 and 10 on direct appeal. See Duncan v. Henry,
513 U.S. 364, 365-66 (1995).
Petitioner raised the allegations contained in
Claims 8 and 10 for the first time in Claim 1 of his PCR
petition. PCR Pet. at 1-3. The court found the claim
precluded under Rule 32.2(a)(3). Dkt. 36, Ex. B at 1.
Respondents contend, therefore, that Claims 8 and 10
are procedurally barred. Dkt. 36 at 59. Petitioner
counters that the PCR court’s ruling was erroneous
because the claims could not have been raised on direct
appeal because they challenge the holding of the
Arizona Supreme Court. The Court disagrees. A
petitioner seeking habeas relief has not properly

App. 160
exhausted a claim “if he has the right under the law of
the State to raise, by any available procedure, the
question presented.” 28 U.S.C. § 2254(c) (emphasis
added). Thus, a petitioner “must present his claims to
a state supreme court in a petition for discretionary
review” in order to properly exhaust a claim in state
court. O’Sullivan v. Boerckel, 526 U.S. at 839-40. A
motion for reconsideration is “an avenue of relief that
the Arizona Rules of Criminal Procedure clearly
outline.” Correll v. Stewart, 137 F.3d 1404, 1418 (9th
Cir. 1998); see Styers v. Schriro, 547 F.3d 1026, 1034
(9th Cir. 2008). Petitioner could have raised these
claims in his motion for reconsideration to the Arizona
Supreme Court following the denial of his direct
appeal. He did not. See PCR Pet., Ex. 29. Therefore, the
PCR court did not err in finding the claims precluded
as waived pursuant to Rule 32.2(a)(3).
Alternatively, Petitioner offers ineffective assistance
of appellate counsel as cause for the default.11 Dkt. 40
at 39, 43. Where ineffective assistance of appellate
counsel is raised as cause for excusing a procedural
default, application of Strickland requires the Court to
look to the merits of the omitted issue. Hain v. Gibson,
287 F.3d 1224, 1231 (10th Cir. 2002); United States v.
Cook, 45 F.3d 388, 392 (10th Cir. 1995) (to determine
if appellate counsel provided ineffective assistance by
failing to raise an issue on appeal “we examine the
merits of the omitted issue”). If the omitted issue is

11

As discussed below in Claim 22, Petitioner exhausted his claims
of ineffective assistance of appellate counsel by raising them in his
PCR petition and petition for review. PCR Pet. at 46; PR doc. 9 at
31.

App. 161
meritless, counsel’s failure to appeal does not
constitute a Sixth Amendment deprivation. Cook, 45
F.3d at 392-93. The Court concludes, as set forth below,
that Claims 8 and 10 lack merit. Therefore, appellate
counsel was not ineffective for failing to raise them and
ineffective assistance of appellate counsel does not
excuse their default.
Background
As detailed above, the trial court found that
Petitioner had failed to prove the nonstatutory
mitigation evidence proffered at sentencing regarding
his substance abuse and mental health, finding that
Petitioner had established neither the existence of the
conditions nor their effect on his behavior at the time
of the murders. Dkt 36, Ex. A at 3-4. In his special
verdict, Judge Kiger stated that he had “considered” all
of the nonstatutory mitigating circumstances but found
them of “essentially no weight.” Id. at 5.
The Arizona Supreme Court agreed “that
impairment was not established as a nonstatutory
mitigating factor by a preponderance of the evidence,”
explaining that “in addition to offering equivocal
evidence of mental impairment, defendant offered no
evidence to show the requisite causal nexus that
mental impairment affected his judgment or his actions
at the time of the murder.” Kayer, 194 Ariz. at 438, 984
P.2d at 46. In considering other nonstatutory
mitigating circumstances, the Arizona Supreme Court
found that Petitioner’s poor “post-murder physical
health” was entitled to “no weight” as a mitigating
factor because it did not bear on his pre-murder
character or his propensities, record, or other

App. 162
circumstances of the offense. Id. at 440, 984 P.2d at 48.
The court likewise found that Petitioner’s intelligence
and ability to contribute to society did not constitute a
mitigating factor. Id.
Analysis
The Supreme Court has explained that “evidence
about the defendant’s background and character is
relevant because of the belief, long held by this society,
that defendants who commit criminal acts that are
attributable to a disadvantaged background [or to
emotional and mental problems] may be less culpable
than defendants who have no such excuse.” Wiggins,
539 U.S. at 535 (quoting Penry v. Lynaugh, 492 U.S.
302, 319 (1989)). Therefore, a sentencing court is
required to consider any mitigating information offered
by a defendant, including non-statutory mitigation. See
Lockett v. Ohio, 438 U.S. 586, 604 (1978); see also Ceja
v. Stewart, 97 F.3d 1246, 1251 (9th Cir. 1996). In
Lockett and Eddings v. Oklahoma, 455 U.S. 104, 113-14
(1982), the Court held that under the Eighth and
Fourteenth Amendments the sentencer must be
allowed to consider, and may not refuse to consider,
“any aspect of a defendant’s character or record and
any of the circumstances of the offense that the
defendant proffers as a basis for a sentence less than
death.” See also Burger v. Kemp, 483 U.S. 776, 789 n.7
(1987). While the sentencer must not be foreclosed from
considering relevant mitigation, “it is free to assess
how much weight to assign such evidence.” Ortiz v.
Stewart, 149 F.3d 923, 943 (9th Cir. 1998); see Eddings,
455 U.S. at 114-15 (“The sentencer . . . may determine
the weight to be given the relevant mitigating

App. 163
evidence.”); see also State v. Newell, 212 Ariz. 389, 405,
132 P.3d 833, 849 (2006) (explaining that mitigating
evidence must be considered regardless of whether
there is a “nexus” between the mitigating factor and
the crime, but the lack of a causal connection may be
considered in assessing the weight of the evidence).
On habeas review, a federal court does not evaluate
the substance of each piece of evidence submitted as
mitigation. Instead, it reviews the record to ensure the
state court allowed and considered all relevant
mitigating information. See Jeffers v. Lewis, 38 F.3d
411, 418 (9th Cir. 1994) (en banc) (when it is evident
that all mitigating evidence was considered, the trial
court is not required to discuss each piece of evidence);
see also Lopez v. Schriro, 491 F.3d 1029, 1037 (9th Cir.
2007), cert. denied, 128 S. Ct. 1227 (2008) (rejecting
claim that the sentencing court failed to consider
proffered mitigation where the court did not prevent
the defendant from presenting any evidence in
mitigation, did not affirmatively indicate there was any
evidence it would not consider, and expressly stated it
had considered all mitigation evidence proffered by the
defendant). In LaGrand v. Stewart, 133 F.3d 1253,
1263 (9th Cir. 1998), the Ninth Circuit discussed the
habeas court’s role when considering whether the state
court properly weighed mitigation evidence:
federal courts do not review the imposition of the
sentence de novo. Here, as in the state courts’
finding of the existence of an aggravating factor,
we must use the rational fact-finder test of
Lewis v. Jeffers. That is, considering the
aggravating and mitigating circumstances, could

App. 164
a rational fact-finder have imposed the death
penalty?
Applying these principles, it is apparent in
Petitioner’s case that the trial court and the Arizona
Supreme Court fulfilled their constitutional obligation
by allowing and considering all of the mitigating
evidence. As noted above, the trial court and the state
supreme court discussed the mitigating circumstances
advanced by Petitioner at sentencing, including his
family background, mental health, and history of
substance abuse. The fact that the courts found the
mitigating information not weighty enough to call for
leniency does not amount to a constitutional violation.
Eddings, 455 U.S. at 114-15. This is true
notwithstanding the courts’ discussion of the lack of a
causal link between the mitigating circumstances and
the crime.
In Tennard v. Dretke, 542 U.S. 274, 289 (2004), the
Supreme Court held that the habeas petitioner was
entitled to a certificate of appealability on his claim
that Texas’s capital sentencing scheme failed to provide
a constitutionally adequate opportunity to present his
low I.Q. as a mitigating factor. The Court rejected the
“screening” test applied by the Fifth Circuit, according
to which mitigating information is constitutionally
relevant only if it shows “uniquely severe”
circumstances to which the criminal act was
attributable. Id. at 283-84. Instead, the Court
explained, the test for the relevance of mitigation
evidence is the same standard applied to evidence
proffered in other contexts – namely, whether the
evidence has any tendency to make the existence of any

App. 165
fact that is of consequence to a determination of the
action more or less likely than it would be without the
evidence. Id. at 284.
The courts in Petitioner’s case did not impose any
barrier to consideration of the proffered mitigation. To
the contrary, the trial court and the Arizona Supreme
Court explicitly considered the evidence of Petitioner’s
mental health issues and substance abuse history.
Again, no constitutional violation occurred when the
state courts, perceiving the lack of a causal or
explanatory relationship between the mitigating
evidence and Petitioner’s criminal conduct, assigned
less weight to that evidence than Petitioner believes it
warranted. See Eddings, 455 U.S. at 114-15; Ortiz, 149
F.3d at 943. In addition, contrary to Petitioner’s
arguments in Claim 8, the courts considered his
current poor health and his ability to contribute to
society, but found they were not mitigating because
they did not relate to his character, record, or the
circumstances of the offense. This determination was
permissible. See Lockett, 438 U.S. at 604 n.12 (“Nothing
in this opinion limits the traditional authority of a
court to exclude, as irrelevant, evidence not bearing on
the defendant’s character, prior record, or
circumstances of the offense.”).
The United States Supreme Court has emphasized
that there is no required formula for weighing
mitigating evidence; indeed, the sentencer may be
given “unbridled discretion in determining whether the
death penalty should be imposed after it has found that
the defendant is a member of the class made eligible for
that penalty.” Zant v. Stephens, 462 U.S. 862, 875

App. 166
(1983); see Kansas v. Marsh, 548 U.S. 163, 175 (2006)
(“our precedents confer upon defendants the right to
present sentencers with information relevant to the
sentencing decision and oblige sentencers to consider
that information in determining the appropriate
sentence. The thrust of our mitigation jurisprudence
ends here.”); Harris v. Alabama, 513 U.S. 504, 512
(1995) (Constitution does not require that a specific
weight be given to any particular mitigating factor);
Tuilaepa v. California, 512 U.S. 967, 979-80 (1994).
This Court knows of no Supreme Court precedent
holding that mitigation evidence, once presented and
under consideration, is entitled to a particular weight
or that it is inappropriate for a sentencer, when
weighing such evidence, to consider, along with its
humanizing impact, the extent to which the evidence
offers an explanation of the criminal conduct.12
Conclusion
Neither the trial court nor the Arizona Supreme
Court violated Petitioner’s rights in their evaluation of
proffered mitigation evidence. Claims 8 and 10 are
meritless. Appellate counsel was not ineffective
because if had he raised the claims in a motion for
reconsideration there is no likelihood the Arizona
Supreme Court would have granted relief. Therefore,
Petitioner has failed to establish cause to his excuse

12

The Ninth Circuit has recognized that mitigating evidence may
serve both a “humanizing” and an “explanatory” or “exculpatory”
purpose, with greater weight generally being ascribed to the latter
category. See Allen v. Woodford, 395 F.3d 979, 1005-10 (2005).

App. 167
the default of Claims 8 and 10 and the claims are
procedurally barred.
Claim 9
Petitioner alleges that execution by lethal injection,
as it will be imposed, is cruel and unusual punishment
in violation of his rights under the Eighth and
Fourteenth Amendments of the United States
Constitution. Dkt. 35 at 82. This claim was raised on
direct appeal and rejected by the Arizona Supreme
Court. Kayer, 194 Ariz. at 441, 984 P.2d at 49.
Petitioner is not entitled to habeas relief on this
claim. The United States Supreme Court has never
held that lethal injection constitutes cruel and unusual
punishment, see Baze v. Rees, 128 S. Ct. 1520 (2008),
and the Ninth Circuit has concluded that death by
lethal injection in Arizona does not violate the Eighth
Amendment. See LaGrand v. Stewart, 133 F.3d 1253,
1265 (9th Cir. 1998); Poland v. Stewart, 117 F.3d 1094,
1104-05 (9th Cir. 1997); see also Dickens v. Brewer, 07CV-1770, 2009 WL 1904294 (D. Ariz. July 1, 2009)
(Arizona’s lethal injection protocol does not violate
Eighth Amendment). Therefore, the Arizona Supreme
Court’s rejection of the claim was neither contrary to
nor an unreasonable application of clearly established
federal law. Claim 9 is denied.
Claim 11
Petitioner alleges that he was denied a jury finding
beyond a reasonable doubt on the facts that increased
his sentence beyond the maximum imposable in
violation of the Sixth, Eighth, and Fourteenth
Amendments to the United States Constitution. Dkt.

App. 168
35 at 94. The PCR court found this claim precluded
under Rule 32.2(a)(3), and Respondents contend that it
is unexhausted and procedurally barred. Dkt. 36 at 6869. Regardless of the claim’s procedural status, it is
plainly meritless and will be denied. See 28 U.S.C.
§ 2254(b)(2); Rhines, 544 U.S. at 277.
Petitioner asserts that he “is entitled to the benefit
of the rule announced in Apprendi v. New Jersey, 530
U.S. 466 (2000), and that the holding in Schriro v.
Summerlin, 542 U.S. 348 (2004), does not apply to his
case.13 Dkt. 35 at 95-96. These propositions are
premised on Petitioner’s claim that his conviction
became final after the decision in Apprendi – on
January 25, 2001, when the Arizona Supreme Court
issued its mandate in Petitioner’s case, as opposed to
February 28, 2000, when the United States Supreme
Court denied his petition for writ of certiorari.14
Petitioner is incorrect. “State convictions are final ‘for
purposes of retroactivity analysis when the availability
of direct appeal to the state courts has been exhausted
and the time for filing a petition for a writ of certiorari
has elapsed or a timely filed petition has been finally
denied.’”15 Beard v. Banks, 542 U.S. 406, 411 (2004)

13

Apprendi held that any fact that increases the penalty for a
crime beyond the prescribed statutory maximum must be
submitted to a jury and proved beyond a reasonable doubt. 530
U.S. at 489.

14

15

Kayer v. Arizona, 528 U.S. 1196 (2000) (mem.).

Petitioner asserts that for purposes of retroactivity analysis, an
Arizona conviction becomes final only with the issuance of the
mandate because until that point an appellate court may still

App. 169
(quoting Caspari v. Bohlen, 510 U.S. 383, 390 (1994)).
Petitioner’s case was final when his petition for writ of
certiorari was denied, which occurred prior to June 26,
2000, the date on which Apprendi was decided.
At the time of Petitioner’s sentencing, Supreme
Court precedent held that judges could find the
aggravating circumstances that made a defendant
eligible for capital punishment. Walton v. Arizona, 497
U.S. 639, 647-49 (1990). That law changed with Ring v.
Arizona, 536 U.S. 584 (2002), but Schriro v. Summerlin
542 U.S. 348, 358 (2004), held that Ring announced a
new procedural rule that does not apply retroactively
to cases, like Petitioner’s, that were already final on
direct review at the time Ring was decided.
Notwithstanding the inapplicability of Ring to his case,
Petitioner counters that Apprendi “is sufficient to
establish the Sixth Amendment violation requiring
relief from his death sentence.” Dkt. 35 at 96. This
argument is unavailing because Apprendi, like Ring,
does not apply retroactively, see Cooper-Smith v.
Palmateer, 397 F.3d 1236, 1245-46 (9th Cir. 2005), and,
as just discussed, Petitioner’s conviction was final
before Apprendi was decided. Claim 11 is therefore
denied.
Claim 12
Petitioner alleges that his death sentence violates
his jury trial rights under the Fifth, Sixth, and
Fourteenth Amendments because the aggravating
factors alleged by the State were not presented in an
modify the sentence. Dkt. 40 at 46-47. He offers no support for this
proposition, and the Court rejects it as contrary to Banks.

App. 170
indictment and subjected to a pretrial probable cause
determination. Dkt. 35 at 101. The PCR court found
this claim precluded under Rule 32.2(a)(3).
Respondents’ argument that the claim is procedurally
barred, but the Court will address the claim because it
is plainly meritless. See 28 U.S.C. § 2254(b)(2); Rhines,
544 U.S. at 277.
While the Due Process Clause guarantees
defendants a fair trial, it does not require the states to
observe the Fifth Amendment’s provision for
presentment or indictment by a grand jury. Hurtado v.
California, 110 U.S. 516, 538 (1884); Branzburg v.
Hayes, 408 U.S. 665, 688 n.25 (1972). Although
Petitioner contends that Ring and Apprendi support
his position in this claim, in neither case did the
Supreme Court address the issue, let alone hold that
aggravating factors must be included in an indictment
and subjected to a probable cause determination. See
Ring, 536 U.S. at 597 n.4. Moreover, the Arizona
Supreme Court has expressly rejected the argument
that Ring requires that aggravating factors be alleged
in an indictment and supported by probable cause.
McKaney v. Foreman, 209 Ariz. 268, 270, 100 P.3d 18,
20 (2004). Claim 12 is without merit and will be denied.
Claim 22
Petitioner cites several instances in which he was
denied effective assistance of counsel on appeal in
violation of his rights under the Sixth and Fourteenth
Amendments. Dkt. 35 at 119. Respondents contend
that the claim is unexhausted because Petitioner failed
to include it in his petition for review to the Arizona
Supreme Court. Dkt. 36 at 82. Petitioner counters that

App. 171
he did raise a claim of ineffective assistance of
appellate counsel in his petition for review. Dkt. 40 at
62.
In his PCR petition, Petitioner raised the
allegations of ineffective assistance of appellate counsel
contained in his habeas petition. PCR Pet. at 45. The
court found the claims “not colorable” because “the
prejudice portion of the Strickland test has not been
met.” Dkt. 36, Ex. B at 2. In his petition for review,
Petitioner raised such allegations as a defense against
the preclusion rulings reached by the PCR court. See
PR doc. 9 at 31. The Court finds that this was sufficient
to exhaust the allegations and will consider Claim 22
on the merits.
Analysis
The Fourteenth Amendment guarantees a criminal
defendant the effective assistance of counsel on his first
appeal as of right. Evitts v. Lucey, 469 U.S. 387, 396
(1985). A claim of ineffective assistance of appellate
counsel is reviewed under the standard set out in
Strickland. See Miller v. Keeney, 882 F.2d 1428, 143334 (9th Cir. 1989). A petitioner must show that
counsel’s appellate advocacy fell below an objective
standard of reasonableness and that there is a
reasonable probability that, but for counsel’s deficient
performance, the petitioner would have prevailed on
appeal. Smith v. Robbins, 528 U.S. 259, 285-86 (2000);
see Miller, 882 F.2d at 1434 n.9 (citing Strickland, 466
U.S. at 688, 694).
“A failure to raise untenable issues on appeal does
not fall below the Strickland standard.” Turner v.

App. 172
Calderon, 281 F.3d 851, 872 (9th Cir. 2002); see also
Wildman v. Johnson, 261 F.3d 832, 840 (9th Cir. 2001)
(appellate counsel could not be found to have rendered
ineffective assistance for failing to raise issues that
“are without merit”); Boag v. Raines, 769 F.2d 1341,
1344 (9th Cir. 1985). Moreover, appellate counsel does
not have a constitutional duty to raise every
nonfrivolous issue requested by a petitioner. Miller,
882 F.2d at 1434 n.10 (citing Jones v. Barnes, 463 U.S.
745, 751-54 (1983)); see Smith v. Stewart, 140 F.3d at
1274 n.4 (counsel not required to file “kitchen-sink
briefs” because doing so “is not necessary, and is not
even particularly good appellate advocacy”). Courts
have frequently observed that the “weeding out of
weaker issues is . . . one of the hallmarks of effective
appellate advocacy.” Miller, 882 F.2d at 1434; see
Smith v. Murray, 477 U.S. 527, 536 (1986). Therefore,
even if appellate counsel declines to raise weak issues,
he will likely remain above an objective standard of
competence and will have caused no prejudice. Id.
The PCR court’s finding that Petitioner failed to
show he was prejudiced by appellate counsel’s
performance did not constitute an unreasonable
application of Strickland. As described below, the
issues appellate counsel failed to raise were without
merit. Therefore, Petitioner has not met his burden of
affirmatively proving that he was prejudiced by
appellate counsel’s performance.
In Claim 13, Petitioner alleges that the trial court
misapplied Arizona’s capital-sentencing statute, thus
violating Petitioner’s right to due process of law under
the Fifth and Fourteenth Amendments and his right to

App. 173
be free from cruel and unusual punishment under the
Eighth and Fourteenth Amendments. Dkt. 35 at 105.
Arizona’s capital sentencing statute provides: “The
trier of fact shall impose a sentence of death if . . . there
are no mitigating circumstances sufficiently
substantial to call for leniency.” A.R.S. § 13-703(E).
Petitioner argues that the trial court did not properly
apply this standard because it found that “one
mitigating factor does not provide sufficient weight to
offset the aggravating factors.” Dkt. 36, Ex. A at 5.
According to Petitioner, the court “placed the burden of
proof on [him] to prove that the mitigating
circumstance outweighed the aggravating
circumstances.” Dkt. 35 at 105.
Petitioner’s argument is unpersuasive. The
Supreme Court has held that a state may place the
burden of proving that mitigating circumstances
outweigh aggravating circumstances on a defendant.
Kansas v. Marsh, 548 U.S. at 173 (citing Walton v.
Arizona, 497 U.S. 639 (1990)). Claim 13 is therefore
meritless.
In Claim 14, Petitioner alleges that the trial court
improperly considered victim-impact questionnaires in
violation of the Eighth Amendment. Dkt. 35 at 106.
Petitioner refers to a statement provided by Deanne
Haas, the victim’s daughter, recommending the death
sentence. In Payne v. Tennessee, 501 U.S. 808, 827
(1991), the United States Supreme Court held that
while a state may permit the admission of victim
impact evidence, it is not allowed to present evidence
concerning a victim’s opinion about the appropriate
sentence. Judges are presumed to know and follow the

App. 174
law, Walton, 497 U.S. at 653, and in his special verdict,
Judge Kiger did not cite the victim’s opinion as a
reason for imposing the death penalty. Dkt. 36, Ex. A.
Petitioner has not rebutted the presumption that Judge
Kiger considered only appropriate factors in sentencing
Petitioner to death. See Gretzler v. Stewart, 112 F.3d
992, 1009 (9th Cir. 1997) (“in the absence of any
evidence to the contrary, [the Court] must assume that
the trial judge properly applied the law and considered
only the evidence he knew to be admissible”). Claim 14
is without merit.
In Claim 16, Petitioner alleges that the trial court
denied his rights under the Fifth, Sixth, and
Fourteenth Amendments by forcing him to choose
between wearing a leg brace or having courtroom
deputies placed so close to him that, according to
Petitioner, they infringed on his right to communicate
with counsel. Dkt. 35 at 109.
Under clearly-established federal law, the State is
precluded from using visible shackles on a defendant
before a jury absent special security needs. See Deck v.
Missouri, 544 U.S. 622 (2005); Holbrook v. Flynn, 475
U.S. 560 (1986); Illinois v. Allen, 397 U.S. 337 (1970).
Petitioner chose not to wear a leg brace and therefore
was not visibly shackled. See RT 3/7/97 at 3-5. Nothing
in the record demonstrates that deputies were able to
overhear or view any confidential communications
between Petitioner and his attorneys or that their
presence had any effect on Petitioner’s ability to
communicate with counsel. Claim 16 is meritless.
In Claim 17, Petitioner alleges that the reasonable
doubt instruction given by the trial court lowered the

App. 175
State’s burden of proof, depriving Petitioner of his right
to due process under the Fourteenth Amendment and
his right to trial by jury under the Sixth and
Fourteenth Amendments. Dkt. 35 at 110. This claim is
meritless under Victor v. Nebraska, 511 U.S. 1 (1994),
and State v. Portillo, 182 Ariz. 592, 596, 898 P.2d 970,
974 (1995) (adopting standard instruction consistent
with that approved in Victor).
In Claim 19, Petitioner alleges that his conviction
for armed robbery violated his right to due process
pursuant to the Fourteenth Amendment because there
was insufficient evidence to support the conviction.
Dkt. 35 at 114. In Claim 20, Petitioner contends that
because insufficient evidence exists to support the
armed robbery conviction, his felony murder conviction
violates the due process clause of the Fourteenth
Amendment and must be vacated. Id. at 20.
A habeas petitioner challenging the sufficiency of
the evidence is entitled to relief only “if no rational
trier of fact” could have found proof of guilt beyond a
reasonable doubt based on the trial evidence. Jackson,
443 U.S. at 324. The evidence must be considered “in
the light most favorable to the prosecution” and a court
may not substitute its judgment for that of the jury. Id.
at 319. “[A] federal habeas court faced with a record of
historical facts must presume – even if it does not
affirmatively appear in the record – that the trier of
fact resolved any such conflicts in favor of the
prosecution, and must defer to that resolution.” Id. at
326.

App. 176
At the time of the time of the murder, robbery was
defined as follows:
A person commits robbery if in the course of
taking any property of another from his person
or immediate presence and against his will, such
person threatens or uses force against any
person with intent either to coerce surrender of
property or to prevent resistance to such person
taking or retaining property.
A.R.S § 13-1902. To commit armed robbery the
defendant must have been armed with or threatened
the use of a deadly weapon. A.R.S. § 13-1904. From the
evidence presented at trial, namely Kester’s testimony,
a rational juror could find beyond a reasonable doubt
that Petitioner used force to prevent resistance when
he shot Haas to death and took his property. Claim 19
is meritless.
Claim 20 is meritless because sufficient evidence
supported the underlying armed robbery conviction and
because the jury also convicted Petitioner of
premeditated first-degree murder.
In Claim 26, Petitioner alleges that his sentences
for the non-capital offenses were aggravated in
violation of his Sixth Amendment right to trial by jury.
Dkt. 35 at 124. As described above in the Court’s
analysis of Claim 11, this claim is meritless because
neither Apprendi nor Blakely v. Washington, 542 U.S.
296 (2004), applies retroactively. See Cooper-Smith,
397 F.3d at 1246.

App. 177
Conclusion
Because the claims appellate counsel failed to raise
are without merit, Petitioner cannot show a reasonable
probability that he would have prevailed on appeal if
they had been raised. Therefore, he has failed to show
that he was prejudiced by appellate counsel’s
performance and he is not entitled to relief on Claim
22.
Claim 23
Petitioner asserts that “[g]iven the procedures for
post-conviction review in Arizona capital cases, [he] is
constitutionally entitled to the effective representation
of post-conviction counsel.” Dkt. 35 at 121. Petitioner
specifically alleges that he was denied the effective
assistance of post-conviction counsel and his right to
due process because of an unresolved conflict between
himself and counsel. Id.
There is no constitutional right to counsel in state
post-conviction proceedings. See Pennsylvania v.
Finley, 481 U.S. 551, 555 (1987); Murray v. Giarratano,
492 U.S. 1, 7-12 (1989); Bonin v. Vasquez, 999 F.2d
425, 429-30 (9th Cir. 1993). Therefore, ineffective
assistance of PCR counsel is not a cognizable habeas
claim. See 28 U.S.C. § 2254(I) (“The ineffectiveness or
incompetence of counsel during Federal or State
collateral post-conviction proceedings shall not be a
ground for relief in a proceeding arising under section
2254.”). Claim 23 is denied.

App. 178
Claim 25
Petitioner alleges that his convictions were obtained
in violation of his right to a fair trial and to due process
of law under the Fifth, Sixth, Eighth, and Fourteenth
Amendments because Lisa Kester’s plea agreement
contained an unenforceable “consistency” provision.
Dkt. 35 at 131. Respondents concede that the claim is
exhausted. Dkt. 36 at 91.
As Petitioner’s trial approached, Kester entered into
a plea agreement with the State. The agreement
required Kester to verify “that all prior statements
made to [Yavapai County Detectives] Danny Martin
and Roger Williamson were truthful.” Appellee’s
Answering Br., Ex. A at 2. It also required Kester to
“appear at any proceeding including trial upon the
request of the State and testify truthfully to all
questions asked” and to “cooperate completely with the
State of Arizona in the prosecution of” Petitioner. Id. at
2-3. The State was allowed to dishonor the agreement
if Kester violated any of its terms. Id. at 3.
The Arizona Supreme Court rejected Petitioner’s
claim that the plea agreement contained a consistency
provision in violation of his due process rights. Kayer,
194 Ariz. at 430-31, 984 P.2d at 38-39. Because
Petitioner did not object to the agreement at trial, and
in fact used the agreement to attack Kester’s
credibility, the court reviewed the claim only for
fundamental error and found none. Id. The court did
not reach a conclusion as to whether the agreement
actually contained a consistency provision. Id. at 431
n.1, 984 P.2d at 39.

App. 179
Even if the plea agreement had contained a
consistency provision, Petitioner would not be entitled
to relief on this claim. Petitioner has not cited, nor has
the Court identified, any Supreme Court authority
addressing the due process implications of consistency
agreements.16 As the Ninth Circuit observed in Cook v.
Schriro, “there is no Supreme Court case law
establishing that consistency clauses violate due
process or any other constitutional provision.” 538 F.3d
1000, 1017 (9th Cir. 2008). The Ninth Circuit concluded
that, “[b]ecause it is an open question in the Supreme
Court’s jurisprudence, we cannot say ‘that the state
court unreasonably applied clearly established Federal
law’” by rejecting Petitioner’s claim. Id. (quoting
Musladin, 549 U.S. at 77) (internal quotations
omitted). Claim 25 is denied.
EVIDENTIARY DEVELOPMENT
Petitioner requests an evidentiary hearing or other
forms of evidentiary development with respect to

16

The federal appellate courts do not appear to have addressed the
issue directly, although they have consistently held that “[a]n
agreement that requires a witness to testify truthfully in exchange
for a plea is proper so long as ‘the jury is informed of the exact
nature of the agreement, defense counsel is permitted to crossexamine the accomplice about the agreement, and the jury is
instructed to weigh the accomplice’s testimony with care.’” Allen
v. Woodford, 395 F.3d 979, 995 (9th Cir. 2005) (quoting United
States v. Yarbrough, 852 F.2d 1522, 1537 (9th Cir. 1988)). Nor is
Petitioner’s claim supported by state law. In State v. Rivera, 210
Ariz. 188, 191, 109 P.3d 83, 86 (2005), the Arizona Supreme Court
held that the co-defendants’ plea agreements, which required
truthful testimony and avowals that prior statements were true,
were not impermissible “consistency agreements.”

App. 180
Claims 9, 15, 16, 22, and 23. Dkt. 46. Pursuant to
Townsend v. Sain, 372 U.S. 293, 312-13 (1963),
overruled in part by Keeney v. Tamayo-Reyes, 504 U.S.
1 (1992), and limited by § 2254(e)(2), a federal district
court must hold an evidentiary hearing in a § 2254 case
when: (1) the facts are in dispute; (2) the petitioner
“alleges facts which, if proved, would entitle him to
relief;” and (3) the state court has not “reliably found
the relevant facts” after a “full and fair evidentiary
hearing” at trial or in a collateral proceeding. See Hill
v. Lockhart, 474 U.S. 52, 60 (1985) (upholding the
denial of a hearing when petitioner’s allegations were
insufficient to satisfy the governing legal standard);
Bashor v. Risley, 730 F.2d 1228, 1233-34 (9th Cir. 1984)
(hearing not required when claim must be resolved on
state court record or claim is based on non-specific
conclusory allegations); see also Landrigan, 550 U.S. at
474 (“Because the deferential standards prescribed by
§ 2254 control whether to grant habeas relief, a federal
court must take into account those standards in
deciding whether an evidentiary hearing is
appropriate.”). Based on these principles, Petitioner is
not entitled to an evidentiary hearing or further
evidentiary development.
With respect to Claim 9, because there is no
Supreme Court precedent holding that lethal injection
violates the Constitution, Petitioner cannot gain
habeas relief under the AEDPA and is not entitled to
evidentiary development.
As explained above, Claim 15 is procedurally
barred.

App. 181
With respect to Claim 16, alleging violations arising
from the courtroom security arrangements, Petitioner
has neither identified any disputed facts nor “allege[d]
facts which, if proved, would entitle him to relief.”
Townsend, 372 U.S. at 312-13. Therefore, he is not
entitled to an evidentiary hearing.
With respect to Claim 22, Petitioner’s allegations of
ineffective assistance of appellate counsel are properly
resolved on the record. See Gray v. Greer, 800 F.2d 644,
647 (7th Cir.1985) (“it is the exceptional case” where a
claim ineffective assistance of appellate counsel “could
not be resolved on the record alone”). Moreover,
Petitioner has not identified any disputed facts or
alleged facts that would entitle him to relief.
Claim 23, alleging ineffective assistance of PCR
counsel, is not cognizable.
CONCLUSION
For the reasons set forth above, Petitioner has failed
to show that he is entitled to habeas relief on any of his
claims, and additional evidentiary development is
neither required nor warranted.
CERTIFICATE OF APPEALABILITY
In the event Petitioner appeals from this Court’s
judgment, and in the interests of conserving scarce
resources that might be consumed drafting and
reviewing an application for a certificate of
appealability (“COA”) to this Court, the Court on its
own initiative has evaluated the claims within the
petition for suitability for the issuance of a certificate

App. 182
of appealability. See 28 U.S.C. § 2253(c); Turner v.
Calderon, 281 F.3d 851, 864-65 (9th Cir. 2002).
Rule 22(b) of the Federal Rules of Appellate
Procedure provides that when an appeal is taken by a
petitioner, the district judge who rendered the
judgment “shall” either issue a COA or state the
reasons why such a certificate should not issue.
Pursuant to 28 U.S.C. § 2253(c)(2), a COA may issue
only when the petitioner “has made a substantial
showing of the denial of a constitutional right.” This
showing can be established by demonstrating that
“reasonable jurists could debate whether (or, for that
matter, agree that) the petition should have been
resolved in a different manner” or that the issues were
“adequate to deserve encouragement to proceed
further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000)
(citing Barefoot v. Estelle, 463 U.S. 880, 893 & n.4
(1983)).
The Court finds that reasonable jurists could debate
its resolution of Claims 1(B)(4) and 2. For the reasons
stated in this order, the Court declines to issue a COA
with respect to any other claims.
Based on the foregoing,
IT IS ORDERED that Petitioner’s Amended
Petition for Writ of Habeas Corpus, Dkt. 35, is
DENIED. The Clerk of Court shall enter judgment
accordingly.
IT IS FURTHER ORDERED that Petitioner’s
motion for evidentiary development, Dkt. 46, is
DENIED.

App. 183
IT IS FURTHER ORDERED that the stay of
execution entered by this Court on November 5, 2007,
Dkt. 5, is VACATED.
IT IS FURTHER ORDERED GRANTING a
Certificate of Appealability as to the following issues:
Whether Claim 1(B)(4) of the Amended Petition
– alleging ineffective assistance of counsel at
sentencing – is without merit.
Whether Claim 2 of the Amended Petition –
alleging that Petitioner’s rights were violated
when the trial court accepted his waiver of a
continuance at sentencing – is without merit.
IT IS FURTHER ORDERED that the Clerk of
Court forward a courtesy copy of this Order to the
Clerk of the Arizona Supreme Court, 1501 W.
Washington, Phoenix, AZ 85007-3329.
DATED this 19th day of October, 2009.

/s/David G. Campbell
David G. Campbell
United States District Judge

App. 184
UNITED STATES DISTRICT COURT
DISTRICT OF ARIZONA
CV07-2120-PHX-DGC
[Filed October 19, 2009]
_______________________
George Russell Kayer,
)
)
Petitioner,
)
)
v.
)
)
Charles L. Ryan, et al., )
)
Respondents. )
_______________________ )
JUDGMENT IN A CIVIL CASE
___

Jury Verdict. This action came before the Court
for a trial by jury. The issues have been tried
and the jury has rendered its verdict.

XX

Decision by Court. This action came for
consideration before the Court. The issues have
been considered and a decision has been
rendered.

IT IS ORDERED AND ADJUDGED that, per the
Court’s order entered October 19, 2009, that
Petitioner’s Petition for Writ of Habeas Corpus
pursuant to 28 U.S.C. § 2254 is denied. Judgment is
entered for respondents and against petitioner. The
action is dismissed and the stay of execution entered by
this Court on November 5, 2007, is vacated.

App. 185
October 19, 2009

RICHARD H. WEARE
District Court
Executive/Clerk
s/E.Leon
By: Deputy Clerk

cc: (all counsel)

App. 186

APPENDIX C
SUPERIOR COURT, STATE OF ARIZONA, IN
AND FOR THE COUNTY OF YAVAPAI
Case No. CR 94-0694
[Filed May 10, 2006]
_______________________
State of Arizona,
)
)
Plaintiff/Respondent )
)
vs
)
)
George Russell Kayer,
)
)
Defendant/Petitioner )
_______________________ )
Rule 32 decision and order
HONORABLE WILLIAM T. KIGER
DIVISION 5

DATE: May 8, 2006

The court has now read and considered the
defendant/petitioner’s petition for Rule 32 relief, the
state’s response and the reply. The court has also
listened to and considered the testimony presented at
the evidentiary hearing and the exhibits admitted at
that hearing. Since the conclusion of the hearing, the
court has also received, read and considered the
stipulation re: witness Don Hulen, and the post hearing

App. 187
memoranda submitted by the petitioner and the state.
Based on the above, the court finds and orders as
follows:
1. The petitioner has submitted eighteen issues upon
which he asserts that Rule 32 relief should be
granted. Previously, this court ruled that no relief
could be granted as to seventeen of those issues and
no evidentiary hearing was necessary. The issue for
which the court held an evidentiary hearing was the
claim that trial counsel were ineffective in the
representation of Mr. Kayer:
a. Concerning investigation
mitigating information and

of

potentially

b. During death qualification of potential jurors
during voir dire.
2. As to la, the court concludes that trial counsel did
not fall below the Strickland standard for effective
representation concerning potential mitigation. In
reaching this conclusion; the court considers:
a. It’s own observations of the defendant during
the trial and the sentencing phase.
b. The analysis and observations of the Supreme
Court in this case stated:
Defendant repeatedly refused to cooperate
with his court- appointed mitigation
specialist and instead sought to expedite
sentencing. He now argues the trial court
erred when it allowed him this freedom. On
appeal, defendant characterizes his refusal

App. 188
as legal incompetence or improper control
over the presentation of mitigation evidence
that amounts to a de facto and improper
waiver of his right to counsel. We disagree ....
After thoroughly reviewing the entire record,
we conclude that defendant was competent
when he decided not to cooperate with
Durand. Taken in context, these bizarre
passages quoted do not refute but rather
bolster the conclusion that defendant was
intelligent, had an understanding of what
was occurring, and voluntarily made the
decision not to cooperate. He understood the
alternatives and the consequences of refusing
to cooperate and nevertheless chose that
path. He reaffirmed his decision not to
cooperate several times, once saying that he
did not have a death wish but that he
believed the psychological evidence Durand
wished to pursue would not produce
mitigating evidence....
The record indicates that defendant was
articulate, aware of the proceedings, and
knowledgeable about the potential
consequences of his choices. On this record,
we conclude that defendant was competent
when he chose not to cooperate with Durand
and chose to expedite his sentencing
proceedings, despite the fact that his decision
may have limited the mitigation evidence
offered on his behalf.

App. 189
c. The reports and testimony of the expert
witnesses who testified at the evidentiary
hearing.
The court concludes that at the time of sentencing,
the defendant voluntarily prohibited his attorneys
from further pursuing and presenting any possible
mitigating evidence.
This court further concludes that if there had been
a finding that the performance prong of the
Strickland standard had been met, that no
prejudice to the defendant can be found. In stating
this conclusion the court has considered the
assertion of mental illness, physical illness, jail
conditions, childhood development, and any alcohol
or gambling addictions.
3. As to 1b above, the court finds no evidence
supporting the claim that trial counsel fell below
the Strickland standard for effective representation
of counsel during the voir dire.
4. The petition for post conviction relief is dismissed.
Dated this 8th of May, 2006.
/s/William T. Kiger
William T. Kiger
Judge of the Superior Court
cc: John Pressley Todd, Esq., Assistant Attorney
General
Thomas J. Phalen, Esq., Counsel for Defendant

App. 190
Philip A. Seplow, Esq., Counsel for Defendant
Victim Services

App. 191

APPENDIX D
IN THE SUPREME COURT OF ARIZONA
En Banc
Supreme Court No. CR-97-0280-AP
Yavapai County No. CR-94-0694
[Filed June 29, 1999]
_____________________________
STATE OF ARIZONA,
)
)
Appellee,
)
)
v.
)
)
GEORGE RUSSELL KAYER, )
aka DAVID FLYNN,
)
aka DAVID WORTHAM,
)
)
Appellant. )
_____________________________ )
OPINION
Appeal from the Superior Court of
Yavapai County
The Honorable William T. Kiger, Judge Pro Tempore
AFFIRMED
__________________________________________________

App. 192
Janet Napolitano, Attorney General
Phoenix
by Paul J. McMurdie, Chief Counsel
Criminal Appeals Division
John Pressley Todd, Assistant Attorney General
Attorneys for Appellee
John M. Sears
Prescott
Attorney for Appellant
_________________________________________________
J O N E S, Vice Chief Justice
¶1
A jury convicted defendant George Russell Kayer
of first-degree murder for taking the life of Delbert L.
Haas. The jury also convicted him of other felonies
related to the killing. Because defendant was sentenced
to death on the murder charge, direct appeal of all
convictions and sentences to this court is mandatory
pursuant to Rules 26.15 and 31.2(b) of the Arizona
Rules of Criminal Procedure. Jurisdiction exists
pursuant to article VI, section 5(3) of the Arizona
Constitution and section 13-4031 of the Arizona
Revised Statutes. We affirm the judgment and
sentences imposed by the trial court.
FACTS
¶2
On December 3, 1994, two couples searching for
Christmas trees on a dirt road in Yavapai County
discovered a body, later identified as Haas. Haas had
been shot twice, evidenced by entry bullet wounds
located roughly behind each ear. On December 12,
1994, Yavapai County Detective Danny Martin
received a phone call from Las Vegas police officer
Larry Ross. Ross told Martin that a woman named Lisa
Kester approached a security guard at the Pioneer

App. 193
Hotel in Las Vegas and said that her boyfriend, the
defendant, had killed a man in Arizona. Kester said a
warrant had been issued for defendant’s arrest in
relation to a different crime, a fact Las Vegas police
officers later confirmed. Kester gave Las Vegas police
officers the gun she said was used to kill Haas, and she
led the officers to credit cards belonging to Haas that
were found inside a white van in the hotel parking lot.
Kester appeared agitated to the police officers and
security guards present and said she had not come
forward sooner because she feared defendant would kill
her, too. She asked to be placed in the witness
protection program. She described defendant’s physical
appearance to the assembled officers and agreed to go
with an officer to the police station.
¶3
A combination of Pioneer Hotel security guards
and Las Vegas police officers soon spotted defendant
leaving the hotel. The officers arrested defendant and
took him to the police station for questioning. Kester
had already been arrested for carrying a concealed
weapon. Detectives Martin and Roger Williamson flew
to Las Vegas on December 13 to interrogate Kester and
the defendant. Kester gave a complete account of
events that she said led to Haas’ death. Defendant, in
contrast, spoke briefly with the detectives before
invoking his Miranda right to have an attorney
present. Miranda v. Arizona, 384 U.S. 436, 444 (1966).
¶4
Kester’s statements to Detectives Martin and
Williamson formed the basis of the State’s prosecution
of defendant. She said that defendant continually
bragged about a gambling system that he had
concocted to defeat the Las Vegas casinos. However,

App. 194
neither defendant nor Kester ever had money with
which to gamble. Defendant was a traveling salesman
of sorts, selling T-shirts, jewelry, and knickknacks. His
only other income came from bilking the government of
benefits through fake identities that both defendant
and Kester created. Defendant learned that Haas
recently received money from an insurance settlement.
Kester and defendant visited Haas at his house near
Cordes Lakes late in November 1994. Kester said that
defendant convinced Haas to come gambling with
them. On November 30, 1994, defendant, Kester, and
Haas left for Laughlin, Nevada in defendant’s van.
¶5
The trio stayed in the same hotel room in
Laughlin, and after the first night of gambling,
defendant claimed to have “won big.” Haas agreed to
loan the defendant about $100 of his settlement money
so that defendant could further utilize his gambling
system. Defendant’s gambling system proved
unsuccessful, and he promptly lost all the money Haas
had given him. However, defendant told Haas again
that he had won big but that someone had stolen his
winnings. Kester asked defendant what they were
going to do now that they were out of money.
Defendant said he was going to rob Haas. When Kester
asked how defendant was going to get away with
robbing someone he knew, defendant said, “I guess I’ll
just have to kill him.”
¶6
The three left Laughlin to return to Arizona on
December 2, 1994. On the road, all three -- but mostly
Haas -- consumed alcohol. Defendant and Haas argued
continually over how defendant was going to repay
Haas. The van made several stops for bathroom breaks

App. 195
and to purchase snacks. At one of these stops,
defendant took a gun that he stored under the seat of
the van and put it in his pants. Defendant asked
Kester if she was “going to be all right with this.”
Kester said she would need a warning before defendant
killed Haas.
¶7
Defendant charted a course through back roads
that he claimed would be a shortcut to Haas’ house.
While on one such road, defendant stopped the van
near Camp Wood Road in Yavapai County. At this stop,
Kester said Haas exited the van and began urinating
behind it. Kester started to climb out of the van as
well, but defendant motioned to her with the gun and
pushed her back into the van. The van had windows in
the rear and on each side through which Kester viewed
what occurred next. Defendant walked quietly up to
Haas from behind while he was urinating, trained the
gun at Haas’ head at point-blank range, and shot him
behind the ear. Defendant dragged Haas’ body off the
side of the road to the bushes where the body was
eventually found. Defendant returned to the car
carrying Haas’ wallet, watch, and jewelry.
¶8
Defendant and Kester began to drive away in
the van when defendant realized that he had forgotten
to retrieve Haas’ house keys. He turned the van around
and returned to the murder scene. Kester and
defendant both looked for the body; Kester spotted it
and then returned to the van. Defendant returned to
the van, too, and asked for the gun, saying that Haas
did not appear to be dead. Kester said defendant
approached Haas’ body and that she heard a second
shot.

App. 196
¶9
Kester and defendant then drove to Haas’ home.
Defendant entered the home and stole several guns, a
camera, and other of Haas’ personal property. He
attempted unsuccessfully to find Haas’ bank PIN
number in order to access Haas’ bank accounts.
Defendant and Kester sold Haas’ guns and jewelry at
pawn shops and flea markets over the course of the
next week, usually under the aliases of David Flynn
and Sharon Hughes. Defendant and Kester went to Las
Vegas where defendant used the proceeds from selling
these items to test his gambling system once again and
to pay for a room at the Pioneer Hotel. At this time,
Kester approached the Pioneer Hotel security guard
and reported defendant’s crime.
PROCEDURAL HISTORY
¶10 On December 29, 1994, a Yavapai County grand
jury indicted both defendant and Kester. Both were
charged with: (1) premeditated first-degree murder,
(2) felony first-degree murder, (3) armed robbery,
(4) residential burglary, (5) theft, (6) trafficking in
stolen property, and (7) conspiracy. In February 1995,
the State filed a notice that it would be seeking the
death penalty against both defendant and Kester.
¶11 In September 1995, as trial approached, Kester
entered into a plea agreement with the State. The plea
agreement required Kester to verify “that all prior
statements made to [Yavapai County Detectives
Martin and Williamson in December 1994] were
truthful.” It also required Kester to “appear at any
proceeding including trial upon the request of the State
and testify truthfully to all questions asked.” It
mandated that Kester “cooperate completely with the

App. 197
State of Arizona in the prosecution of” defendant, and
it allowed the State to dishonor the agreement if
Kester violated any term or condition. In return for
these promises, Kester was charged with facilitation to
commit first-degree murder, facilitation to commit
residential burglary, and facilitation to commit
theft/trafficking in stolen property. These crimes are
class 5 and class 6 felonies and carry significantly
lesser penalties than the murder and felony charges
with which Kester had been charged.
¶12 As the trial date approached and after the
State’s attorney and defendant’s originally appointed
attorney had engaged in substantial pretrial activity,
defendant became disenchanted with his attorney and
refused to cooperate any further. The trial judge was
forced to appoint new counsel for defendant, delaying
the trial for nearly a year. The State dropped all
conspiracy charges, and defendant was eventually tried
in March 1997. At trial, defendant’s entire defense
centered on a claim that Kester -- not defendant -- had
killed Haas and was now framing defendant for the
murder. The State presented extensive evidence,
including forensic evidence, that corroborated Kester’s
testimony and discredited defendant’s testimony. The
jury found defendant guilty on all charges.
¶13 Upon being found guilty, defendant made clear
his desire to expedite the sentencing process. The trial
judge scheduled the initial conference to discuss
sentencing procedures for May 16, 1997, about seven
weeks after defendant’s trial ended. Defendant
reluctantly agreed to continue the initial sentencing
conference until June 6 to allow a court-appointed

App. 198
mitigation specialist, Mary Durand, to begin working
with him. An aggravation/mitigation hearing was
scheduled for June 24 with sentencing to follow July 8.
Durand sought to interview defendant, his family
members, and others in order to discover genetic,
physical, and/or psychological impairments that might
explain defendant’s behavior and thus provide
mitigating evidence that might affect whether the
death penalty or a life sentence should be imposed.
After learning of Durand’s goals with respect to him,
defendant refused to cooperate.
¶14 At the June 6, 1997 sentencing conference,
defendant’s counsel stated that Durand wanted a
minimum of ninety more days to evaluate defendant.
Defendant wanted to proceed with sentencing
immediately and expressed his refusal to cooperate
with Durand. The judge, defendant’s counsel, and
defendant all expressed a belief that defendant was
competent and followed his wish to press forward with
sentencing. However, the judge moved the
aggravation/mitigation hearing from June 24 to July 8,
which required moving sentencing from July 8 to July
15 in order to allow Durand more time with defendant.
¶15 At both the aggravation/mitigation hearing and
the sentencing hearing, the judge again asked if
defendant had reconsidered and would like more time
to allow Durand to investigate potential mitigating
evidence. Each time, defendant refused the offer and
stated he would not cooperate with Durand no matter
how long sentencing was delayed.
¶16 On July 15, 1997, the trial judge sentenced
defendant to death for the first-degree murder and

App. 199
felony murder charges, thirty-five years in prison for
the armed robbery and trafficking in stolen property
charges, twenty-five years in prison for the residential
burglary charge, and just under six years for the theft
charge. All sentences were aggravated and consecutive,
except the theft charge, which the court ordered to be
served concurrent with the trafficking in stolen
property offense but consecutive to the residential
burglary offense. The judge found that the state
established two aggravating factors beyond a
reasonable doubt -- previous conviction of a “serious
offense” pursuant to A.R.S. § 13-703(F)(2) and
committing murder for pecuniary gain pursuant to
A.R.S. § 13-703(F)(5). The judge found that defendant
established no statutory mitigating factors under
A.R.S. § 13-703(G) and found the presence of only one
nonstatutory mitigator -- defendant’s importance in the
life of one of his children. After weighing the
aggravating and mitigating factors, the judge imposed
the death sentence, expressly finding that by failing to
cooperate with Durand, defendant hampered his own
ability to present mitigating evidence that might have
reduced his sentence to life imprisonment.
ISSUES
I. Kester’s Plea Agreement
¶17 Defendant argues that Kester’s plea agreement
violated his federal and state constitutional rights
against being tried and convicted without due process
of law. In State v. Fisher, 176 Ariz. 69, 73, 859 P.2d
179, 183 (1993), this court held that plea agreements
must “properly be conditioned upon truthful and
complete testimony.” In contrast, “consistency

App. 200
provisions,” which require that testimony at trial “will
not vary substantially in relevant areas to the
statements previously given to investigative officers,”
are invalid. Id. Defendant claims that Kester’s
agreement contained a consistency provision, barred by
Fisher, because it improperly coerced Kester to testify
against him and prevented her from ever recanting her
story unless she wanted to face the death penalty
again.
¶18 Defendant did not object to the form of the
agreement at trial. Instead, defendant’s attorney crossexamined Kester with respect to the agreement in an
attempt to impeach her credibility as a witness.
Because no objection was made to Kester’s plea
agreement at trial, we review the claim only for
fundamental error. See State v. Cook, 170 Ariz. 40, 58,
821 P.2d 731, 749 (1991).
¶19 In Cook, we addressed a similar claim regarding
“consistency provisions” in a plea agreement. Drawing
an analogy to claims of ineffective assistance of
counsel, we determined that this court was not the
forum to challenge a plea agreement for the first time
because “the trial court has not had the opportunity to
conduct an evidentiary hearing on the question and to
develop a record on the issue for us to examine on
appeal.” Id. We determined that when no objection is
made at trial, this court, on direct appeal, can neither
determine whether fundamental error has been
committed, nor can we, in the absence of an evidentiary
record, review the alleged “consistency provisions” in
the plea agreement. The “preferred procedure” is to

App. 201
attack the agreement in a proceeding for postconviction relief. Id. at 58-59, 821 P.2d at 749-50.
¶20 Defendant’s claim suffers the same deficiencies
decried in Cook. No objection was made before trial or
at trial to the form of Kester’s plea agreement. Thus,
the trial court was not able to conduct an evidentiary
hearing with respect to the plea agreement and its
validity. In fact, instead of objecting to the form of the
plea agreement, defendant’s own attorneys insisted
that the plea agreement, which defendant now attacks
on appeal, be entered into evidence when State
attorneys appeared content to have Kester recite
excerpts of the agreement’s terms into the record. Trial
counsel must object to a potentially invalid plea
agreement at the trial level in order for this court, on
appeal, to assess whether the agreement runs afoul of
our holding in Fisher as well as our subsequent
analysis and holding in Cook.1
II. Jury Selection
¶21 Defendant argues that the jury selection process
violated his federal and state constitutional rights to be
tried by an impartial and representative jury. See U.S.
Const., amend. VI; Ariz. Const. art. II, § 24. Defendant
asserts two broad claims in this regard. First, he
argues that the “death qualification” procedures used
by the trial judge created a jury that was biased
against him and was prone to impose the death
penalty. Second, he contends that the court improperly
1

Given our resolution of this issue, we do not decide whether
Kester’s plea agreement includes a “consistency provision” of the
kind we held unenforceable in Fisher.

App. 202
dismissed one juror who expressed reservations about
serving as a juror in a case that could result in a death
sentence.
A. Death Penalty Questioning
¶22 Defendant’s general attack on the use of any
questions addressing the death penalty is subject to de
novo review to assess whether the judge’s questions
were allowable under Arizona law. See State v. Hyde,
186 Ariz. 252, 278, 921 P.2d 655, 681 (1996); cf. State
v. Orendain, 188 Ariz. 54, 56, 932 P.2d 1325, 1327
(1997) (requiring jury instructions accurately to state
the law). In State v. Martinez-Villareal, 145 Ariz. 441,
702 P.2d 670 (1985), we discussed voir dire questioning
related to a juror’s personal views of the death penalty:
We have expressly held that jury questioning
regarding capital punishment is permissible
where the questioning determines bias of a
nature which would prevent a juror from
performing his duty. Under the procedure used
in Arizona in death penalty cases, the jurors’
duty is to determine guilt or innocence, while
the sentence of death is solely the responsibility
of the trial judge. Nevertheless, voir dire
questioning related to a juror’s views on
capital punishment is permitted to
determine whether those views would
prevent or substantially impair the
performance of the juror’s duties to decide
the case in accordance with the court’s
instructions and the juror’s oath.

App. 203
Id. at 449, 702 P.2d at 678 (emphasis added). We have
reiterated this holding several times. See State v.
Stokley, 182 Ariz. 505, 514, 898 P.2d 454, 463 (1995)
(finding that death-qualification questioning does not
constitute error, “fundamental or otherwise”); State v.
Salazar, 173 Ariz. 399, 411, 844 P.2d 566, 578 (1992)
(finding that the death-qualification issue had been
waived, but “there is, in any event, no error,
fundamental or otherwise”); State v. Atwood, 171 Ariz.
576, 624, 832 P.2d 593, 641 (1992) (impartial jury
requirement is fulfilled when conscientious jurors are
selected, quoting Martinez-Villareal). The United
States Supreme Court standard under the Sixth
Amendment is identical to that stated by this court in
Martinez-Villareal. See Wainwright v. Witt, 469 U.S.
412, 424 (1985) (juror could be dismissed for cause
upon a showing that the juror’s views with respect to
the death penalty would “prevent or substantially
impair the performance of his duties as a juror in
accordance with his instructions and his oath” (quoting
Adams v. Texas, 448 U.S. 38, 45, (1980)); State v.
Detrich, 188 Ariz. 57, 65, 932 P.2d 1328, 1336 (1997)
(observing that Arizona follows the federal standard
stated in Wainwright).
¶23 The court’s voir dire questioning in the instant
case followed the strictures of federal and Arizona law.
The trial judge questioned the jurors in groups of three
and asked each juror, “[K]nowing what your duty as a
juror is, do you believe that this kind of a case [a
potential death penalty case] would be such that you
could not be a fair and impartial juror?” Upon receiving
confirmation that a particular juror would be fair and
impartial, as mandated by a juror’s oath, the judge

App. 204
asked no further questions regarding the death
penalty. We find no error in the court’s questions.
B. Juror DeMar
¶24 Only one juror was excused as a result of the
death-qualification questioning -- Juror Ed DeMar.
Defendant challenges DeMar’s dismissal. We have held
that a general objection to death penalty questioning
does not serve as an objection to preserve on direct
appeal the issue of whether individual jurors were
improperly dismissed for cause because of their death
penalty views. See Detrich, 188 Ariz. at 65, 932 P.2d at
1336. Because defendant failed specifically to object to
Juror DeMar’s dismissal, we review DeMar’s dismissal
only for fundamental error. See id.
¶25 In response to death-penalty questioning by the
court, DeMar expressed some concern about a
proceeding that might lead to the death penalty.
Rather than have DeMar explain further in front of the
other two jurors present, the judge asked DeMar to
step outside for a moment so that questioning could
continue with the other two jurors who had expressed
no concern regarding the death penalty. DeMar later
was brought before the judge alone, and this exchange
took place:
Court: So we are talking about whether or
not you had any personally-held beliefs,
philosophical opinions, or religious convictions
that would get in the way and make it difficult
or impossible for you to be a fair and impartial
juror knowing that the death penalty was a
possibility.

App. 205
DeMar: Yes. That would be a -- I would have
reservations about an action in which the death
penalty might be imposed or could be imposed.
....
Court: And would it get in your way, then, of
being a fair and impartial juror as the process
continued?
DeMar: It might, again depending on what -how much of a factor became evidence in
testimony and what have you.
Court: Okay.
DeMar: But it would not be -- be a handsdown opposition to the death penalty as such.
Court: I understand what you’re saying, and
of course at this point we are looking for
whether or not you can work in this trial as a
fair and impartial juror to both defendant and
the State.
DeMar: I understand.
Court: Let me -- let me try it this way, to -knowing what you know right now, knowing
your personal opinions and beliefs and what you
know the job of the juror to be, because this is a
possibility of a death penalty case at this point,
would you like me to excuse you from jury duty
in this case?

App. 206
DeMar: I think that probably would be fair
to the -- to the State and to the defense, both
really, since that reservation is honestly held.
Court: Okay. Okay.
Mr. DeMar, I’m going to accept what you
tell me. I’m going to thank you for spending now
a day and a half with us and putting up with all
of our questioning, and I’m going to excuse you
from jury duty in this case, with our sincere
appreciation.
¶26 This exchange makes clear that the judge was
willing to allow DeMar to continue as a potential juror
upon a simple assurance that DeMar could be fair and
impartial. Because DeMar could not give such an
assurance, he accepted the court’s decision that he be
excused from the jury panel in order to be fair to both
the defendant and the State.
¶27 Similarly, our case law is clear that a trial judge
must excuse any potential jurors who cannot provide
assurance that their death penalty views will not affect
their ability to decide issues of guilt. See Detrich, 188
Ariz. at 65, 932 P.2d at 1336 (urging as “imperative”
the dismissal of any juror who cannot assure
impartiality on guilt issues because of views regarding
the death penalty (citing State v. Hyde, 186 Ariz. 252,
921 P.2d 655 (1996))). Thus, the trial court did not err
in asking DeMar questions regarding the death
penalty, nor did the court err in allowing DeMar to be
excused from jury service given the presence of
“honestly held” reservations regarding the death

App. 207
penalty that might have affected DeMar’s ability to
carry out his oath with respect to issues of guilt.
III. Sentencing Issues
¶28 In assessing the propriety of a death sentence,
this court reviews independently the findings of the
trial court regarding aggravating and mitigating
circumstances. See A.R.S. § 13-703.01; State v. Djerf,
191 Ariz. 583, 595, 959 P.2d 1274, 1286 (1998); State v.
Jones, 185 Ariz. 471, 492, 917 P.2d 200, 221 (1996);
State v. Roscoe, 184 Ariz. 484, 500, 910 P.2d 635, 651
(1996). The State must prove the existence of statutory
aggravating factors beyond a reasonable doubt. See
State v. Brewer, 170 Ariz. 486, 500, 826 P.2d 783, 797
(1992). Defendant has the burden of presenting and
proving mitigating circumstances -- statutory and
nonstatutory -- by a preponderance of the evidence. See
id. at 504, 826 P.2d at 801; State v. Ramirez, 178 Ariz.
116, 131, 871 P.2d 237, 252 (1994). On appeal, this
court must determine whether defendant’s mitigating
evidence, assessed separately or cumulatively,
outweighs aggravating evidence presented by the
State. See Djerf, 191 Ariz. at 595, 959 P.2d at 1286;
Brewer, 170 Ariz. at 500, 826 P.2d at 797.
A. Aggravating Circumstances
¶29 At trial, the State argued that three aggravating
circumstances under section 13-703 applied to
defendant. The court determined the State proved the
existence of two such circumstances beyond reasonable
doubt -- sections 13-703(F)(2) and 13-703(F)(5).

App. 208
1. A.R.S.
§
13-703(F)(2):
Previous
Conviction of a Serious Offense
¶30 Defendant argues the trial court improperly
found that he “was previously convicted of a serious
offense, whether preparatory or completed.” A.R.S.
§ 13-703(F)(2) (Supp. 1998). The legislature amended
the (F)(2) factor in 1993. Prior to the amendment,
(F)(2) was established if “[t]he defendant ha[d] been
convicted of a felony in the United States involving the
use or threat of violence on another person.” The
language “use or threat of violence” proved nebulous
and difficult to apply, which led to the 1993
amendment and the addition of subsection (H). See
State v. Rienhardt, 190 Ariz. 579, 589, 951 P.2d 454,
464 (1997); State v. Walden, 183 Ariz. 595, 616 & n.10,
905 P.2d 974, 995 & n.10 (1995). Subsection (H)
enumerates “serious offense[s]” that trigger the (F)(2)
aggravator. Because Haas was murdered in 1994, the
amended version of (F)(2), with the subsection (H)
enumeration, applies. See Rienhardt, 190 Ariz. at 589,
951 P.2d at 464.
¶31 Section 13-703(H)(9) declares that burglary in
the first degree is a “serious offense” that qualifies as
a predicate to the (F)(2) aggravator. The State
presented documentation of defendant’s 1981
conviction of first-degree burglary. Based on this
documentation, the court determined the (F)(2)
aggravator had been proved beyond a reasonable
doubt. The State thus met its burden of showing that
defendant had been previously convicted of a “serious
offense” under section 13-703(F)(2).

App. 209
2. A.R.S. § 13-703(F)(5): Pecuniary Gain
¶32 Defendant challenges the trial court’s finding
that the State proved the “pecuniary gain” factor
beyond a reasonable doubt. This aggravator exists
when “[t]he defendant committed the offense as
consideration for the receipt, or in expectation of the
receipt, of anything of pecuniary value.” A.R.S. § 13703(F)(5). To establish (F)(5), “pecuniary gain [must be]
a motive, cause, or impetus for the murder and not
merely the result of the murder.” State v. Spears, 184
Ariz. 277, 292, 908 P.2d 1062, 1077 (1996). See also
State v. Spencer, 176 Ariz. 36, 43, 859 P.2d 146, 153
(1993); State v. Correll, 148 Ariz. 468, 479, 715 P.2d
721, 732 (1986) (noting that pecuniary gain does not
exist in every case where “a person has been killed and
at the same time defendant has made a financial
gain”).
¶33 The State can establish pecuniary gain beyond
reasonable doubt through presentation of direct,
tangible evidence or through strong circumstantial
evidence. See State v. Greene, 192 Ariz. 431, 439, 967
P.2d 106, 114 (1998); State v. Hyde, 186 Ariz. 252, 280,
921 P.2d 655, 683 (1996). A financial motive need not
be the only reason the murder was committed for the
pecuniary gain aggravator to apply. See Greene, 192
Ariz. at 438-39, 967 P.2d at 113-14; State v. Soto-Fong,
187 Ariz. 186, 208, 928 P.2d 610, 632 (1996); Hyde, 186
Ariz. at 280, 921 P.2d at 683 (“Pecuniary gain need not
be the exclusive cause for a murder” in order to satisfy
(F)(5)); State v. Greenway, 170 Ariz. 155, 164, 823 P.2d
22, 31 (1991) (motive of witness elimination did not

App. 210
foreclose the possibility of finding an additional motive
to commit murder for pecuniary gain).
¶34 The State proved pecuniary gain in this case
beyond a reasonable doubt. Kester and other witnesses
testified that defendant continually bragged about his
gambling system and observed his addictive behavior
of constantly wanting money with which to gamble.
Kester testified that defendant said he planned to steal
from Haas and then kill him so that defendant could
get away with killing someone he knew. Defendant
took Haas’ money, credit cards, and other personal
items from the crime scene. Kester testified that
defendant also took Haas’ house keys after the murder,
entered the home, and stole several additional items of
personal property. Another witness at trial observed
Kester and defendant at Haas’ home at about the time
established by Kester. Pawn shop receipts and witness
testimony established that after Haas was murdered,
defendant sold virtually all of Haas’ jewelry and guns.
In short, the State presented overwhelming
circumstantial and direct evidence that defendant
killed with the expectation of pecuniary gain. This
proof far exceeds the requirement that pecuniary gain
must be only a motive for the crime.
B. Mitigating Circumstances
¶35 Defendant
offered
seven
mitigating
circumstances, one statutory and six nonstatutory, for
the court to consider at the sentencing hearing:
(1) intoxication causing an inability to appreciate the
wrongfulness of his conduct under A.R.S. § 13703(G)(1), (2) intoxication not rising to the level of
establishing the statutory (G)(1) mitigator,

App. 211
(3) defendant’s military record, (4) the disparity in
sentences between defendant and Kester,
(5) defendant’s poor health, (6) defendant’s intelligence
and ability to contribute to society, and (7) defendant’s
devotion to his youngest child. The court found the
existence of only one mitigating factor -- the
importance of defendant in the life of his son.
¶36 Defendant argues on appeal that in addition to
these factors, the court should have: (1) forced
defendant to cooperate with his court-appointed
mitigation specialist, (2) found defendant mentally
impaired, and (3) considered sua sponte the high cost of
execution as a mitigating circumstance.
1. Failure to Cooperate with a CourtAppointed Mitigation Expert
¶37 Defendant repeatedly refused to cooperate with
his court-appointed mitigation specialist and instead
sought to expedite sentencing. He now argues the trial
court erred when it allowed him this freedom. On
appeal, defendant characterizes his refusal as legal
incompetence or improper control over the presentation
of mitigation evidence that amounts to a de facto and
improper waiver of his right to counsel. We disagree.
a. Competency
¶38 A defendant is deemed legally competent if he or
she has demonstrated an ability to make a reasoned
choice among alternatives, with an understanding of
the consequences of the choice. See State v. Brewer,
170 Ariz. 486, 495, 826 P.2d 783, 792 (1992) (citing
Sieling v. Eyman, 478 F.2d 211, 215 (9th Cir. 1973));
State v. Bishop, 162 Ariz. 103, 781 P.2d 581 (1989);

App. 212
State v. Pierce, 116 Ariz. 435, 569 P.2d 865 (App.
1977). For a defendant’s choice to be found competent,
proof must exist that the defendant’s decision was
voluntary, knowing, and intelligent. See Djerf, 191
Ariz. at 592, 959 P.2d at 1283 (discussing competency
as it relates to a decision to waive counsel). Competent
choices are not to be equated with wise choices;
competent defendants are allowed to make choices that
may not objectively serve their best interests. See
Brewer, 170 Ariz. at 495, 826 P.2d at 792.
¶39 Defendant’s competency claim centers on certain
snippets of dialogue he was allowed to interject at
various sentencing hearings wherein he referred to
UFOs and biblical passages. At the June 6 preliminary
sentencing hearing, defendant referred to a heart
attack he suffered two months before Haas was
murdered, saying that “[i]n October of 1994, in
Oklahoma City in the emergency room, I expired. I
died. I was brought back to life.” Later during this
same hearing, defendant again spoke about his
decision not to cooperate with Durand and with his
desire to expedite sentencing:
I think one of the points that needs to be
brought out is that none of us know [sic] what is
right. One of the things that God didn’t instill in
human beings is the ability to judge. We can’t
see around the corner. . . .
I think that . . . an example of this is to be
found in the Bible where it says every hair on
your head is counted. I’ve been grabbed by the
balls and drug here by destiny, and I don’t know
what’s going to be around the corner any more

App. 213
than anybody else here does. But I think it’s
important to the Court that the Court
understands just a little of where I’m at, and
hear it from me instead of a specialist or the
counsel or presentence report lady.
And that’s really all I have to say. Thank
you.
¶40 At the July 8 aggravation/mitigation hearing,
defendant addressed the court after all the aggravation
and mitigation evidence had been presented:
I’ve been convicted of a murder, premeditated, a
murder to rob -- the people of Arizona through
their laws say perhaps I should be murdered,
premeditated, by the State. An eye for an eye,
. . . the death penalty it’s now called.
That kind of amazes me, because I’ve lived -lived in a dorm full of men for two years and
nine months, and it’s -- excuse me -- it’s rare to
see them agree on anything, even as bad as the
food is. I have had to ask myself what reason
could I possibly have that 70 percent of the
people would understand, what reason did I
have for that? Sixteen [sic] jurors that found me
guilty. What reason did I have for the judge
passing sentence on me? I didn’t have one.
I had a lot of reasons, but I was seeking
[something] deeper, something profound, yet
simple, something that would reach the very
center of the people involved. Four days ago I
still didn’t have one, and the reason that I was
seeking -- I haven’t been able to sleep very well
lately, and I awoke about an hour into the 4th of

App. 214
July, restless, still wondering what I would say
or do on this very day.
I reached over and picked up the Bible. I
don’t read the Bible a lot, but I was given the
reason. It was profound and simple, and
astonishingly from the very source the people of
Arizona find an eye for an eye. The source is, of
course, the Old Testament, Deuteronomy 19, but
before I reached the Verse 21, an eye for an eye,
I ask you to back up and look at Verse 15. And I
quote:
“One witness shall not rise up against a man,
but by the mouths of two or three witnesses the
matter shall be established.”
Beware of one witness wherein the source
the people use. Beware of one witness that
would lie -- or, excuse me -- that would die if she
didn’t lie. Beware of one witness who in her
presentence report on page 9 said she spent all
her thousands of money that she received on
drugs before she met me, then lied during the
trial saying I gambled away four or five
thousand of her money.
Beware of one witness that offered to sell her
soul to Detective Dan Martin for $100 a week in
an apartment until the trial, but only after the
tape recorder was turned off. She didn’t know
the video camera was running in the video room.
On March 13th, 1997, 10,000 people in Arizona
saw seven UFO’s over Phoenix; 11 people came
forward with a videotape of this. And the
government says it didn’t happen.
Yet one witness, one ex-drug addict, one
witness, staring down the barrel of the death

App. 215
penalty herself but is getting probation, one
witness is good enough for the same government
to kill me. Somebody needs to wake up and
change the channel, because there’s definitely
something wrong with that picture.
There’s one other thing that I’d like to say,
and that’s -- I really regret not going to the
authorities when this initially happened.
Thank you.
¶41 After thoroughly reviewing the entire record, we
conclude that defendant was competent when he
decided not to cooperate with Durand. Taken in
context, these bizarre passages quoted do not refute
but rather bolster the conclusion that defendant was
intelligent, had an understanding of what was
occurring, and voluntarily made the decision not to
cooperate. He understood the alternatives and the
consequences of refusing to cooperate and nevertheless
chose that path. He reaffirmed his decision not to
cooperate several times, once saying that he did not
have a death wish but that he believed the
psychological evidence Durand wished to pursue would
not produce mitigating evidence. Significantly,
defendant’s own attorneys expressed on the record a
belief that defendant understood his choices and the
consequences of those choices. See Djerf, 191 Ariz. at
592, 959 P.2d at 1283 (noting that attorneys’
assurances of competence were significant to the
competency issue).
¶42 The trial judge, too, stated that defendant
understood the proceedings and the consequences of
his choices. Defendant was evaluated pursuant to Rule

App. 216
11, Arizona Rules of Criminal Procedure, before his
trial started and was deemed competent to stand trial
at that time. Nothing occurred in the interim to
question the validity of this determination or to
suggest that a new evaluation was necessary. See 17
A.R.S. Rules of Crim. Proc., Rule 26.5 (providing trial
judges with discretion to order a mental health or
diagnostic examination at any time before a sentence
is pronounced); cf. Roscoe, 184 Ariz. at 498, 910 P.2d at
649 (subjecting defendant to two mental health
examinations after repeated suicide attempts). The
record indicates that defendant was articulate, aware
of the proceedings, and knowledgeable about the
potential consequences of his choices. On this record,
we conclude that defendant was competent when he
chose not to cooperate with Durand and chose to
expedite his sentencing proceedings, despite the fact
that his decision may have limited the mitigation
evidence offered on his behalf.
b. Waiver of Mitigation Evidence
¶43 Defendant argues that even if he was competent,
the trial judge improperly allowed him to control the
presentation of mitigation evidence. Defendant relies
heavily on our decision in State v. Nirschel, 155 Ariz.
206, 745 P.2d 953 (1987) to support his argument. In
Nirschel, we held that three decisions are exclusively
within the province of the defendant: (1) whether to
plead guilty, (2) whether to waive a jury trial, and
(3) whether to testify. See id. at 208, 745 P.2d at 955.
“Beyond these matters, most trial decisions are matters
of trial strategy resting with counsel.” Id. (emphasis
added).

App. 217
¶44 Nirschel, which specifically addressed the
attorney’s right to control a motion to suppress, does
not preclude a defendant from refusing to cooperate
with a mitigation specialist. We have stated that a
competent defendant can waive counsel altogether. See
Djerf, 191 Ariz. at 592, 959 P.2d at 1283. A defendant’s
right to waive counsel includes the ability to represent
himself or herself at the sentencing phase of a case
that could result in the death penalty. See State v.
Henry, 189 Ariz. 542, 550, 944 P.2d 57, 65 (1997).
¶45 In State v. Roscoe, we allowed the defendant to
control whether or not mitigation evidence regarding
two prior suicide attempts was presented, determining
that this freedom was “especially appropriate . . .
where the client’s request involves a strong privacy
interest.” 184 Ariz. 484, 499, 910 P.2d 635, 650 (1996).
The United States Supreme Court has upheld a
defendant’s right to waive all mitigating evidence. See
Blystone v. Pennsylvania, 494 U.S. 299, 306 & n.4
(1990) (no constitutional violation occurred when a
defendant was allowed to waive all mitigation evidence
after repeated warnings from the judge and advice
from counsel). Thus, read in context with other cases,
Nirschel cannot be seen as providing an exclusive list
of the areas in which a defendant’s decision controls,
especially since Nirschel’s list does not include the
Roscoe right to waive mitigation evidence. An anomaly
would exist were we to accept defendant’s argument
that counsel exclusively controls the presentation of all
mitigation evidence: a defendant could waive counsel
at sentencing and thereby have exclusive control over
the presentation of all mitigation evidence; yet if a

App. 218
defendant accepts counsel, he would have no input on
what mitigating factors to offer.
¶46 Far from creating such an anomaly, our case law
allows defendant the freedom not to cooperate with a
mitigation specialist and thereby potentially limit the
mitigation evidence that is offered. Significantly,
defendant stressed to the trial judge that he wanted
Durand to advocate on his behalf at the mitigation
hearing. Defendant also wanted his attorneys to argue
other mitigating evidence. Consequently, seven
mitigating circumstances were offered. Durand
testified on defendant’s behalf, albeit without
defendant’s full cooperation. Defendant was not
conceding defeat; he wanted advocacy in all areas
except the psychological areas that Durand wanted to
explore. Just as the defendant in Roscoe “got exactly
what he wanted” when the trial judge honored his
request and thereby potentially limited the mitigating
evidence that was offered, so, too, did the defendant
here. 184 Ariz. at 499, 910 P.2d at 650.
¶47 We conclude that the trial court properly allowed
defendant not to cooperate with the court-appointed
mitigation specialist, given the repeated warnings of
the consequences of this decision and the factual record
before us.
2. A.R.S. § 13-703(G)(1): Inability to
Appreciate Wrongfulness of Conduct
¶48 Defendant argues that Durand’s testimony and
information from defendant’s Rule 11 pretrial mental
health evaluation combined to establish the (G)(1)
mitigating factor -- that “defendant’s capacity to

App. 219
appreciate the wrongfulness of his conduct or to
conform his conduct to the requirements of law was
significantly impaired, but not so impaired as to
constitute a defense to prosecution.” Defendant argues
that his history of mental illness, including a history of
suicide ideation, a history of alcoholism in his family,
and his own polysubstance abuse, establishes the
existence of this mitigating factor under the
preponderance standard.
¶49 Voluntary intoxication or substance abuse can be
a mitigating factor that supports a (G)(1) finding. See
State v. Stokley, 182 Ariz. 505, 520, 898 P.2d 454, 469
(1995) (intoxication); State v. Medrano, 185 Ariz. 192,
194-95; 914 P.2d 225, 227-28 (1996) (substance abuse).
Proving a mental illness by a preponderance of the
evidence also may establish the (G)(1) mitigator. See
State v. Bolton, 182 Ariz. 290, 313, 896 P.2d 830, 853
(1995); State v. (Rudi) Apelt, 176 Ariz. 369, 377, 861
P.2d 654, 662 (1993); Brewer, 170 Ariz. at 505, 826
P.2d at 802. However, personality or character
disorders usually are not sufficient to satisfy this
statutory mitigator. See Bolton, 182 Ariz. at 313, 896
P.2d at 853; Apelt, 176 Ariz. at 377, 861 P.2d at 662. A
defendant must show a causal link between the alcohol
abuse, substance abuse, or mental illness and the
crime itself in order to meet the preponderance
standard. See State v. Henry, 189 Ariz. 542, 552-53,
944 P.2d 57, 67-68 (1997); State v. Jones, 185 30 Ariz.
471, 492, 917 P.2d 200, 221 (1996); Apelt, 176 Ariz. at
377, 861 P.2d at 662. A trial judge has broad discretion
to determine the credibility and weight of evidence
offered to support the (G)(1) mitigator, especially
mental health evidence. See State v. Doerr, 193 Ariz.

App. 220
56, 69, 969 P.2d 1168, 1181 (1998); Ramirez, 178 Ariz.
at 131, 871 P.2d at 252.
¶50 Defendant did not establish as threshold
evidence the existence of any of these factors, let alone
their influence on preventing him from conforming his
conduct to the law or appreciating the wrongfulness of
his conduct. Defendant’s Rule 11 mental health
evaluation revealed no impairment that would prevent
him from standing trial. His court-appointed
mitigation specialist did not identify the existence of
any mental illness with the certainty required to
establish this mitigating circumstance. Further, he
offered no proof that he was intoxicated or impaired at
the time of the murder.
¶51 He also offered no proof that his past
polysubstance abuse prevented him from conforming
his conduct to the law or appreciating its wrongfulness
when the murder occurred. We have consistently held,
and we hold now, that voluntary intoxication,
polysubstance abuse, or claimed mental illness will not
satisfy the (G)(1) mitigator when the evidence, as here,
is speculative, conflicting, or nonexistent. See State v.
Tankersley, 191 Ariz. 359, 372, 956 P.2d 486, 499
(1998) (alcohol may have caused some impairment, but
not enough to meet the (G)(1) mitigator); Rienhardt,
190 Ariz. at 591-92, 951 P.2d at 466-67 (no evidence
offered that could establish the level of intoxication);
State v. Schackart, 190 Ariz. 238, 251, 947 P.2d 315,
328 (1997) (mental health expert offered inconclusive
evidence related to mental illness); State v. Spreitz,
190 Ariz. 129, 149-50, 945 P.2d 1260, 1280-81 (1997)
(long-time substance abuse problems insufficient to

App. 221
establish the (G)(1) mitigator); State v. Jones, 188 Ariz.
388, 400, 937 P.2d 310, 322 (1997) (insufficient
evidence to show methamphetamine use impaired
conduct on the day of the murder); State v. Thornton,
187 Ariz. 325, 335, 929 P.2d 676, 686 (1996) (expert
testimony conflicted with respect to mental illness;
(G)(1) not established); State v. Miller, 186 Ariz. 314,
326, 921 P.2d 1151, 1163 (1996) (defendant’s ability to
drive after the murder discredited any assertion that
intoxication existed to establish (G)(1) mitigator); State
v. Medrano, 185 Ariz. 192, 194-95, 914 P.2d 225, 22728 (1996) (self-reported use of cocaine on day of murder
not enough to establish (G)(1) mitigator); Bolton, 182
Ariz. at 313, 896 P.2d at 853 (insufficient evidence to
establish mental illness, despite two psychiatric
experts’ testimony on defendant’s behalf); State v.
King, 180 Ariz. 268, 282, 883 P.2d 1024, 1038 (1994)
(nothing in the record showed intoxication or level of
intoxication).
3. Mental Impairment as a Nonstatutory
Mitigator
¶52 Defendant’s alleged mental impairment on the
day he murdered Haas, whether attributed to
historical substance abuse or a mental disorder, also
must be considered as a nonstatutory mitigating
circumstance. See Jones, 185 Ariz. at 491, 917 P.2d at
220 (mental health disorders); State v. Gallegos, 178
Ariz. 1, 18-19, 870 P.2d 1097, 1114-15 (1994)
(intoxication); State v. Kiles, 175 Ariz. 358, 373, 857
P.2d 1212, 1227 (1993) (intoxication/substance abuse);
Brewer, 170 Ariz. at 505, 826 P.2d at 802 (character
and personality disorders weighed as nonstatutory

App. 222
mitigating evidence). The trial judge limited his
discussion of impairment to impairment caused by
intoxication. Our discussion of impairment, however,
includes the mental health considerations urged on
appeal. In the special verdict form, the trial judge
referred to defendant’s past diagnosis and treatment
for a bipolar or manic depressive condition. The judge
noted that defendant had consumed some beer on the
trip back to Haas’ home and that defendant had
historically been a polysubstance abuser. The court
discussed defendant’s Rule 11 evaluation before trial,
which “found some unusual results in the MMPI and
some possible problems with paranoia.” The judge
referred to an incident that occurred before Haas’
murder where defendant once carried a cyanide pill to
a mental health evaluation. Defendant told the doctor
that he brought the pill in case he needed it to kill
himself.
¶53 Further, at the aggravation/mitigation hearing,
Durand speculated that defendant suffered from
mental difficulties, based on interviews with
defendant’s family and probation department reports.
Durand conjectured that defendant’s bed-wetting as a
child and the existence of several dysfunctional
relationships were factors indicating potential mental
problems.
¶54 But the record shows that the existence of
impairment, from any source, is at best speculative.
Further, in addition to offering equivocal evidence of
mental impairment, defendant offered no evidence to
show the requisite causal nexus that mental
impairment affected his judgment or his actions at the

App. 223
time of the murder. See Jones, 185 Ariz. at 492, 917
P.2d at 221; Apelt, 176 Ariz. at 377, 861 P.2d at 662.
Thus, we conclude that the trial court ruled correctly
that impairment was not established as a nonstatutory
mitigating factor by a preponderance of the evidence.
4. Military Record
¶55 We have on rare occasions found that a
defendant’s military record warranted consideration as
a mitigating circumstance. See Spears, 184 Ariz. at
293-94, 908 P.2d at 1078-79 (giving “some weight” to
this factor in combination with defendant’s
background, love of family, employment history, and
good conduct during incarceration); State v. Lavers,
168 Ariz. 376, 396, 814 P.2d 333, 353 (1991)
(considering military service and employment history
together as a mitigating circumstance); State v.
Johnson, 131 Ariz. 299, 305, 640 P.2d 861, 867 (1982)
(considering defendant’s military history, family ties,
and good reputation as mitigation, but not enough to
warrant leniency).
¶56 In Spears, the defendant served two full terms
in the military (each lasting four years) and had
compiled an unblemished record. 184 Ariz. at 294, 908
P.2d at 1079. In contrast, defendant herein served one
year in the military before requesting release. Given
the record before us in relation to defendant’s military
service, we find no error in the trial judge’s conclusion
that defendant’s service was not a mitigating
circumstance worthy of consideration in this case.

App. 224
5. Sentencing Disparity
¶57 A disparity in sentences between codefendants
and/or accomplices can be a mitigating circumstance if
no reasonable explanation exists for the disparity. See
Henry, 189 Ariz. at 551, 944 P.2d at 66; State v. Mann,
188 Ariz. 220, 230, 934 P.2d 784, 794 (1997); State v.
Schurz, 176 Ariz. 46, 57, 859 P.2d 156, 167 (1993).
Here, the trial court stated that “[i]n this case, there is
a clear explanation that is essentially the same as
noted by the Supreme Court in the Mann case.” In
Mann, we did not find sentencing disparity to be a
mitigating factor when an accomplice who aided in
stealing drugs and in committing the murder was not
charged with any crime and the defendant received a
death sentence. We determined the disparity was
explained because defendant was the instigator of the
crime and the actual killer; further, the accomplice was
given sentencing immunity by the State in exchange
for testimony against the actual killer. See State v.
White, 1999 WL 374369 (Ariz.) (1999).
¶58 The trial judge correctly observed that the same
explanation for sentencing disparity exists in this case.
The State entered a plea agreement with Kester and
presented substantial evidence that showed defendant
was the instigator of Haas’ murder and the actual
killer. See also State v. Dickens, 187 Ariz. 1, 26, 926
P.2d 468, 493 (1996) (age differences and existence of
plea agreement justified sentencing disparity); Stokley,
182 Ariz. at 523-24, 898 P.2d at 472-73 (existence of
valid plea agreement explained sentencing disparity);
State v. Detrich, 188 Ariz. 57, 68-69, 932 P.2d 1328,
1339-40 (1997) (appropriate plea agreement and less

App. 225
culpability explained sentencing disparity). The trial
court did not err when it concluded that sentencing
disparity was not established as a mitigating factor by
a preponderance of the evidence.
6. Intelligence
¶59 Intelligence is most often considered in our case
law on mitigation as part of our assessment whether
the age factor should apply. See A.R.S. § 13-703(G)(5);
Djerf, 191 Ariz. at 598, 959 P.2d at 1289; Soto-Fong,
187 Ariz. at 210, 928 P.2d at 634; State v. Gallegos, 185
Ariz. 340, 346, 916 P.2d 1056, 1062 (1996). Intelligence
also has been considered as part of determining
whether a head injury caused damage sufficient to
warrant consideration as a mitigating factor. See
Stokley, 182 Ariz. at 521, 898 P.2d at 470. The cases
that have evaluated intelligence as an independent
mitigating factor have concluded that evidence of
intelligence, as in defendant’s case, is not a mitigating
factor. See Henry, 189 Ariz. at 552, 944 P.2d at 67
(finding intelligence was used to deceive investigating
authorities and was therefore entitled to no mitigating
consideration); Atwood, 171 Ariz. at 653-54, 832 P.2d
at 670-71 (high IQ was not a mitigating factor because
defendant’s record showed that he would not use his
intelligence to seek reform, as argued).
¶60 In contrast, some cases have found low
intelligence a mitigating factor. See State v. Lee, 185
Ariz. 549, 553, 917 P.2d 692, 696 (1996); State v.
Amaya-Ruiz, 166 Ariz. 152, 178, 800 P.2d 1260, 1286
(1990); State v. Bishop, 127 Ariz. 531, 535, 622 P.2d
478, 482 (1980). Considering these cases, the trial

App. 226
judge committed no error by finding defendant’s
relatively high intelligence was not a mitigating factor.
7. Post-Murder Physical Health
¶61 Defendant asks us to consider his poor postmurder physical health as a mitigating circumstance.
We have addressed defendant’s mental health;
however, he now argues that poor post-murder physical
health, as well, can constitute a mitigating
circumstance. The trial court did not address this
factor because it is offered for the first time on appeal.
Section 13-703(G) requires us to consider factors that
are “relevant in determining whether to impose a
sentence less than death, including any aspect of the
defendant’s character, propensities or record and any
of the circumstances of the offense.” We find no case in
which poor post-murder physical health was found as
a mitigating factor, and defendant has directed us to
none. This absence of authority is expected because
defendant’s post-murder physical health does not
address his pre-murder character, nor does it address
his propensities, his record, or the circumstances of the
offense, as mandated by A.R.S. § 13-703(G). On the
present record, no weight can be accorded this factor in
our assessment of defendant’s sentence.
8. Ability to Contribute to Society
¶62 This factor, too, strays from the section 13703(G) mandate that mitigating factors must relate to
the “defendant’s character, propensities or record and
any of the circumstances of the offense.” The trial judge
did not err when he failed to find defendant’s alleged
ability to contribute to society as a mitigating factor.

App. 227
9. High Cost of Execution
¶63 Defendant argues the trial judge should have
considered sua sponte the high cost of execution as
mitigation, when compared to life imprisonment. Some
commentators have asserted that executing a convicted
murderer costs a state more money and resources than
the imposition of a life sentence. See, e.g., Justin
Brooks & Jeanne Huey Erickson, The Dire Wolf
Collects His Due While the Boys Sit by the Fire: Why
Michigan Cannot Afford to Buy into the Death Penalty,
13 T.M. Cooley L. Rev. 877 (1996); Joseph W.
Bellacosa, Ethical Impulses from the Death Penalty:
“Old Sparky’s” Jolt to the Legal Profession, 14 Pace L.
Rev. 1 (1994); Steven G. Gey, Justice Scalia’s Death
Penalty, 20 Fla. St. U. L. Rev. 67 (1992). Even
assuming the expense factor is accurate, the cost of
execution cannot be considered a mitigating factor. The
death penalty represents a legislative policy choice by
the people’s representatives regarding the level of
punishment for Arizona’s most serious criminal
offenders, and it transcends a financial cost/benefit
analysis. The United States Supreme Court has
determined that nothing in the U.S. Constitution
forbids state legislatures from making this choice so
long as constitutional boundaries are satisfied. See
Gregg v. Georgia, 428 U.S. 153, 179-80 (1976); Proffitt
v. Florida, 428 U.S. 242, 260 (1976); Jurek v. Texas,
428 U.S. 262, 277 (1976).
¶64 We therefore do not consider as mitigation the
high cost of execution. To do so would contradict
Arizona’s public policy decision and would violate the
court’s mandate to consider mitigating factors that

App. 228
relate not to cost, but to a “defendant’s character,
propensities or record and any circumstances of the
offense” under section 13-703(G). Defendant’s
argument that the death penalty be cast aside because
of the alleged financial drain should be addressed to
the legislature. The trial court did not err when it
failed sua sponte to consider cost a mitigating factor.
C. Summary of Aggravating and Mitigating
Evidence
¶65 We conclude that the State proved beyond a
reasonable doubt the existence of two statutory
aggravating factors -- previous conviction of a serious
offense pursuant to A.R.S. § 13-703(F)(2) and
pecuniary gain pursuant to A.R.S. § 13-703(F)(5).
Defendant proved only one mitigating circumstance by
a preponderance of the evidence -- defendant’s
importance in the life of his youngest child. On this
record, we approve the trial court’s decision that
aggravating factors substantially outweigh mitigating
factors.
IV. Constitutionality of Lethal Injection
¶66 Appellant contends that death by lethal injection
is cruel and unusual punishment under the Eighth
Amendment to the U.S. Constitution. This court has
concluded previously that lethal injection is a
constitutional form of execution. See State v. Hinchey,
181 Ariz. 307, 315, 890 P.2d 602, 610 (1995).
DISPOSITION
¶67 Upon full review, we affirm defendant’s
convictions and sentences.

App. 229
____________________________
Charles E. Jones
Vice Chief Justice
CONCURRING:
_______________________________
Thomas A. Zlaket, Chief Justice
_______________________________
Stanley G. Feldman, Justice
_______________________________
Frederick J. Martone, Justice
_______________________________
Ruth V. McGregor, Justice

App. 230

APPENDIX E
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 09-99027
D.C. No. 2:07-cv-02120-DGC
[Filed December 18, 2019]
_____________________________
GEORGE RUSSELL KAYER,
)
Petitioner-Appellant, )
)
v.
)
)
CHARLES L. RYAN,
)
Director of the Arizona
)
Department of Corrections,
)
Respondent-Appellee. )
_____________________________ )
ORDER
Before: William A. Fletcher, John B. Owens, and
Michelle T. Friedland, Circuit Judges.
Order;
Concurrence by Judges W. Fletcher and Friedland;
Dissent by Judge Bea

App. 231
SUMMARY*
Habeas Corpus / Death Penalty
The panel filed an order denying a petition for panel
rehearing, and denying on behalf of the court a petition
for rehearing en banc, in a case in which the panel
(1) reversed in part and affirmed in part the district
court’s judgment denying Arizona state prisoner
George Russell Kayer’s habeas corpus petition and
(2) remanded with directions to grant the writ with
respect to Kayer’s death sentence.
Judges W. Fletcher and Friedland concurred in the
denial of rehearing en banc. Responding to their
dissenting colleagues’ arguments, they wrote that they
are acutely aware of the deference required under
AEDPA, and that even giving all appropriate deference
to the decision of the post-conviction-relief court judge,
habeas relief is warranted.
Judge Bea, joined by Judges Bybee, Callahan, M.
Smith, Ikuta, Owens, Bennett, R. Nelson, Bade,
Collins, Lee, and Bress, dissented from the denial of
rehearing en banc. He wrote that by any fair reading of
the panel majority’s opinion, it reviewed the postconviction-review court’s decision de novo as to
whether an Arizona court, applying Arizona precedent,
would have granted relief—a radical approach
unwarranted under the Antiterrorism and Effective
Death Penalty Act. He also wrote that beyond the legal

*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 232
errors, Kayer’s proposed mitigating evidence is hardly
overwhelming, and reasonable jurists could find that it
did not undermine confidence in the death sentence,
providing no basis for relief under AEDPA’s deferential
standard.
COUNSEL
Jennifer Y. Garcia (argued) and Emma L. Smith,
Assistant Federal Public Defenders; Jon M. Sands,
Federal Public Defender; Office of the Federal Public
Defender, Phoenix, Arizona; for Petitioner-Appellant.
John Pressley Todd (argued), Special Assistant
Attorney General; Jacinda A. Lanum, Assistant
Attorney General; Lacey Stover Gard, Chief Counsel;
Dominic Draye, Solicitor General; Mark Brnovich,
Attorney General; Office of the Attorney General,
Phoenix, Arizona; for Respondent-Appellee.
ORDER
Judges W. Fletcher and Friedland voted to deny the
petition for panel rehearing and rehearing en banc.
Judge Owens voted to grant the petition for panel
rehearing and rehearing en banc.
The full court has been advised of the petition for
rehearing en banc. A judge of the court requested a
vote on en banc rehearing. The matter failed to receive
a majority of the votes of non-recused active judges in
favor of en banc consideration. Fed. R. App. P. 35.
Judge Hurwitz was recused and did not participate
in the deliberations or vote in this case.

App. 233
The petition for panel rehearing and rehearing en
banc is DENIED. A concurrence in the denial by
Judges W. Fletcher and Friedland and a dissent from
the denial by Judge Bea are filed concurrently with
this order.
W. FLETCHER and FRIEDLAND, Circuit Judges,
concurring in the denial of rehearing en banc:
Our opinion in this capital case speaks for itself. See
Kayer v. Ryan, 923 F.3d 692 (9th Cir. 2019). However,
our colleagues’ dissent from the denial of en banc
review makes new and unfounded arguments to which
we feel it appropriate to respond.
George Kayer shot and killed his friend Delbert
Haas in Arizona while returning from a gambling trip
to Nevada. Kayer, Lisa Kester (Kayer’s girlfriend), and
Haas were in Haas’s van. Kayer was driving. Kayer
had already indicated to Kester that he would kill
Haas. The three of them had consumed a case of beer
during the several-hour drive. Kayer took a back road
and stopped the van. When Haas went to the back of
the van to urinate, Kayer shot him. Kayer and Kester
drove away, but returned when they realized Kayer
had not gotten Haas’s house keys. When they returned,
Haas did not appear to be dead. Kayer shot him again,
killing him. Ten days later, when Kayer and Kester
returned to Nevada, Kester approached a security
guard at a Las Vegas hotel and told him what had
happened. Kayer and Kester were both charged with
capital murder. Kester testified against Kayer in
return for a reduced sentence of three years probation.
Id. at 695–96.

App. 234
Our dissenting colleagues do not dispute that
Kayer’s counsel performed deficiently. Kayer’s first
lawyer, Linda Williamson, was inexperienced and
incompetent. She represented Kayer for a year and a
half. During that time, she did no work to prepare for
the penalty phase of Kayer’s trial. Id. at 702–03.
Kayer’s second lawyer, David Stoller, was experienced
but incompetent. He represented Kayer for eleven
months. During that time, he, like Williamson, did no
work to prepare for the penalty phase. Id. at 703–04.
The jury returned a guilty verdict on March 26, 1997.
Stoller’s mitigation expert first interviewed Kayer on
May 21, 1997, almost two months later, six days before
the date originally set for the sentencing hearing. Id. at
704.
As a result of counsels’ deficient preparation, the
mitigation evidence at the sentencing hearing was
meager. It took only part of a morning. There were five
witnesses: (1) a detention officer who testified that
Kayer was well behaved in the jail law library;
(2) Kayer’s mother, who testified that, to her
knowledge, Kayer had never killed anything or anyone
since shooting jackrabbits as a teenager; (3) Kayer’s
half-sister, who testified that Kayer had “highs and
lows,” had drinking and gambling problems, and had,
“I guess,” been diagnosed “as a bipolar manicdepressive, or something like that”; (4) the mitigation
expert, who testified she had not had enough time to
gather information that would support “a medical
opinion about a diagnosis of a psychiatric condition”;
and (5) Kayer’s mentally impaired son, who gave
eleven lines of testimony. Id. at 696–98.

App. 235
In Arizona at the time, capital sentences were
imposed by judges rather than juries. The Supreme
Court would not decide Ring v. Arizona, 536 U.S. 584
(2002), until five years later. Under Arizona law, a
sentencing judge balanced aggravating and mitigating
circumstances. There were specified statutory
aggravating circumstances, but no non-statutory
aggravating circumstances. There were specified
statutory mitigating circumstances, but any other
mitigating circumstances could be considered as well.
Statutory mitigators were given greater weight than
non-statutory mitigators.
The sentencing judge found two statutory
aggravating factors under Arizona law: (1) that Kayer
had previously been convicted of a “serious offense”;
and (2) that the murder had been committed for
“pecuniary gain.” ARIZ. REV. STAT. § 13-703(F)(2), (F)(5)
(1977). (All references are to the 1997 version of
Arizona Revised Statutes.) The judge explicitly refused
to find as an additional aggravating circumstance that
the murder had been committed in “an especially
heinous, cruel or depraved manner.” Id. at § 13703(F)(6); Kayer, 923 F.3d at 698. The judge found one
non-statutory mitigating factor—that Kayer had
“become an important figure in the life of his son.” The
judge sentenced Kayer to death. Id. at 698.
During this pre-Ring period, the Arizona Supreme
Court resentenced de novo in capital cases on direct
appeal, giving no deference to a sentencing decision of
the trial judge. In its de novo resentencing of Kayer in
1999, the Arizona Supreme Court found the same two
statutory aggravating factors and the same single non-

App. 236
statutory mitigating factor. Like the sentencing judge,
it did not find the additional statutory aggravating
circumstance that the murder had been committed in
“an especially heinous, cruel or depraved manner.” It
sentenced Kayer to death. State v. Kayer, 194 Ariz. 423,
984 P.2d 31 (1999).
On state post-conviction review (“PCR”), Kayer’s
lawyers claimed that he had received ineffective
assistance of counsel (“IAC”) at the sentencing phase.
His lawyers presented extensive evidence of Kayer’s
mental illness and of mental illness in Kayer’s family,
none of which had been presented at the sentencing
hearing. We describe that evidence at length in our
opinion. To recapitulate the main points:
Kayer’s father was an alcoholic and obsessive
gambler. Kayer’s Aunt Opal on his mother’s side was
schizophrenic (“I have [heard voices] all my life. . . . It
runs in the family”). She testified that Kayer had told
her, “I thought it was normal[.] I hear voices, too.”
Kayer, 923 F.3d at 711. Kayer’s Aunt Ona Mae on his
mother’s side was an alcoholic with severe mood
swings. Kayer’s Aunt Tomi on his mother’s side was an
alcoholic and a severe depressive. Kayer’s cousin on his
mother’s side was schizophrenic and bipolar. Id.
Kayer himself was slow to walk and fell often. As a
small boy, he had so many bruises on his body that his
mother would not take him out in public. He was
dyslexic and got very poor grades in school. He enlisted
in the Navy after high school but was quickly
discharged with a mental “impairment” described in
the discharge papers as “severe.” Id. at 709. He had
two unsuccessful marriages in his early twenties. He

App. 237
began committing property crimes in his mid-twenties,
and became a heavy drinker and compulsive gambler.
He checked himself into a VA hospital in his late
twenties, saying “I just want to know what’s wrong.”
Id. at 710. Six years later, he again checked himself
into a VA hospital, where a doctor wrote that he
“showed bipolar traits” and prescribed lithium (a
standard medication for bipolar disorder). He was
given a “provisional diagnosis” of “Personality
Disorder/Bipolar.” Id. at 710–11. Kayer told a
probation officer a year later that until the second stay
in the VA hospital, “he had no idea what was wrong
with him.” Id. When Kayer was forty, he suffered a
severe heart attack and was admitted to a VA hospital.
He checked himself out of the hospital “against medical
advice.” Id. He killed Haas six weeks later.
Three doctors testified in the PCR court without
contradiction. Dr. Anne Herring testified that Kayer
“demonstrated significant difficulty when required to
execute complex problem solving,” and that “similar
deficits have been associated with chronic heavy
substance abuse, traumatic brain injury, and with
bipolar disorder.” Id. at 712. Dr. Michael Sucher, an
addiction specialist, testified to his “untreated
alcoholism and untreated pathological gambling.” Id.
Dr. Barry Morenz, a psychiatrist, characterized Kayer’s
beliefs as “really delusional.” Among other things,
Kayer had believed ever since he was a boy, and
continued to believe as an adult, that he was a
reincarnated being from another planet. Id. Dr. Morenz
diagnosed Kayer’s mental state at the time of the
murder: “He was having problems with bipolar
disorder symptoms and may have been manic or

App. 238
hypomanic, he was having difficulties with out of
control pathological gambling and he had difficulty
with extensive alcohol abuse.” Id. at 713.
The Arizona judge who presided over Kayer’s trial
and sentenced him to death also presided over his state
PCR proceeding. In a very brief order, the state PCR
judge denied Kayer’s IAC claim. He held that Kayer’s
trial attorneys, Williamson and Stoller, had provided
professionally competent service, despite the fact that
Williamson did no mitigation work whatsoever, and
Stoller’s mitigation expert did not even begin work
until six days before the originally scheduled
sentencing hearing. Alternatively, the state PCR judge
held that Kayer had not shown prejudice: “This court
further concludes that if there had been a finding that
the performance prong of the Strickland standard had
been met, that no prejudice to the defendant can be
found.” Id. at 714 (emphasis in the judge’s order). The
Arizona Supreme Court denied Kayer’s petition for
review without explanation. Id. at 700. The state PCR
judge’s decision was therefore the last reasoned state
court decision.
We held that there had been deficient performance
by counsel at the penalty phase, and that the state
PCR judge had been objectively unreasonable, within
the meaning of AEDPA, in concluding otherwise. Our
colleagues have not disputed this holding. Counsels’
failure to prepare for the penalty phase hearing was
egregious, and the mitigation evidence presented at the
hearing was pathetically inadequate. See Rompilla v.
Beard, 545 U.S. 374 (2005).

App. 239
We also held that the no-prejudice decision by the
state PCR judge was an objectively unreasonable
decision within the meaning of AEDPA. Our dissenting
colleagues object to this holding.
I. Our Reasoning
There were three steps in our reasoning:
A. Step One
First, we compared the aggravators and mitigators
at the two different stages in state court:
1. Sentencing Phase and Direct Appeal
In the trial court and in the Arizona Supreme Court
on direct de novo review, there were two statutory
aggravators and one non-statutory mitigator. No
mitigating factor—either statutory or nonstatutory—was found based on mental impairment.
Given the meager evidence presented at sentencing, we
held that the Arizona Supreme Court had “made a
reasonable determination of the facts in concluding
that Kayer suffered from no mental impairment.”
Kayer, 923 F.3d at 702.
The first statutory aggravator was a prior
conviction for a “serious offense.” ARIZ. REV. STAT. § 13703(F)(2). Kayer’s prior conviction was for first degree
burglary. This conviction is the least serious of the
“serious offenses” under the aggravator. Serious
offenses range from burglary to first degree murder,
second degree murder, manslaughter, aggravated
assault resulting in serious physical injury, sexual
assault, and any dangerous crime against children. See

App. 240
ARIZ. REV. STAT. § 13-703(H)(1)–(6). The second
statutory aggravator was commission of a crime for
“pecuniary gain.” See ARIZ. REV. STAT. § 13-703(F)(5).
The gain in Kayer’s case was relatively modest:
avoiding repayment of a $100 loan from Haas, and
stealing money and jewelry from Haas’s person and
personal property from his house. Neither the
sentencing judge nor the Arizona Supreme Court found
the proposed statutory aggravator of killing in “an
especially heinous, cruel or depraved manner.” ARIZ.
REV. STAT. § 13- 703(F)(6).
The one non-statutory mitigator was Kayer’s
importance in the life of his son.
2. State PCR Proceeding
Based on the extensive evidence presented during
the state PCR proceeding, we concluded that Kayer
had established the statutory mitigator of mental
impairment under Arizona law: “The defendant’s
capacity to appreciate the wrongfulness of his conduct
or to conform his conduct to the requirements of law
was significantly impaired, but not so impaired as to
constitute a defense to prosecution.” ARIZ. REV. STAT.
§ 13-703(G)(1). In order to reach that conclusion, we
analyzed Arizona Supreme Court cases in which that
statutory mitigator had been found. Kayer, 923 F.3d at
718 (providing as examples State v. Stevens, 158 Ariz.
595, 764 P.2d 724, 727–29 (1988) (long-term alcohol
and drug use); State v. Gretzler, 135 Ariz. 42, 659 P.2d
1, 16–17 (1983) (long-term drug use)). The state PCR
judge made no finding, one way or the other, whether
Kayer had established the statutory mitigator of
mental impairment. If he had made a finding that

App. 241
Kayer had not established this statutory mitigator, the
finding would have been objectively unreasonable,
given the clear case law of the Arizona Supreme Court.
The Strickland prejudice question in the PCR court
was the effect of the addition of the new statutory
mitigator of “mental impairment” to the relatively
weak non-statutory mitigator of “importance in the life
of his son,” balanced against the same two statutory
aggravators.
B. Step Two
Second, we recited the established law for
determining prejudice in a Strickland IAC case under
AEDPA. Under that law, we do not look to what the
initial sentencing judge would have done if the laterpresented evidence had been presented at the
sentencing hearing. Instead, we look to the probability
of a different outcome in the Arizona Supreme Court,
which sentences de novo in capital cases. We filter the
Strickland standard through the lens of AEDPA to give
appropriate deference to the decision of the state PCR
judge. Kayer, 923 F.3d at 719–20.
The prejudice standard under Strickland is not
whether the newly introduced evidence would “more
likely than not have produced a different outcome.”
Rather, the Strickland prejudice standard is the less
demanding standard of “reasonable probability”:
The defendant must show that there is a
reasonable probability that, but for
counsel’s unprofessional errors, the result
of the proceeding would have been
different. A reasonable probability is a

App. 242
probability sufficient to
confidence in the outcome.

undermine

Strickland v. Washington, 466 U.S. 668, 694 (1984).
When filtered through the lens of AEDPA, the
standard is that articulated by the Supreme Court in
Porter v. McCollum. The Strickland prejudice question
for a federal habeas court under AEDPA is whether
it was objectively unreasonable [for the
state habeas court] to conclude there was
no reasonable probability the sentence
would have been different if the
sentencing judge . . . had heard the
significant mitigation evidence that
[defendant’s trial] counsel neither
uncovered nor presented.
Porter v. McCollum, 558 U.S. 30, 31 (2009) (per
curiam).
C. Step Three
Third, we compared the facts of Kayer’s case to the
facts of other Arizona capital cases to determine
prejudice. We discussed several Arizona Supreme
Court cases and concluded that one case in particular
predicted what that court would likely have done if the
information presented during Kayer’s state PCR
proceeding had been presented at the original
sentencing hearing. Id. at 721–23.
In State v. Brookover, 124 Ariz. 38, 601 P.2d 1322
(1979), defendant Brookover had agreed to buy 750
pounds of marijuana from the victim. When the
marijuana was delivered, Brookover shot the victim in

App. 243
order to avoid paying for it. “The victim fell to the floor
moaning and asked the defendant what he had done.
The defendant said ‘Don’t worry . . . it will be over soon’
and shot him once more in the back,” killing him. Id. at
1323. There were essentially the same two statutory
aggravators in Brookover’s case as in Kayer’s case:
(1) conviction for a prior “serious offense,” though this
aggravator, at the time of Brookover’s sentencing,
required the crime be one for which the death penalty
could be imposed; and (2) killing for pecuniary gain
(recognized a year later, retroactively, as a statutory
aggravator). As in Kayer’s case, the Brookover court
rejected a statutory aggravator of killing in “an
especially heinous, cruel, or depraved manner.” There
was also the same mitigating factor that in Kayer’s
case had been established only after he obtained
competent counsel during the state court PCR
proceedings: “mental impairment.” Unlike in Kayer’s
case, there was no additional mitigator in Brookover’s
case. In its de novo sentencing determination in
Brookover, the Arizona Supreme Court held that a
death sentence could not be imposed. It held, “Under
the circumstances, leniency is mandated.” Id. at 1326
(emphasis added).
The comparison between Kayer’s case and
Brookover is striking. To summarize: Both shot their
victims twice, wounding them with the first shot and,
after time for deliberation, killing them with the
second shot. Both men shot and killed their victims for
“pecuniary gain.” In neither case was the pecuniary
gain great. Both men had prior convictions for “serious
crimes,” though Kayer’s was a much less serious crime
than Brookover’s. Both men had the statutory

App. 244
mitigator of “mental impairment.” Kayer had an
additional mitigator, the non-statutory mitigator of
importance in the life of his son. Our dissenting
colleagues call Kayer’s crime a “brutal and venal
murder.” Dissent at 43. But it was no worse than the
murder in Brookover. Indeed, the courts in both
Kayer’s case and in Brookover specifically rejected the
proposed statutory aggravator that the murder had
been committed in “an especially, heinous, cruel or
depraved manner.”
Given the striking similarity between the facts of
Brookover and the facts of Kayer’s case, and given that
the Arizona Supreme Court had held in Brookover that
a non-capital sentence was “mandated,” we held that
the state court judge was “objectively unreasonable” in
holding that there was “no reasonable probability” that
Kayer’s sentence would have been different if the
evidence presented to the PCR court had been
presented in the original sentencing hearing. We wrote:
In determining prejudice, we need not
go so far as Brookover. We need not
decide that leniency was “mandated” and
that the state PCR court was
unreasonable in concluding otherwise. We
need only decide whether “it was
objectively unreasonable” for the state
court to conclude that there was “no
reasonable probability” that Kayer’s
sentence would have been different if
Kayer’s attorneys had presented to the
sentencing court the mitigating evidence
later presented to the PCR court. Porter

App. 245
[v. McCollum], 558 U.S. at 31 . . . . In
light of the foregoing, and particularly in
light of the Arizona Supreme Court’s
decision in Brookover, we hold that there
is a reasonable probability Kayer’s
sentence would have been less than
death, and that the state PCR court was
unreasonable in concluding otherwise.
Kayer, 923 F.3d at 723.
II. Our Colleagues’ Dissent
Our dissenting colleagues make two arguments
based on mistakes of law.
First, our colleagues argue that we were required to
give deference to the prejudice decision of the state
PCR judge on the ground that he made the initial
sentencing decision. They write:
[W]ho better to determine whether the new
evidence would have made a difference at
sentencing than the judge who sentenced
Kayer to death. Judge Kiger presided over
both sentencing and the PCR proceedings,
and he concluded the new evidence would
have made no difference. His “unique
k nowledge of t he t r i al c o ur t
proceedings”—including his front-row
seat to the presentation of evidence
showing Kayer’s brutal and venal
murder—“render[ed] him ‘ideally
situated’” to evaluate Kayer’s claim that
the introduction of new evidence would
have changed the sentencing outcome.

App. 246
Murray v. Schriro, 882 F.3d 778, 821 (9th
Cir. 2018) (quoting Landrigan, 550 U.S.
at 476). This is not to say that Judge
Kiger is entitled to some sort of superdeference simply because he sentenced
Kayer to death. But there is something
particularly troubling about the panel
majority affording no deference
whatsoever to Judge Kiger’s PCR court
decision, as the last reasoned state court
opinion.
Dissent at 42–43 (emphasis added). They also write:
All this evidence was before the state
PCR court, which concluded that Kayer
had not been prejudiced by his trial
counsel’s failure to introduce this
evidence in mitigation and before
sentencing. He should know, because in
Arizona the same judge who presides over
a defendant’s trial and sentencing also
presides over the PCR proceeding.
Id. at 41 (emphasis added).
In making their “he-should-know” argument, our
colleagues ignore clear Supreme Court law to the
contrary. Strickland itself—the foundation case—tells
us not to give deference to the prejudice determination
of the state PCR judge on the ground that he or she
was also the sentencing judge. Under AEDPA, we give
deference to the decision of the last reasoned state
court decision. If that is the decision of the state PCR
judge at the trial court level, we of course give

App. 247
deference to that decision. But the fact that the PCR
judge was also the sentencing judge is irrelevant to the
deference we should give to his or her prejudice
determination. The Court wrote:
The assessment of prejudice should
proceed on the assumption that the
decisionmaker is reasonably,
conscientiously, and impartially applying
the standards that govern the decision. It
should not depend on the idiosyncracies of
the particular decisionmaker, such as
unusual propensities toward harshness or
leniency.
Strickland, 466 U.S. at 695.
Our colleagues’ reliance on Murray and Landrigan
is misplaced. In Murray, we held only that it does not
violate due process to have the same person act as both
the trial judge and PCR judge. Murray, 882 F.3d at
820–821. In Landrigan, the Supreme Court held that
the PCR judge, who had also been the trial judge, was
“ideally situated” to evaluate a factual claim about
what had been said during trial in a colloquy between
the judge and the defendant. Schriro v. Landrigan, 550
U.S. 465, 476 (2007). Neither Murray nor Landrigan
even remotely support the proposition that we owe
deference to a Strickland prejudice determination by
the PCR judge on the ground that he or she was also
the trial judge.
Second, our colleagues argue that in determining
prejudice we should not have looked to precedential

App. 248
decisions of the Arizona Supreme Court. Calling our
approach a “stunning error,” they write that
the panel majority . . . proposes that the
yardstick for whether there is a
reasonable probability Kayer would not
have been sentenced to death if the new
evidence were presented to the
sentencing court is whether this case is
more like cases in which the Arizona
Supreme Court at one point affirmed a
death penalty imposed by the trial court
on direct de novo review or more like
cases in which the Arizona Supreme
Court reversed. . . . [This] mode of habeas
review of a Strickland claim [] is quite
literally unprecedented.
Dissent at 44–45 (emphasis in original).
As a factual matter, our colleagues are mistaken in
saying that this mode of analysis is “quite literally
unprecedented.” In White v. Ryan, 895 F.3d 641 (9th
Cir. 2018)—another Arizona capital case, which we
discussed and applied in our opinion—we spoke
directly to this issue. Kayer, 923 F.3d at 720. We wrote
in White that an analysis of prejudice at sentencing
must look to what the Arizona Supreme Court would
likely have done if the evidence has been presented to
it on direct appellate review. We faulted the state
habeas court for failing to perform this analysis. We
wrote, “The PCR court erred by . . . fail[ing] to consider
the probability of a different outcome in the Arizona
Supreme Court.” Id. at 671.

App. 249
As we pointed out in our en banc opinion in
McKinney v. Ryan, 813 F.3d 798 (9th Cir. 2015) (en
banc), the Arizona Supreme Court is conscientious in
following its own precedents. There, we wrote:
[T]he Arizona Supreme Court has a
strong view of stare decisis. The Court
wrote in White v. Bateman, 89 Ariz. 110,
358 P.2d 712, 714 (1961), for example,
that its prior caselaw “should be adhered
to unless the reasons of the prior
decisions have ceased to exist or the prior
decision was clearly erroneous or
manifestly wrong.” See also Young v.
Beck, 227 Ariz. 1, 251 P.3d 380, 385
(2011) (“[S]tare decisis commands that
‘precedents of the court should not be
lightly overruled,’ and mere disagreement
with those who preceded us is not
enough.” (quoting State v. Salazar, 173
Ariz. 399, 416, 844 P.2d 566 (1992)));
State ex rel. Woods v. Cohen, 173 Ariz.
497, 844 P.2d 1147, 1148 (1993) (referring
to a “healthy respect for stare decisis”);
State v. Williker, 107 Ariz. 611, 491 P.2d
465, 468 (1971) (referring to a “proper
respect for the theory of stare decisis”).
Id. at 826.
As a matter of law, our colleagues are also
mistaken. At all times relevant to our decision, the
Arizona Supreme Court reviewed de novo on direct
appeal all sentencing decisions in capital cases. The
prejudice question is necessarily the following: Is there

App. 250
a reasonable possibility that there would have been a
different decision by the Arizona Supreme Court if that
court had seen the newly presented evidence on direct
appeal? The only way to answer that question is to
compare the evidence—including the newly presented
evidence—to the evidence in other cases reviewed by
the Arizona Supreme Court on direct appeal.
Our colleagues write further:
The [panel majority’s] rule is as
misguided as it is novel. For starters, [its]
approach would make federal habeas
review of every Strickland claim turn on
the state in which the petitioner was
sentenced. So U.S. Supreme Court habeas
precedents that involve California
apparently could be distinguished away
in habeas appeals from Arizona, on the
sole ground that “we ask what an Arizona
rather than a California sentencing court
would have done.” [Kayer, 923 F.3d at
724.] The panel majority appears
untroubled by this point, but its
implications are striking: Their
approach—at least for Strickland
prejudice—transmutes “clearly
established Federal law, as determined
by the Supreme Court of the United
States” into law as determined by state
supreme courts. 28 U.S.C. § 2254(d)(1).
Dissent at 45–46.

App. 251
Our colleagues misunderstand the nature of an IAC
claim. IAC claims in § 2254 habeas petitions are
often—even usually—premised on the law of the
particular state in which the petitioner was convicted.
If an attorney fails to make what would have been a
winning claim under state law, a federal habeas court
determines prejudice by asking what the decision
under that state law would likely have been if the
claim had been made. We do not look to the law of
another state or to federal law when the state court
would never have applied that law. For example, in an
IAC claim where a petitioner argues that counsel
should have raised a claim in Arizona state court under
Arizona law, we do not ask what California or federal
law exists on the point, or what a California or federal
court would have done. The IAC claim is based on what
the Arizona court would have done under Arizona law
had the claim been presented. Our colleagues are right
that our approach would often have us look to state law
in addressing petitions raising IAC claims. But they
are mistaken in contending that the approach is
“novel.” On the contrary, it is the normal and
uncontroversial approach.
III. Brookover
Our colleagues do not want to confront the Arizona
Supreme Court’s decision in Brookover. Both
arguments just reviewed are designed to persuade the
reader that decisions of the Arizona Supreme Court in
capital cases, and Brookover in particular, are
irrelevant to the Strickland prejudice question. Our
colleagues would prefer to regard as the controlling

App. 252
case a habeas challenge to a decision by the California
Supreme Court. Dissent at 54–56.
Our colleagues discuss Brookover only briefly, and
only at the very end of their long dissent. They try to
avoid the effect of Brookover in two ways.
First, our colleagues point out that Brookover’s
mental impairment came from an “organic brain
injury.” Id. at 53. They compare Brookover’s
impairment to what they characterize as Kayer’s “selfadministered ‘untreated alcoholism and untreated
pathological gambling.’” Id. In thus referring to Kayer’s
mental state, they ignore his “severe” “mental
impairment” when he was discharged from the Navy as
a very young man; his two stays in VA hospitals,
resulting in a bipolar diagnosis and lithium
prescription; his hearing voices, as described by his
aunt; his delusional beliefs, including the belief that he
came from another planet; and the extensive mental
illness in his family. More important, the Arizona
Supreme Court concluded that Brookover’s “mental
impairment” was a statutory mitigator because his
“mental condition was . . . a major and contributing
cause of his conduct . . . .” Brookover, 601 P.2d at 1326.
There is nothing in the Court’s opinion specifying that
the cause of the impairment is relevant. The relevant
fact is the impairment itself.
Second, our colleagues dismiss Brookover as a case
decided “forty years ago.” Dissent at 44–45. When
Kayer’s case was decided on direct appeal by the
Arizona Supreme Court, Brookover was twenty (not
forty) years old. We wrote in our opinion:

App. 253
The Arizona Supreme Court in capital
cases routinely cites and treats as binding
precedent its own decisions from twenty
years (and more) before. See, e.g., State v.
Hedlund, 245 Ariz. 467, 431 P.3d 181, 190
(2018) (discussing and distinguishing
State v. Graham, 135 Ariz. 209, 660 P.2d
460 (1983); State v. Trostle, 191 Ariz. 4,
951 P.2d 869, 885 (1997) (discussing and
relying on State v. Richmond, 114 Ariz.
186, 560 P.2d 41, 52–53 (1976))). See also
State v. Stuard, 176 Ariz. 589, 863 P.2d
881, 902 (1993) (citing, inter alia, State v.
Doss, 116 Ariz. 156, 568 P.2d 1054, 1060
(1977), and writing, “Leniency is
therefore required.”). Nothing in the
practice of the Arizona Supreme Court
suggests that when it sentenced Kayer de
novo in 1999, it would have treated as
less-than-binding a twenty-year-old
precedent. In that precedent—Brookover
—the Arizona Supreme Court had held,
on facts less favorable to the defendant
than those in Kayer’s case, that a noncapital sentence was “mandated.”
Kayer, 923 F.3d at 725.
IV. Summary
There are two things that differentiate this case
from run-of- the-mill IAC habeas cases under AEDPA.
First, this is not the usual case in which the
evidence presented in the state PCR proceeding was

App. 254
merely cumulative of evidence already presented at the
sentencing phase, establishing more firmly an already
established proposition. Instead, this is a case in which
new evidence established for the first time the
existence of a new and important mitigating factor.
The effect of the new evidence was to change the
evidence in favor of mitigation, from one weak nonstatutory mitigator (importance in the life of Kayer’s
son) to two mitigators—the continuing non-statutory
mitigator, plus the new statutory mitigator of mental
impairment. The two mitigators must now be weighed
against two existing, relatively weak aggravators.
Second, this is an unusual case in that there is a
state supreme court decision in a capital case with
strikingly similar facts, in which the Court held that a
non-capital sentence was “mandated.” We did not hold,
based on Brookover, that the Arizona Supreme Court
would necessarily have held that a non-capital
sentence was “mandated.” But we did hold, based on
Brookover, that it was “objectively unreasonable” for
the state PCR judge to conclude that there was “no
reasonable probability” of a different sentence. Porter,
558 U.S. at 31.
Contrary to the contention of our dissenting
colleagues, we are acutely aware of the deference
required under AEDPA. Even after giving all
appropriate deference to the decision of the PCR judge,
we concluded that habeas relief is warranted.

App. 255
BEA, Circuit Judge, joined by BYBEE, CALLAHAN,
M. SMITH, IKUTA, OWENS, BENNETT, R. NELSON,
BADE, COLLINS, LEE, and BRESS, Circuit Judges,
dissenting from the denial of rehearing en banc:
Like clockwork, practically on a yearly basis since
the Millennium, we have forced the Supreme Court to
correct our inability to apply the proper legal standards
under the Antiterrorism and Effective Death Penalty
Act (“AEDPA”).1 A divided panel in this case took that
1

See, e.g., Sexton v. Beaudreaux, 138 S. Ct. 2555, 2558 (2018) (per
curiam) (finding “[t]he Ninth Circuit failed to [] apply” the proper
standard and instead “spent most of its opinion conducting a de
novo analysis”); Kernan v. Cuero, 138 S. Ct. 4, 9 (2017) (per
curiam) (finding “several problems with the Ninth Circuit’s
reasoning,” including that it failed to recognize that “fairminded
jurists could disagree” about how to construe Supreme Court
precedent); Davis v. Ayala, 135 S. Ct. 2187, 2193 (2015) (“The
Ninth Circuit’s decision was based on the misapplication of basic
rules regarding harmless error.”); Lopez v. Smith, 574 U.S. 1, 6
(2014) (per curiam) (criticizing “the Ninth Circuit in particular” for
applying a legal standard nowhere found in AEDPA); Johnson v.
Williams, 568 U.S. 289, 297 (2013) (holding that “the Ninth Circuit
declined to apply the deferential standard of review” mandated by
AEDPA); Cavazos v. Smith, 565 U.S. 1, 7 (2011) (per curiam)
(citation omitted) (“When the deference to state court decisions
required by § 2254(d) is applied to the state court’s already
deferential review, there can be no doubt of the Ninth Circuit’s
error below.”); Felkner v. Jackson, 562 U.S. 594, 598 (2011) (per
curiam) (explaining that “[t]here was simply no basis for the Ninth
Circuit” to grant habeas relief under AEDPA’s highly deferential
standard, “particularly in such a dismissive manner”); Premo v.
Moore, 562 U.S. 115, 123 (2011) (“The [Ninth Circuit] was wrong
to accord scant deference to counsel’s judgment, and doubly wrong
to conclude it would have been unreasonable to find that the
defense attorney qualified as counsel for Sixth Amendment
purposes.”); Harrington v. Richter, 562 U.S. 86, 92 (2011)

App. 256
tradition one step further, though, by re-writing
AEDPA entirely: to institute the federal habeas court
as a mere second state appellate court of state law
error review.
A divided panel in this federal habeas appeal
granted petitioner George Russell Kayer relief. Kayer
v. Ryan, 923 F.3d 692, 726 (9th Cir. 2019). Kayer
claimed that the Arizona Superior Court erred in
holding, on post-conviction review (“PCR”), that the
failure of Kayer’s trial counsel to conduct an adequate
penalty phase investigation did not violate his Sixth
Amendment right to counsel under Strickland v.
Washington, 466 U.S. 668 (1984).
Kayer was sentenced to death for the first-degree,
premeditated murder of an acquaintance over a minor
(“[J]udicial disregard [for the sound and established principles of
when to issue a writ of habeas corpus] is inherent in the opinion of
the Court of Appeals for the Ninth Circuit here under review.”);
Knowles v. Mirzayance, 556 U.S. 111, 121 (2009) (holding the
Ninth Circuit’s erroneous issuance of a writ was “based, in large
measure, on its application of an improper standard of review”);
Uttecht v. Brown, 551 U.S. 1, 22 (2007) (finding “[t]he Court of
Appeals neglected to accord” the proper deference to the state trial
court); Schriro v. Landrigan, 550 U.S. 465, 473 (2007) (“The
question under AEDPA is not whether a federal court believes the
state court’s determination was incorrect but whether that
determination was unreasonable—a substantially higher
threshold.”); Rice v. Collins, 546 U.S. 333, 342 (2006) (“[The Ninth
Circuit’s] attempt to use a set of debatable inferences to set aside
the conclusion reached by the state court does not satisfy AEDPA’s
requirements for granting a writ of habeas corpus.”); Woodford v.
Visciotti, 537 U.S. 19, 25 (2002) (per curiam) (criticizing the Ninth
Circuit for “substitut[ing] its own judgment for that of the state
court, in contravention of 28 U.S.C. § 2254(d)”).

App. 257
debt that Kayer owed the victim. Kayer shot the victim
in the head, stripped the victim’s body of any valuables,
returned to steal the victim’s house keys, shot the
victim again for good measure, ransacked the victim’s
home, and pawned off the loot. Kayer’s attorneys by all
accounts did little investigation for the penalty phase,
and the panel majority concluded that an adequate
penalty phase investigation would have uncovered
evidence of Kayer’s “mental illness, and gambling and
alcohol addiction.” Kayer, 923 F.3d at 727 (Owens, J.,
concurring in part and dissenting in part). But even
assuming Kayer’s penalty-phase counsel was
ineffective, the state PCR court reasonably determined
that Kayer’s counsel’s failure to investigate did not
prejudice Kayer. The state supreme court denied
review.
Reviewing the PCR court’s decision, the panel
majority cast aside (albeit with some lip service)
AEDPA’s highly deferential standard of review. By any
fair reading of the panel majority’s opinion, it reviewed
the PCR court’s decision de novo as to whether an
Arizona court, applying Arizona precedent, would have
granted relief—a radical approach unwarranted under
AEDPA. In short, the panel majority reasoned that
because it believed there was a reasonable probability
Kayer’s sentence would have been less than death if
the evidence of mental impairment produced to the
PCR court were presented to the sentencing court, the
PCR court’s contrary finding was objectively
unreasonable. Taking the panel majority at its word, it
views as objectively unreasonable—and thus
meritorious of a federal writ of habeas corpus—that the
PCR court reached a different conclusion about

App. 258
prejudice than did the panel majority. That is de novo
review, plain and simple. As noted, and making
matters worse, the panel majority evaluated whether
the state court’s no-prejudice finding adhered to
Arizona’s inapplicable state law—not federal law.
Beyond the legal errors, Kayer’s proposed
mitigating evidence—relating mostly to his “untreated
alcoholism and untreated pathological gambling,”
Kayer, 923 F.3d at 719, and absent any findings of
organic brain damage—is hardly overwhelming, and
reasonable jurists could find that it did not undermine
confidence in the death sentence. As such, it provides
no basis for relief under AEDPA’s deferential standard.
As Judge Owens convincingly observed, given the
“brutal” manner in which Kayer killed the victim and
the “hardly overwhelming” mitigating evidence, ample
room remains for fairminded disagreement whether
the failure of Kayer’s counsel to investigate prejudiced
him. Id.at 726–27 (Owens, J., concurring in part and
dissenting in part).
Contrary to the panel majority’s opinion, AEDPA as
interpreted by the Supreme Court nowhere instructs
that entitlement to federal habeas relief turns on a de
novo review of whether an Arizona court in PCR
proceedings adhered to Arizona precedent regarding de
novo review of death penalty sentences. AEDPA
instead requires that Kayer show that the Arizona
Superior Court’s PCR determination was “so lacking in
justification that there was an error well understood
and comprehended in existing law beyond any
possibility for fairminded disagreement.” Harrington,
562 U.S. at 103.

App. 259
From our position, the issue is not what we think
the state PCR court should have done to conform to
Arizona law. The issue is whether what the state PCR
court in fact did (its decision, not how it arrived at its
decision) was objectively unreasonable under the
standard articulated in Harrington. The Supreme
Court has told us—specifically us—not to “ignore[]”
that this is literally “the only question that matters.”
Id. at 102 (quoting Lockyer v. Andrade, 538 U.S. 63, 71
(2003)). How the panel majority’s opinion could
outright ignore (and replace) this standard is
incomprehensible. We should have taken this case en
banc to correct the panel majority’s opinion’s errors
before the Supreme Court (again) does it for us.
I
George Russell Kayer was convicted of first-degree
murder for the death of Delbert Haas and sentenced to
death in Arizona Superior Court in 1997.
The series of events that led to Kayer’s conviction
all began with a gambling trip gone awry. In 1994,
Kayer, his girlfriend Lisa Kester, and pal Delbert Haas
hopped in Haas’s van to travel from Arizona to Nevada
for a gambling trip. The three spent their first night
sharing a room at a hotel in Laughlin, Nevada. Kayer
that night told Haas that he had “won big” during the
day using a special gambling system. This was
apparently a lie, but Kayer knew Haas had recently
received money from an insurance settlement, and
Kayer used the lie to convince Haas to lend him about
$100 in gambling money.

App. 260
The next day, Kayer of course lost Haas’s money
gambling. But Kayer lied to Haas again, this time
fabricating a story about how he had in fact “won big”
but that someone stole the winnings. In private, Kester
asked Kayer what he planned to do now that he was
out of cash. Kayer replied that he would rob Haas.
Kester pointed out the obvious fact that Haas would
identify Kayer as the thief. According to Kester, Kayer
responded, “I guess I’ll just have to kill him.”
The following day, the trio drove back to Arizona,
consuming a case of beer between the three during the
several-hour drive. Haas and Kayer argued about
Kayer’s debt. During a stop to buy snacks and use the
bathroom, Kayer pulled a gun from beneath a seat in
the van and put it in his pants. Kayer asked Kester if
she was “going to be all right with this.” Kester asked
Kayer to warn her before he pulled the trigger.
The three continued on their way. Kayer, who was
driving, left the main highway, telling his companions
he was taking a shortcut. Kayer stopped the van by the
side of the road, at which point Haas exited and walked
toward the back to urinate. Kester went to exit the van
as well, but Kayer stopped her, gesturing to the gun.
Kester received her warning. Through the back window
of the van, Kester saw Kayer walk up behind Haas
and—as Kayer had planned to do—shoot Haas in the
head while he was urinating.
Kayer dragged Haas’s body into the bushes; took
Haas’s wallet, watch and jewelry; got back in the van;
and drove away with Kester. Back on the road, Kayer
realized he forgot to take Haas’s house keys and drove
back to where he dumped the body. Kayer exited the

App. 261
van to retrieve the keys from Haas’s body, but then
returned and asked for the gun. Haas, Kayer said, did
not appear to be dead. Kayer went back to Haas’s body,
and Kester heard a second shot. Kayer and Kester then
drove to Haas’s Arizona home and looted it. They spent
the next week pawning and selling items from Haas’s
home and gambling with the proceeds.
Ten days after the murder, Kester got cold feet and
approached a security guard at a Las Vegas hotel to
report Kayer’s murder of Haas. Kayer was indicted for,
and eventually convicted of, first-degree murder.
During the penalty phase hearing, Kayer’s counsel
argued as mitigating circumstances that Kayer
suffered from mental illness and substance abuse. But
Kayer’s counsel adduced virtually no evidence to
support that argument. The judge2 held that Kayer had
not established any mental impairment and sentenced
him to death.
On direct appeal, the Arizona Supreme Court
independently reviewed and affirmed Kayer’s death
sentence. In Arizona, mitigating evidence can serve
either as a statutory or non-statutory mitigating factor,
with greater weight due to statutory factors. The Court
refused to find a mitigating circumstance based on
mental impairment, either as a statutory or nonstatutory factor. The Court did find one nonstatutory
mitigating circumstance (Kayer’s importance in his
son’s life), but held it was outweighed by two statutory
aggravating circumstances—a previous conviction of a

2

This ruling pre-dated Ring v. Arizona, 536 U.S. 584 (2002).

App. 262
“serious offense” for first-degree burglary in 1981 and
“pecuniary gain” as motivation for the murder.
On state habeas review, Kayer argued that his trial
counsel provided ineffective assistance of counsel at the
penalty phase. Kayer presented evidence in his PCR
proceeding that his trial counsel performed little
investigation of mitigating circumstances. Had counsel
properly investigated, Kayer argued, trial counsel
would have discovered that: Kayer suffered from
bipolar disorder and “personality disorders”; Kayer had
“a family history of problems with alcohol, gambling
and bipolar disorder that increased his risk of
developing one or more of these disorders”; Kayer’s
father died when he was young, resulting in
“significant instability including frequent moves”;
Kayer’s “performance in school was not good”; Kayer
was “having difficulties with out of control pathological
gambling” and “extensive alcohol abuse” at the time of
the murder; and, to top it all off, Kayer had suffered a
heart attack weeks before the murder, an “important
source of emotional distress that was likely
exacerbating all his other problems.” Kayer, 923 F.3d
at 713. The PCR court denied relief, holding that
Kayer’s counsel had not been ineffective, and that, in
any event, any deficiencies did not prejudice Kayer.
The Arizona Supreme Court denied review without
comment.
Kayer then sought federal habeas relief. The
district court denied relief. Kayer appealed,
contending, as relevant here, that the Arizona PCR
court erred in holding that his Sixth Amendment right
to counsel was not violated by his counsel’s deficient

App. 263
performance at the penalty phase. A divided panel
reversed, holding that no reasonable jurist could
conclude that Kayer’s counsel had rendered effective
representation by failing to conduct a mitigation
investigation in preparation for the penalty phase, and
that counsel’s failure to investigate prejudiced Kayer.3
Judge Owens dissented as to whether counsel’s failure
prejudiced Kayer. A reasonable jurist could find the
purported mitigation evidence would not have made a
difference, Judge Owens reasoned, given the “brutal”
manner in which Kayer killed Haas and the “hardly
overwhelming” mitigating evidence. Id. at 726–27
(Owens, J., concurring in part and dissenting in part).
II
The Court of Appeals reviews the district court’s
denial of a 28 U.S.C. § 2254 habeas corpus petition de
novo. Deck v. Jenkins, 814 F.3d 954, 977 (9th Cir.
2016).
Because Kayer’s state conviction was entered after
April 24, 1996, Kayer’s habeas petition is subject to
AEDPA, under which “[w]e review the last reasoned
state court opinion.” Musladin v. Lamarque, 555 F.3d
830, 834 (9th Cir. 2009). In this case, that opinion is
the written order of the state PCR court.

3

Apparently, the following are thus unreasonable jurists: Arizona
Superior Court Judge William T. Kiger, the state PCR court judge;
the five members of the Arizona Supreme Court who denied
Kayer’s petition for review of Judge Kiger’s PCR decision; U.S.
District Court Judge David G. Campbell, who denied federal
habeas relief; Judge Owens; and me.

App. 264
AEDPA bars relitigation of any claim the state
court decided on the merits unless the state court’s
determination was “contrary to, or involved an
unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States.” 28 U.S.C. § 2254(d)(1). A state
court unreasonably applies Supreme Court precedent
“if the state court identifies the correct governing legal
principle from the Supreme Court’s decisions but
unreasonably applies that principle to the facts of the
prisoner’s case.” Mann v. Ryan, 828 F.3d 1143, 1151
(9th Cir. 2016) (en banc) (alteration omitted) (quoting
Williams v. Taylor, 529 U.S. 362, 413 (2000)).
AEDPA’s standard is “highly deferential” and
“difficult to meet.” Harrington, 562 U.S. at 102, 105
(citations omitted). To meet it, a petitioner must show
that the state court’s decision was “so lacking in
justification that there was an error well understood
and comprehended in existing law beyond any
possibility for fairminded disagreement.” Id. at 103.
According to the Supreme Court, this is literally “the
only question that matters.” Id. at 102 (quoting
Lockyer, 538 U.S. at 71). In other words, AEDPA
“demands that state-court decisions be given the
benefit of the doubt.” Visciotti, 537 U.S. at 24.
III
Kayer contends that the state PCR court’s review of
his Sixth Amendment claim involved an unreasonable
application of the Supreme Court’s decision in
Strickland. See 28 U.S.C. § 2254(d)(1). Specifically,
Kayer contends that he was denied his Sixth
Amendment right to effective assistance of counsel due

App. 265
to his attorneys’ inadequate mitigation investigation in
preparation for his penalty phase hearing. See Wiggins
v. Smith, 539 U.S. 510, 521–22 (2003).
For the sake of argument, I assume the panel
rightly concluded that Kayer’s attorneys performed
deficiently by failing to conduct an adequate penalty
phase investigation.4 But a habeas petitioner must
establish both deficient performance and “a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” Strickland, 466 U.S. at 694. No matter how
inadequate Kayer’s attorneys may have been, deficient
performance alone is not enough to merit relief. And
“[a] reasonable probability is a probability sufficient to
undermine confidence in the [verdict].” Id. As is critical
here, after a state PCR court finds there was no
reasonable probability the result would have been
different but for counsel’s unprofessional errors, that
finding must stand unless it was “objectively
unreasonable.” Porter v. McCollum, 558 U.S. 30, 31
(2009) (per curiam).
IV
The discussion that follows proceeds in three steps.
First, I relate the mitigating evidence Kayer presented
to the PCR court. Second, I explain why the panel
majority’s review of the PCR court’s opinion applied a
de novo review that flouts AEDPA’s highly deferential
standards. Third, I explain why the mitigation
4

Judge Owens appears to have concurred in this conclusion. See
Kayer, 923 F.3d at 727 (Owens, J., concurring in part and
dissenting in part).

App. 266
evidence was not “sufficient to undermine confidence in
the [verdict],” Strickland, 466 U.S. at 694—certainly
not “beyond any possibility for fairminded
disagreement,” Harrington, 562 U.S. at 103.
A
Personal Background. According to some, Kayer
was “slow to walk” and “slow at all developmental
stages.” Kayer was dyslexic and struggled in school.
His high school transcript is smattered with Cs, Ds,
and Fs, though, also, with the occasional Bs (in
“Speech,” “Typing,” and “Drafting”). Kayer left high
school without graduating and enlisted in the Navy.
There, he had two “unauthorized absences” (“Uas”) in
eight months. He returned from his second UA “to see
a psychiatrist.” At Bethesda Naval Hospital, in May
1973 and at the age of eighteen, Kayer was diagnosed
with a “passive-aggressive personality.” On discharge,
his Lieutenant Commander noted that he had a
“sever[e] . . . personality disorder.”
In his twenties, Kayer didn’t fare much better. He
bounced around Arizona state colleges but never
graduated. Kayer also “never held a job for a sustained
period.” Throughout his twenties and thirties, he was
a serial burglar (arrested twice). He married twice in
his early twenties, but both ended in divorce. He then
met Cindy Seitzberg, with whom he fathered a son. His
son was dropped in the delivery room and suffered
permanent brain damage. Seitzberg left a year later,
and Kayer’s half-sister and mother became his infant
son’s co-guardians.

App. 267
Addictive Behavior. Throughout this period,
Kayer “smoke[d] weed almost every day” (beginning at
sixteen),5 drank regularly (beginning in his early
twenties), and became a compulsive gambler
(“[s]ometime in his twenties”). Kayer, 923 F.3d at
709–10. As to his alcohol abuse, a former accomplice to
his burglaries recounted that together they would
drink beer “for breakfast, lunch and dinner.” When
Kayer voluntarily checked himself into a Veterans
Administration (“VA”) hospital at the age of thirty-five,
the observing doctor reported that Kayer “had been
drinking continuously and heavily for the past seven
years.” As to his gambling, Kayer’s half-sister
described his obsession with a personal gambling
“system” and countless trips to Las Vegas—including,
once, while on house arrest after release for a burglary
conviction. That time, Kayer turned himself in after he
lost all his money and was sentenced to an additional
nineteen months for violating parole.
Family History. Kayer came from a family of
unsavory characters. His father was an alcoholic and
compulsive gambler who left the family when Kayer
was two and died at age thirty-nine of a heart attack.
On his mother’s side, one of his aunts was “an alcoholic
with severe mood swings,” and another was an
alcoholic who was “severely depressed.” One of his
cousins—diagnosed first as schizophrenic and then as
bipolar—“blew” her “entire retirement” in a single
weekend in Vegas. And that’s not to mention his Uncle
5

The panel majority opinion contains passing references to Kayer
“us[ing] speed on the weekends” and using LSD “sometimes” in his
late teens. Kayer, 923 F.3d at 709.

App. 268
John: “a thief, a robber,” who “held his own family
members at gunpoint and knifepoint a few times.”
Uncle John, one of Kayer’s aunts testified, “hit his head
in a creek in Oklahoma and he just never did do too
good after that.”
Despite the cast of characters circling Kayer’s
youth, there is no evidence Kayer was ever the subject
of abuse, either by beatings or sexual molestation. Nor
is there any evidence Kayer suffered organic brain
damage from an accident or some traumatic childhood
event.
Mental Health. Kayer’s mother and sister testified
before the PCR court that Kayer experienced “severe
mood swings”—for example, proposing to take a trip
“out-of-the blue” when “it wasn’t a good time,” and
“either work[ing] [at something] all out, or do[ing]
nothing.”
In 1983 and at the age of twenty-nine, Kayer
voluntarily went to a VA hospital. The doctor
diagnosed him with an “adjustment disorder with
depressed mood.” Six years later, he was “admitted . . .
with depression and suicidal ideation” after his thengirlfriend left him. Kayer was kept at the hospital for
eighteen days. The observing doctor wrote that Kayer
“showed bipolar traits,” but was not “considered to be
a danger to himself or others” at the time of discharge.
A year later, he was referred to a VA “Day Treatment
Center” with a “provisional diagnosis” of “Personality
Disorder/Bipolar.”
Some evidence suggests Kayer held delusional
beliefs and heard voices. In an interview with a private

App. 269
investigator for one of Kayer’s mitigation experts,
Kayer stated that he came to believe at age seven—and
continues to believe—that he came to earth from
another planet. He also maintained, in the same
interview, that the uncle of Kayer’s second wife—an
Afghan woman—was “the deposed king of
Afghanistan.” Finally, one of Kayer’s aunts testified in
the PCR court that she has heard voices her entire life,
and that Kayer too heard voices: “I was just telling him
about my life and he said ‘I thought it was normal[.] I
hear voices, too.’”
Professional Assessments. Three experts
evaluated Kayer in Arizona prison, after Kayer’s
murder conviction. First, Dr. Anne Herring met with
Kayer in March 2005 (over a decade after the murder),
and administered a battery of tests. Dr. Herring
testified before the PCR court that Kayer received
average scores on all tests except for “one of the more
cognitively challenging” ones due to Kayer’s
“persist[ence] in applying incorrect concepts despite
receiving feedback.” Dr. Herring suggested that
applying such “incorrect concepts” is similar to deficits
that “have been associated with chronic heavy
substance abuse, traumatic brain injury, and with
bipolar disorder.”6
Next, Dr. Michael Sucher, a specialist in “alcohol
and drug addiction medicine,” met with Kayer in April
2005. Dr. Sucher’s notes reflect that Kayer spent

6

But again, Dr. Herring did not cite to any record evidence, nor did
anything in the record reflect, that Kayer ever experienced
traumatic brain injury.

App. 270
“probably one-quarter to one-third” of his interview
discussing his gambling “system.” Dr. Sucher testified
that Kayer had “untreated alcoholism and untreated
pathological gambling.” And he gave this incisive take:
Gambling and drinking “often make individuals who
are so impaired do things that they would not normally
do.”
Finally, Dr. Barry Morenz twice interviewed Kayer
in March and April 2005 for a total of five and a half
hours and reviewed Kayer’s medical records. Dr.
Morenz wrote in his subsequent report that Kayer
spent much of the interview talking about his system
for predicting winning lottery numbers. Kayer
explained that he believed in reincarnation and that
there is “residue in him from when Mars was populated
and perhaps populations from other worlds as well.”
Dr. Morenz characterized Kayer as “really delusional,”
and ultimately diagnosed Kayer with “Bipolar type I
disorder, hypomaniac; Alcohol dependence in a
controlled environment; Polysubstance abuse in a
controlled environment; Pathological gambling;
Cognitive disorder not otherwise specified.” And Dr.
Morenz purported to offer an account of Kayer’s
conditions in 1994 that tied together the various
strands of evidence discussed above:
There are a number of factors that have
increased the risk of Mr. Kayer
developing a number of psychiatric
problems. First, there is considerable
comorbidity among psychiatric
diagnoses. . . . In Mr. Kayer this is
relevant because people with bipolar

App. 271
disorders and personality disorders are at
an increased risk of developing substance
abuse disorders. Also, people with
personality disorders have an increased
risk of mood disorders. Secondly, Mr.
Kayer had a family history of problems
with alcohol, gambling and bipolar
disorder that increased his risk of
developing one or more of these disorders.
Thirdly, as a child Mr. Kayer grew up
with significant instability including
frequent moves and his father’s sudden
death when Mr. Kayer was still very
young which probably contributed to his
later psychiatric difficulties. There is
evidence that even as a child Mr. Kayer
was showing signs of emotional problems
as his performance in school was not
good. This poor school performance was
probably an early sign of a bipolar
disorder or a personality disorder or a
combination of the two. By the time Mr.
Kayer washed out of the military Mr.
Kayer likely had moderately severe
psychiatric problems that went
untreated. . . . [I]t seems clear that he has
suffered from serious psychiatric
problems during most of his adult life and
he continues to show signs of those
problems today. . . .
At the time of the murder in 1994 Mr.
Kayer was probably having serious
psychiatric problems. He was having

App. 272
problems with bipolar disorder symptoms
and may have been manic or hypomanic,
he was having difficulties with out of
control pathological gambling and he had
difficulty with extensive alcohol abuse.
T h e s e d i f f i c ul t i e s w e r e l i k e l y
superimposed on his personality disorder
problems and his cognitive disorder not
otherwise specified. Mr. Kayer’s belief
that he would not live long as a result of
the heart attack he had suffered a few
weeks before the murder was another
important source of emotional distress
that was likely exacerbating all his other
problems during this period.
All this evidence was before the state PCR court, which
concluded that Kayer had not been prejudiced by his
trial counsel’s failure to introduce this evidence in
mitigation and before sentencing. He should know,
because in Arizona the same judge who presides over
a defendant’s trial and sentencing also presides over
the PCR proceeding. After first noting that counsel had
performed adequately, the PCR court noted: “This
court further concludes that if there had been a finding
that the performance prong of the Strickland standard
had been met, that no prejudice to the defendant can
be found.” Kayer, 923 F.3d at 714 (quoting PCR court
order).
B
As detailed below, there is no ignoring the obvious
conclusion that a reasonable jurist could conclude that
Kayer was not in fact prejudiced by his counsel’s

App. 273
failings in this case, but broader legal errors permeate
the panel majority’s opinion, which counseled en banc
correction.
As discussed above, but it bears repeating, AEDPA’s
standard of review is “highly deferential” and “difficult
to meet.” Harrington, 562 U.S. at 102, 105 (citations
omitted). Here, we must apply that strong deference
and decide whether “it was objectively unreasonable
[for the state PCR court] to conclude there was no
reasonable probability the sentence would have been
different if the sentencing judge” heard the mitigation
evidence Kayer’s counsel presented to the PCR court.
Porter, 558 U.S. at 31. Whether the PCR court’s noprejudice conclusion was objectively unreasonable
depends on whether it was “so lacking in justification
that there was an error well understood and
comprehended in existing law beyond any possibility
for fairminded disagreement.” Harrington, 562 U.S. at
103.
What standard did the panel majority apply? The
panel majority stated that in its own view (affording no
deference whatsoever), “the evidence [Kayer] presented
to the PCR court was sufficient to establish [an
Arizona] statutory mitigating circumstance” of mental
impairment. Kayer, 923 F.3d at 718. Then (again, in its
own view), the panel majority posited that the
sentencing court “would have added” the Arizona
statutory mitigating mental impairment to the balance
of aggravating and mitigating factors, and the addition
“could have changed the outcome of the sentencing
proceeding.” Id. at 718–20. Thus, in the majority’s
independent judgment, it pronounced “that there is a

App. 274
reasonable probability Kayer’s sentence would have
been less than death” if the sentencing judge heard the
mitigation evidence. Id. at 723. And because the panel
majority believed there was such a probability, that
alone meant “that the state PCR court was
unreasonable in concluding otherwise.” Id. Again:
“unreasonable in concluding otherwise.” Id.
The panel majority’s opinion is de novo review,
plain and simple. Nothing in its review of the state
PCR court’s decision included any deference
whatsoever, particularly the high deference mandated
by AEDPA. And the dearth of deference is particularly
unnerving here because who better to determine
whether the new evidence would have made a
difference at sentencing than the judge who sentenced
Kayer to death. Judge Kiger presided over both
sentencing and the PCR proceedings, and he concluded
the new evidence would have made no difference. His
“unique knowledge of the trial court
proceedings”—including his front-row seat to the
presentation of evidence showing Kayer’s brutal and
venal murder—”render[ed] him ‘ideally situated’” to
evaluate Kayer’s claim that the introduction of new
evidence would have changed the sentencing outcome.
Murray v. Schriro, 882 F.3d 778, 821 (9th Cir. 2018)
(quoting Landrigan, 550 U.S. at 476).7 This is not to
say that Judge Kiger is entitled to some sort of superdeference simply because he sentenced Kayer to death.

7

Apparently, the panel majority here is not alone in improperly
second-guessing state court judges in this regard recently. See
Washington v. Ryan, 922 F.3d 419, 433–34 (9th Cir. 2019)
(Callahan, J., dissenting).

App. 275
But there is something particularly troubling about the
panel majority affording no deference whatsoever to
Judge Kiger’s PCR court decision, as the last reasoned
state court opinion.
In failing to accord the state PCR court decision any
deference whatsoever, the panel majority committed
two errors. First, the majority contended the PCR court
is entitled to no “special” deference—really, no
deference at all—because Strickland demands that
PCR courts assess whether there is a reasonable
possibility that “the sentencer—including an appellate
court, to the extent it independently reweighs the
evidence—would have concluded that the balance of
the aggravating and mitigating factors did not warrant
death.” Kayer, 923 F.3d at 720 (quoting Strickland, 466
U.S. at 695). Put differently, the panel majority did not
defer to Judge Kiger’s analysis of whether there is a
reasonable possibility that new evidence would have
resulted in a sentence less than death because Judge
Kiger in his PCR role must conduct this analysis in an
objective and independent manner. And Judge Kiger in
his PCR role must objectively consider what an
independent reviewing court might think. But just
because Judge Kiger in his PCR role here was required
to “consider the probability of a different outcome in
the Arizona Supreme Court,” White v. Ryan, 895 F.3d
641, 671 (9th Cir. 2018), does not mean Judge Kiger
merits no deference at all in gauging whether the new
evidence would have made a difference.
The panel majority’s second, and more stunning
error concerns its discussion of the probability of a
different outcome in the Arizona Supreme Court. After

App. 276
just saying that “we assess prejudice independent of
the particular judge or judges” to take away deference
to Judge Kiger, the panel majority then proposes that
the yardstick for whether there is a reasonable
probability Kayer would not have been sentenced to
death if the new evidence were presented to the
sentencing court is whether this case is more like cases
in which the Arizona Supreme Court at one point
affirmed a death penalty imposed by the trial court on
direct de novo review or more like cases in which the
Arizona Supreme Court reversed. Kayer, 923 F.3d at
721–23. Purportedly because Kayer’s case looks more
like the reversals—and in particular, State v.
Brookover, 601 P.2d 1322 (Ariz. 1979) (in banc)—the
panel majority concludes that Kayer established a
reasonable probability of a different outcome.
The panel majority does not explain why it is
appropriate for AEDPA review to turn on Arizona
Supreme Court reversal trends on de novo review of
direct appeals. Just because the Arizona Supreme
Court in Brookover reversed a case with some
similarities, but also with a glaring dissimilarity (as
discussed further below), forty years ago on de novo
review does not mean the PCR court’s conclusion that
in this case the new evidence would not have made a
difference is objectively unreasonable and beyond room
for fairminded disagreement. Harrington, 562 U.S. at
103.
Admittedly, the panel majority’s resort to the “best
evidence” of what the Arizona Supreme Court would
have done—its decisions—has a certain first-blush
plausibility. But by holding that the Arizona courts

App. 277
were objectively unreasonable in failing to adopt this
court’s analysis of Arizona law, the panel majority
employs a mode of habeas review of a Strickland claim
that is quite literally unprecedented. The panel
majority’s defense of its approach cites not a single
authority for the proposition that the measure for
federal habeas review of a state PCR court’s
Strickland-prejudice conclusion may be evaluated by
“look[ing] at de novo sentencing decisions by the [state]
Supreme Court in comparable cases.” Kayer, 923 F.3d
at 724.
The rule is as misguided as it is novel. For starters,
the panel majority’s approach would make federal
habeas review of every Strickland claim turn on the
state in which the petitioner was sentenced. So U.S.
Supreme Court habeas precedents that involve
California apparently could be distinguished away in
habeas appeals from Arizona, on the sole ground that
“we ask what an Arizona rather than a California
sentencing court would have done.” Id. The panel
majority appears untroubled by this point, but its
implications are striking: Their approach—at least for
Strickland prejudice—transmutes “clearly established
Federal law, as determined by the Supreme Court of
the United States” into law as determined by state
supreme courts. 28 U.S.C. § 2254(d)(1).
The panel majority’s approach is also impossible to
square with Judge W. Fletcher’s earlier en banc
majority opinion in McKinney v. Ryan, 813 F.3d 798
(9th Cir. 2015) (en banc). There, McKinney was
sentenced to death and his sentence was affirmed by
the Arizona Supreme Court. Id. at 802. McKinney filed

App. 278
a federal habeas petition, challenging in relevant part
his death sentence, because the state courts—following
Arizona Supreme Court precedent—forbade
consideration of certain mitigating evidence unless it
bore a “causal nexus to his crimes.” Id. at 803. And the
en banc panel granted McKinney’s writ with respect to
his sentence because Arizona’s “causal nexus”
requirement was contrary to clearly established federal
law established in Eddings v. Oklahoma, 455 U.S. 104,
114 (1982), which held that a sentencer in a capital
case may not refuse to consider as a matter of law
relevant mitigating evidence. Id. at 810.
Unlike here, the en banc majority in McKinney not
once queried whether the Arizona courts’ analysis of
Arizona law was based on an objectively reasonable
reading of Arizona precedent. Because unlike here, the
en banc majority in McKinney cited the proper
standard of review set forth in Harrington, which is
that federal courts may grant relief under AEDPA
“only if the state court’s application of clearly
established federal law was objectively unreasonable,
such that fairminded jurists could not disagree that the
arguments or theories that supported the state court’s
decision were inconsistent with the holding in a prior
decision of the Supreme Court.” Id. at 811 (internal
quotation marks, citations, and brackets omitted).
How then did the panel majority here rationalize
tethering the propriety of the state PCR court’s noprejudice finding to a comparison of the facts with “de
novo sentencing decisions by the Arizona Supreme
Court in comparable cases”? Kayer, 923 F.3d at 724. In
short, it did not. Nor could it, unless the panel majority

App. 279
meant to create a rule that under AEDPA, adherence
to state precedent is relevant (and mandatory) when it
leads to relief, but not when it leads to denial of relief.
See discussion supra of McKinney. It should go without
saying that AEDPA condones no such a rule. Rather,
federal courts should be concerned only with what the
Supreme Court has repeatedly instructed is “the only
question that matters”: whether “there is no possibility
fairminded jurists could disagree” that the Arizona
decision itself conflicts with federal precedent.
Harrington, 562 U.S. at 102.
At a more fundamental level, the panel majority’s
approach is deeply anathema to AEDPA’s basic
purpose. “Section 2254(d) reflects the view that habeas
corpus is a ‘guard against extreme malfunctions in the
state criminal justice systems,’ not a substitute for
ordinary error correction through appeal.” Id. at
102–03 (quoting Jackson v. Virginia, 443 U.S. 307, 332
n.5 (1979) (Stevens, J., concurring in judgment)). It is
hard to see here how the panel majority’s analysis
differs at all from de novo review—indeed, a de novo
sentencing direct appeal analysis the Arizona Supreme
Court itself has already done in denying relief to
Kayer.
It cannot be stressed enough just what the panel
did wrong. Rather than ask whether fairminded jurists
could disagree about whether the new mitigation
evidence was sufficient to undermine confidence in the
outcome, the panel majority began its inquiry by
asking from scratch: “[W]as the mitigation evidence
that was presented to the PCR court sufficient to
establish a ‘reasonable probability,’ ‘sufficient to

App. 280
undermine confidence in the outcome,’ that the result
of the sentencing hearing would have been different?”
Kayer, 923 F.3d at 716. Looking to Arizona Supreme
Court de novo sentencing appeals, the panel majority
then concluded that those cases indeed “show[] that
there is a reasonable probability that Kayer would not
have been sentenced to death if the mitigating evidence
presented to the PCR court had been presented to the
sentencing court.” Id. at 721. The panel majority
therefore held “there is a reasonable probability
Kayer’s sentence would have been less than death,
and”—almost as an afterthought—“that the state PCR
court was unreasonable in concluding otherwise.” Id. at
723. (Here, of course, neglecting to mention that the
standard is whether the state PCR court was
“objectively” unreasonable: that its decision was one
“beyond any possibility for fairminded disagreement,”
the “only question that matters.” Harrington, 562 U.S.
at 102–03.)
The Supreme Court has repeatedly condemned this
de-novo-masquerading-as-deference approach. In
Harrington, for example, the Court chastised the Ninth
Circuit for “treat[ing] the unreasonableness question as
a test of its confidence in the result it would reach
under de novo review.” 562 U.S. at 102. But that is
precisely what the panel majority did here. And if there
were any remote doubt about the impropriety of panel
majority’s analysis, one need only ask themselves if the
following sounds familiar:
Here it is not apparent how the Court of
Appeals’ analysis would have been any
different without AEDPA. The court

App. 281
explicitly conducted a de novo review; and
after finding a Strickland violation, it
declared, without further explanation,
that the state court’s decision to the
contrary constituted an unreasonable
application of Strickland. AEDPA
demands more. Under § 2254(d), a habeas
court must determine what arguments or
theories supported or, as here, could have
supported, the state court’s decision; and
then it must ask whether it is possible
fairminded jurists could disagree that
those arguments or theories are
inconsistent with the holding in a prior
decision of this Court. The opinion of the
Court of Appeals all but ignored the only
question that matters under § 2254(d)(1).
Id. at 101–02 (internal quotation marks and citations
omitted).
The panel majority’s approach evinces no deference:
In both the panel majority’s actual analysis and an
Arizona Supreme Court de novo sentencing direct
review, the inquiry begins and ends with “de novo
sentencing decisions by the Arizona Supreme Court in
comparable cases.” Kayer, 923 F.3d at 724. It should go
without saying that AEDPA does not authorize Article
III judges to role-play as super state Supreme Court
justices.8
8

As should be understood, the proper approach instead requires
federal courts to “presum[e] that state courts know and follow the
law.” Visciotti, 537 U.S. at 24. Federal courts must determine what
arguments supported or could have supported the state court’s

App. 282
C
As just discussed, the panel majority mangled the
law in reviewing de novo a state court decision and
making out of whole cloth a method of review that
requires idiosyncratically comparing a given case’s
facts to past state supreme court cases engaged in their
own de novo review. If these errors were not reason
enough to take the case en banc, the panel majority’s
conclusions are clearly unwarranted under the proper
AEDPA framework.
Assuming that all of the mitigating evidence Kayer
presented in the PCR proceeding (and summarized
above) would have been introduced to the trial court, is
it possible that fairminded jurists could find that
evidence insufficient to establish a reasonable
probability of a different outcome? See Harrington, 562
U.S. at 102. Based on the above description of the
evidence alone, one would think the answer obvious. As
Judge Owens notes, Kayer’s crime was “brutal” and the
mitigation evidence “hardly overwhelming.” Kayer, 923
F.3d at 726–27 (Owens, J., concurring in part and
dissenting in part). What is more, Kayer deliberated
about committing the brutal, venal crime before (twice)
pulling the trigger.
Kayer killed Haas for a few hundred dollars’ worth
of cash and other items. He did so in a premeditated
fashion, telling his girlfriend that, unable to repay his
decision, and ask “whether it is possible fairminded jurists could
disagree that those arguments or theories are inconsistent with
the holding in a prior decision” of the U.S. Supreme Court.
Harrington, 562 U.S. at 102.

App. 283
minor gambling debt to Haas, “I guess I’ll just have to
kill him.” Kayer then deliberately took Haas to a
remote location, shot Haas in the head at point-blank
range, and stripped Haas’s body of valuables. But even
that wasn’t enough, apparently. Once on the road,
Kayer turned around to retrieve Haas’s house keys
from the body, to loot Haas’s home. After shooting
Haas again for good measure, Kayer took Haas’s keys
and in an act of increased venality, ransacked Haas’s
home—before spending the next week gambling and
pawning off the loot. And while Kayer’s girlfriend later
thought better of what happened and turned herself in,
Kayer never looked back.
In the face of that brutal crime, “assuring the court
that genetics made him the way he is could not have
been very helpful.” Landrigan, 550 U.S. at 481. And
that is indeed what Kayer’s mitigation evidence
amounts to—“mental illness, and gambling and alcohol
addiction.” Kayer, 923 F.3d at 727 (Owens, J.,
concurring in part and dissenting in part). There is no
evidence of childhood “severe privation and abuse,” or
“physical torment,” or sexual molestation—no broken
bones, concussions, hospitalization, or any kind of
serious or lasting injury from childhood abuse. Cf.
Wiggins, 539 U.S. at 512; Williams, 529 U.S. at 370.
Despite Dr. Herring writing in her report that Kayer’s
deficits were akin to those associated with traumatic
brain injury, nothing in the record indicates that Kayer
ever actually experienced any traumatic brain injury.
Although Kayer started smoking weed at sixteen
and drinking in his twenties, his family did not appear
to have introduced him to alcohol or drugs. And he was

App. 284
not hospitalized for drinking when he was very young.
Cf. Williams, 529 U.S. at 395 n.19. Notwithstanding
descriptions of Kayer as “slow,” there is no evidence
Kayer suffered organic brain damage, or has an IQ in
the modern-day equivalent of what was previously
termed the “mentally retarded range.” Cf. Rompilla v.
Beard, 545 U.S. 374, 393 (2005); Wiggins, 539 U.S. at
535. Indeed, Dr. Herring testified that Kayer’s results
were “average” on all but one in an extensive battery of
psychiatric tests. On direct appeal, Kayer even cited
his “relatively high intelligence” as a mitigating factor.
Arizona v. Kayer, 984 P.2d 31, 48 (Ariz. 1999) (en banc)
(emphasis added).
Taking at face value Kayer’s evidence, “[w]hether,
and to what degree, [it] is mitigating is highly
debatable.” Pinholster v. Ayers, 590 F.3d 651, 715 (9th
Cir. 2009) (Kozinski, J., dissenting), rev’d sub nom.
Cullen v. Pinholster, 563 U.S. 170 (2011). For instance,
one ordinarily might think that evidence the defendant
drinks and gambles to excess would cast his character
in a particularly unfavorable light. Yet because “Kayer
had been drinking heavily on the day of the killing, and
Kayer killed the victim in order to obtain funds to
continue gambling,” the panel majority suggested, his
alcoholism and pathological gambling are especially
mitigating. Kayer, 923 F.3d at 721. The panel majority
of course ignored that Kayer first planned to kill Haas
before the day of the killing and thus had time to
change his mind. This was a planned and brutal
murder. Only a jurist caught up in the throes of an
“infatuation with ‘humanizing’ the defendant” could
take seriously the panel majority’s conclusions to the

App. 285
contrary. Pinholster, 590 F.3d at 692 (Kozinski, J.,
dissenting).
Making matters worse, although the panel
majority’s unprecedented new standard of review that
requires comparing cases to state supreme court
reversals is unwarranted as a matter of law, the panel
majority’s analysis further errs by “overlook[ing]
arguments that would otherwise justify the state
court’s result.” Harrington, 562 U.S. at 102. The panel
majority relies heavily on Brookover as its Arizona
Supreme Court de-novo-reversal analogue. There,
defendant Brookover agreed to buy 750 pounds of
marijuana from the victim. Upon delivery, Brookover
shot the victim to avoid paying for it, and shot him
once more in the back when the victim fell to the floor.
There, as in Kayer’s case, the Arizona Supreme
Court did not find a statutory aggravating factor that
the murder had been committed in “an especially
heinous, cruel, or depraved manner.” Like Kayer,
Brookover had been previously convicted of a serious
crime, and he committed the crime for pecuniary gain.
“The one mitigating circumstance was mental
impairment.” See Kayer, 923 F.3d at 722. The Arizona
Supreme Court set aside the death sentence imposed
by the trial court.
“The only difference,” says the panel majority,
between Brookover and Kayer’s case is “that one of the
statutory aggravators was stronger in Brookover”:
Although the Brookover opinion does not describe the
prior conviction, the statutory aggravator at the time
required a crime “for which the death penalty or life
imprisonment could be imposed.” Id. at 723–24.

App. 286
(Arizona later changed the statutory aggravator to a
prior conviction for a “serious crime”). Neither death
nor life imprisonment could be imposed for first-degree
burglary, Kayer’s prior conviction. Thus, the panel
majority reasoned, the reversal of Brookover’s sentence
on worse facts compels reversal of Kayer’s sentence on
better facts.
But the panel majority’s mechanistic weighing of
the “statutory” and “non-statutory” mitigators elided
obvious distinctions between the cases. Just to take
one: Brookover’s mental impairment involved an
organic brain injury: a “pre existing” “neurological
lesion” associated with serious “anti social” behavior.
Brookover, 601 P.2d at 1325. Kayer’s claimed
mitigating evidence was merely self-administered
“untreated alcoholism and untreated pathological
gambling.” This is no trivial distinction. In countless
cases finding Strickland prejudice on federal habeas
review for failing to investigate at the penalty phase,
the Supreme Court has found particularly sympathetic
claims of “organic brain damage” and mental
retardation, see Rompilla, 545 U.S at 392; “brain
damage” and “brain abnormality,” see Porter, 558 U.S.
at 36; and “frontal lobe brain damage,” with “bottom
first percentile” cognitive functioning, see Sears v.
Upton, 561 U.S. 945, 946 (2010). Kayer, by contrast,
has adduced no evidence of such injury or functioning.
A fairminded jurist could reasonably distinguish
Brookover on that ground alone.
Consider as well that (at least in the panel
majority’s view) Kayer’s mental impairment was so
significant because he was at least provisionally

App. 287
diagnosed bipolar, which purportedly may have
manifested “manic or hypomanic” symptoms at the
time of the murder. Kayer, 923 F.3d at 713. But relying
on Kayer’s bipolar disorder is not so simple. As the
panel majority noted, Kayer at one point was
prescribed lithium, the standard drug to treat the
disorder. Id. at 719. Evidence in the record, however,
reflects that Kayer intentionally refused to take the
medication. See id. at 697. Why couldn’t a fairminded
jurist review that evidence and reason that to the
extent Kayer’s bipolar disorder in some sense
influenced Kayer’s decision to murder his friend, Kayer
should still be held responsible for his conduct because
he refused to medicate?
Finally, as Judge Owens’s dissent carefully
explains, Visciotti, 537 U.S. at 24, puts any lingering
doubt to rest. Kayer, 923 F.3d at 726–27 (Owens, J.,
concurring in part and dissenting in part). “There, in a
preplanned armed robbery, the defendant and his coworker shot two co-workers as they all drove to a party
and made a remote bathroom stop (one victim died and
one survived).” Id. The defendant was sentenced to
death and, “[a]t the PCR stage, the California Supreme
Court determined that the defendant had not been
prejudiced by his counsel’s failure to introduce
mitigating evidence” of Visciotti’s brain damage and
impulse disorder. Id. at 727.
The California Supreme Court held that the
mitigating evidence was outweighed by “the
circumstances of the crime (a cold-blooded executionstyle killing of one victim and attempted executionstyle killing of another, both during the course of a

App. 288
preplanned armed robbery) coupled with the
aggravating evidence of prior offenses (the knifing of
one man, and the stabbing of a pregnant woman as she
lay in bed trying to protect her unborn baby).” Visciotti,
537 U.S. at 26. The Ninth Circuit granted habeas
relief. But the Supreme Court summarily reversed,
faulting the Ninth Circuit for impermissibly
“substitut[ing] its own judgment for that of the state
court.” Id. at 25. The Supreme Court had to remind the
Ninth Circuit that “[a]n unreasonable application of
federal law is different from an incorrect application of
federal law.” Id. (internal quotation marks omitted).
The panel majority freely admitted that the facts in
Visciotti “are similar” to Kayer’s, though it
halfheartedly distinguished Visciotti as a California
(not Arizona) case. Kayer, 923 F.3d at 724. This
admission alone should have decided this case. It
strains credulity to suggest that Kayer’s case marks an
“extreme malfunction[] in the state criminal justice
system[],” Harrington, 562 U.S. at 102, when the facts
of his case admittedly resemble so starkly the facts of
a case in which the Ninth Circuit was reversed
(summarily) by the Supreme Court.
Again, that this case is similar to Visciotti should be
enough by itself to demonstrate that fairminded jurists
could disagree whether the mitigation evidence would
have outweighed the aggravating evidence.
Perhaps the most telling indication of the panel
majority’s error in review by case-comparison is that
the panel majority rests its holding on an Arizona
Supreme Court de novo review reversal bearing
“striking” parallels to this case. Kayer, 923 F.3d at 722.

App. 289
To reach the opposite result, Judge Owens too cites a
precedent with “remarkably similar” facts. Id. at 726
(Owens, J., concurring in part and dissenting in part).
The difference? The panel majority’s is a decades-old
Arizona Supreme Court de novo review of a sentencing
decision involving a defendant with organic brain
damage, a critical fact. Judge Owens’s is a Supreme
Court summary reversal of a Ninth Circuit habeas
grant for one of errors the majority now repeats. I’ll
side with Judge Owens.
V
No one disputes Kayer has lived an unfortunate life.
But sympathy alone is not a basis to cast aside AEDPA
in favor of a novel de-novo-masquerading-as-deference
approach never sanctioned by the Supreme Court. And
if that were not bad enough, the panel majority’s de
novo review fails as well. AEDPA—as the Supreme
Court has told us—does not permit such conclusions. It
is likely time for the Supreme Court to remind us of
AEDPA’s requirements. For these reasons, I
respectfully dissent from our court’s unwillingness to
rehear this case en banc.

